<html>
<title> - TRACKING THE STORM AT THE NATIONAL HURRICANE CENTER</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                       TRACKING THE STORM AT THE
                       NATIONAL HURRICANE CENTER

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                                AND THE

              SUBCOMMITTEE ON INVESTIGATIONS AND OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 19, 2007

                               __________

                           Serial No. 110-47

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov



                     U.S. GOVERNMENT PRINTING OFFICE
36-736 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
PAUL KANJORSKI, Pennsylvania         TOM FEENEY, Florida
DARLENE HOOLEY, Oregon               RANDY NEUGEBAUER, Texas
STEVEN R. ROTHMAN, New Jersey        BOB INGLIS, South Carolina
MICHAEL M. HONDA, California         DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               VACANCY
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

                 Subcommittee on Energy and Environment

                   HON. NICK LAMPSON, Texas, Chairman
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
LYNN C. WOOLSEY, California          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           RANDY NEUGEBAUER, Texas
MARK UDALL, Colorado                 MICHAEL T. MCCAUL, Texas
BRIAN BAIRD, Washington              MARIO DIAZ-BALART, Florida
PAUL KANJORSKI, Pennsylvania             
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  JEAN FRUCI Democratic Staff Director
         SHIMERE WILLIAMS Democratic Professional Staff Member
          TARA ROTHSCHILD Republican Professional Staff Member
                    STACEY STEEP Research Assistant
                                 ------                                

              Subcommittee on Investigations and Oversight

               HON. BRAD MILLER, North Carolina, Chairman
JERRY F. COSTELLO, Illinois          F. JAMES SENSENBRENNER JR., 
EDDIE BERNICE JOHNSON, Texas             Wisconsin
DARLENE HOOLEY, Oregon               DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        TOM FEENEY, Florida
BRIAN BAIRD, Washington              MICHAEL T. MCCAUL, Texas
BART GORDON, Tennessee               RALPH M. HALL, Texas
                DAN PEARSON Subcommittee Staff Director
            JAMES PAUL Democratic Professional Staff Member
            TOM HAMMOND Republican Professional Staff Member
                    STACEY STEEP Research Assistant


                            C O N T E N T S

                             July 19, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Nick Lampson, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................     7
    Written Statement............................................     8

Statement by Representative Brad Miller, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................    11

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    12
    Written Statement............................................    13

Statement by Representative F. James Sensenbrenner, Jr., Ranking 
  Minority Member, Subcommittee on Investigations and Oversight, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    14
    Written Statement............................................    16

Prepared Statement by Representative Ron Klein from the State of 
  Florida, 22nd District.........................................    18

                                Panel I:

Mr. William Proenza, Director, Tropical Prediction Center
    Oral Statement...............................................    24
    Biography....................................................    26

Discussion
  NOAA Assessment Team...........................................    27
  Media Exposure.................................................    27
  Staff Dissatisfaction..........................................    28
  QuikSCAT.......................................................    29
  Hurricane Season: 2007.........................................    30
  More on QuikSCAT...............................................    30
  Integrating Research at the Hurricane Research Center and the 
    National Hurricane Center....................................    30
  Director Proenza's Tenure at the National Hurricane Center.....    31
  More on Media Exposure.........................................    33
  More on Director Proenza's Tenure at the National Hurricane 
    Center.......................................................    35
  Legal Obligations..............................................    37
  The Role of Congress...........................................    37
  More on QuikSCAT...............................................    38
  Director Proenza's Comments on QuikSCAT........................    39
  Future of QuikSCAT.............................................    40
  Director Proenza's History.....................................    43
  Concept of Operations Plan.....................................    43
  Criticisms and Shortcomings of the National Hurricane Center...    44
  Hurricane Center Personnel.....................................    46
  Hurricane Center Science and QuikSCAT..........................    46

                               Panel II:

Dr. Robert M. Atlas, Director, Atlantic Oceanographic and 
  Meteorological Laboratory, Office of Oceanic and Atmospheric 
  Research, National Oceanic and Atmospheric Administration, U.S. 
  Department of Commerce
    Oral Statement...............................................    49
    Written Statement............................................    51
    Biography....................................................    54

Mr. Donald L. McKinnon, Director, Jones County Emergency 
  Management Agency, Laurel, Mississippi
    Oral Statement...............................................    55
    Written Statement............................................    57
    Biography....................................................    60

Mr. Robie Robinson, Director, Dallas County Office of Security 
  and Emergency Management
    Oral Statement...............................................    60
    Written Statement............................................    62
    Biography....................................................    65

Discussion
  Director Proenza's Tenure in the Southern Region...............    65
  Hurricane Research Division and Hurricane Center Collaboration.    66
  Hurricane Research.............................................    66
  More on the Hurricane Center Personnel.........................    67
  Improving Hurricane Forecasting................................    67
  Alternatives to QuikSCAT.......................................    68
  More on Hurricane Research.....................................    69
  Director Proenza's Relationship With Witnesses.................    69
  Returning Dirrector Proenza to His Former Position.............    71
  Investigating Personnel Problems...............................    71

                               Panel III:

Vice Admiral Conrad C. Lautenbacher, Jr. (U.S. Navy, Ret.), Under 
  Secretary of Commerce for Oceans and Atmosphere; Administrator, 
  National Oceanic and Atmospheric Administration (NOAA)
    Oral Statement...............................................    73
    Written Statement............................................    75

Dr. James Turner, Deputy Director, National Institute of 
  Standards and Technology
    Oral Statement...............................................   112

Discussion
  NOAA's Reaction to the Problems With Director Proenza..........   114
  The Proenza Plan...............................................   115
  NOAA Documents.................................................   116
  The Management Assessment......................................   116
  Course of Action Taken With Director Proenza...................   117
  Witness Background.............................................   119
  Responsibilities as a Supervisor...............................   119
  Admiral Lautenbacher's Actions.................................   120
  More on QuikSCAT...............................................   121
  Next Generation Forecasting Tools..............................   123
  Additional Witnesses Would Have Been Useful....................   124
  More on State of Hurricane Forecasting.........................   125
  Role of the Committee..........................................   126


          TRACKING THE STORM AT THE NATIONAL HURRICANE CENTER

                              ----------                              


                        THURSDAY, JULY 19, 2008

                  House of Representatives,
        Subcommittee on Energy and Environment, and
      Subcommittee on Investigations and Oversight,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittees met, pursuant to call, at 10:00 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Nick 
Lampson [Chairman of the Subcommittee on Energy and 
Environment] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                                  AND

              SUBCOMMITTEE ON INVESTIGATIONS AND OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                       Tracking the Storm at the

                       National Hurricane Center

                        thursday, july 19, 2007
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    The Subcommittee on Energy and Environment and the Subcommittee on 
Investigations and Oversight will meet on July 19, 2007, to evaluate 
recent events at the National Oceanic and Atmospheric Administration 
(NOAA) Tropical Prediction Center (TPC/NHC).
    Upon the orders of NOAA's Administrator, Conrad Lautenbacher, an 
assessment team was formed to review the operations of the tropical 
prediction center. In response to the Assessment Team's preliminary 
reports, the Vice Admiral placed Center Director X. William (Bill) 
Proenza on administrative leave. NOAA Administrator Lautenbacher stated 
that ``. . .current conditions at the TPC pose an obstacle to the 
Team's completion of its work, as well as the Team's concern that, as 
expressed by many of you, there currently exists a level of anxiety and 
disruption that threatens the TPC's ability to fulfill its mission to 
protect the American people. . ..'' This hearing will explore the 
process that culminated in Mr. Proenza's removal.

Witnesses

Panel I

        1.  Mr. X. William Proenza, Director, Tropical Prediction 
        Center, National Hurricane Center, National Centers for 
        Environmental Prediction, National Oceanic and Atmospheric 
        Administration, has been invited to discuss his service as 
        Director of the Tropical Prediction Center/National Hurricane 
        Center and his experiences during the recent events that led 
        the NOAA Administrator to place him on leave.

Panel II

        2.  Dr. Robert Atlas, Director of the Atlantic Oceanographic 
        and Meteorological Laboratory, National Oceanic and Atmospheric 
        Administration. Dr. Atlas's laboratory is part of the Hurricane 
        Research Division, which works with the Tropical Prediction 
        Center to improve tools and techniques in hurricane 
        forecasting. He has been asked to focus on the use of QuikSCAT 
        data in the forecasting process.

        3.  Mr. Don McKinnon, Director, Jones County (MS) Emergency 
        Management Agency, will testify regarding services the National 
        Weather Service (NWS) provides to emergency management offices. 
        Mr. McKinnon dealt extensively with Mr. Proenza during his 
        service as Director of the Weather Service Southern Region 
        Office.

        4.  Mr. Robie Robinson, Director, Dallas County Office of 
        Security and Emergency Management, is testifying on behalf of 
        the Emergency Management Association of Texas regarding the 
        service provided to the emergency management community in Texas 
        by the National Weather Service (NWS) through the Southern 
        Region Office during the period of Mr. Proenza's tenure as its 
        Director.

Panel III

        5.  Hon. Conrad Lautenbacher, Vice Admiral, U.S. Navy (Ret.), 
        Undersecretary of Commerce for Oceans and Atmosphere and 
        Administrator, National Oceanic and Atmospheric Administration, 
        has been asked to describe how he decided to dispatch an 
        assessment team to the Tropical Prediction Center and, as a 
        result of a preliminary report from that team, to place Mr. 
        Proenza on leave. The team was directed to submit a report on 
        the situation at the Center on Friday, July 20, 2007.

        6.  Dr. James Turner, Deputy Director of National Institute of 
        Standards and Technology (NIST), led the Assessment Team at the 
        request of Admiral Lautenbacher and will testify on the 
        assessment and the findings of the Assessment Team's report.

Background

    The National Hurricane Center (NHC) is publicly known as the unit 
of the National Oceanic and Atmospheric Administration responsible for 
tracking and forecasting of tropical storms and hurricanes. 
Organizationally, the Center is a branch of the Tropical Prediction 
Center (TPC) of the National Center for Environmental Prediction (NCEP) 
and Mr. Proenza's actual title is Director of the Tropical Prediction 
Center. The Center assists emergency management agencies in the coastal 
states by providing information on the development of storms, their 
likely track across the ocean and their probable point of landfall on 
the U.S. coast. With this information, State and local officials make 
decisions about whether to evacuate threatened areas.
    Mr. Proenza became Director of the Tropical Prediction Center in 
January 2007, succeeding Max Mayfield. In his previous post as Director 
of the NWS Southern Regional Office, he managed some 1,000 employees 
from New Mexico to the Virgin Islands between 1998 and 2006. An 
employee of the Service for 35 years, he began at the National 
Hurricane Center as a flight meteorologist aboard the ``hurricane 
hunter'' aircraft that support Center operations. Among his awards 
during his service was recognition as Manager of the Year from the 
National Weather Service Employees' Organization.
    On March 16, Mr. Proenza gave an interview to the Associated Press. 
That article described him seeking ``hundreds of millions of dollars 
for expanded research and predictions.'' It then described his 
``immediate concern'' to be the QuikSCAT satellite, specifically the 
age of the satellite, the lack of any replacement if it failed, and the 
potential cost and time needed to for replacement. He stated that 
QuikSCAT's failure would reduce the accuracy of their two-day 
predictions by 10 percent and 16 percent for three-day forecasts.
    In a telephone interview with Committee staff, Mr. Proenza was 
asked how QuikSCAT had come to his attention. He responded that while 
he was visiting the Center to discuss transition issues in December 
2006, he had been approached by Senior Hurricane Specialist Richard 
Knabb and Michael Brennan, who was affiliated with both the Center and 
the University Corporation for Atmospheric Research. Both had 
participated in a June 2006 Center workshop on requirements for ocean 
surface vector winds (which QuikSCAT measures). Mr. Proenza told staff 
he had read the report, and noted the statements there by both Mr. 
Knabb and Hugh Cobb, lead forecaster in the Center's Tropical Forecast 
and Analysis Branch about QuikSCAT's value. Proenza told Committee 
staff that he had discussed the workshop report with his managers in 
the Weather Service two days after assuming his job. Proenza also said 
that, while on the way to the AP interview, he had called Center Deputy 
Director (now Acting Director) Dr. Edward Rappaport and received the 
figures quoted in the interview.
    In his presentation at the National Hurricane Conference in April, 
Mr. Proenza again expressed concern over QuikSCAT. His presentation 
chart called for ``a next-generation QuikSCAT on an accelerated 
timetable (consistent with recommendation by the NRC Decadal Survey). 
Estimated cost: $375-400 million.'' He said that issues like this 
demonstrated that more funding needed to be devoted to improving 
hurricane research and forecasting. An article in the South Florida 
Sun-Sentinel quoted Senior Specialist Knabb at the same conference 
saying that the satellite had ``. . .helped the National Hurricane 
Center [achieve] record accuracy in predicting the path of 10 
systems.''
    On June 11, NOAA's Assistant Administrator for Program Planning and 
Integration, Mary Glackin, became acting Director of the National 
Weather Service after D.L. Johnson's retirement. On June 14, she 
visited with Mr. Proenza at his office in Miami and delivered a 
memorandum entitled ``Operating Procedures/Instructions.'' The 
memorandum listed cases when ``you [Mr. Proenza] may have disregarded 
the direct instructions of your supervisor. . . or have made decisions 
on your own which you had no authority to make.'' The memorandum also 
discussed Mr. Proenza's interactions with the news media. He was 
instructed to conform to the procedures in the new Department Order on 
``Public Communications'' (which had only become effective in May), and 
was told that ``your recent statements. . . may have caused some 
unnecessary confusion about NOAA's ability to accurately predict 
tropical storms,'' and commented about ``unnecessary detrimental 
effects on our organization, for example: requiring me to spend a 
disproportionate amount of time to correct any confusion; causing undue 
concern and misunderstanding among your staff, and; taking valuable 
time away from your public role as the NOAA official responsible for 
instilling confidence in our tropical storm predictions. . ..''
    Staffs of the Science and Technology Committee and the Energy and 
Commerce Committee met with Ms. Glackin and with Louis Uccellini, 
Director of the National Centers for Environmental Prediction (and Mr. 
Proenza's immediate supervisor) on July 12. Ms. Glackin stated that the 
memorandum was not intended as a reprimand. She stated it was prepared 
after she talked to Mr. Uccellini and came to believe Mr. Proenza was 
not following procedures. The items cited in the memorandum were drawn 
from incidents recorded by Mr. Uccellini: one case where Mr. Proenza 
signed a promotion form for an employee (Mr. Uccelini's responsibility, 
a second case was stopped before it completed processing) and a case 
where Mr. Proenza approved change-of-station expenses outside the 
procedure approved by the NOAA Corporate Board. Mr. Uccellini said that 
he had only learned about the incident where Mr. Proenza's change of 
name to ``National Hurricane Center'' set off warning alarms after the 
fact, and that the change occurred without necessary notification to 
Congress and a 60-day waiting period. At this meeting, Mr. Uccellini 
also characterized Mr. Proenza--whom he had worked with in the past--as 
a dedicated employee, with a reputation for going around channels and 
being disruptive. Ms. Glackin described Proenza as receptive and 
cooperative, but she notes that the memo was in the press by the next 
day and she believes that Mr. Proenza must have leaked his own 
``repremand'' memo to the press--though there is no convincing proof of 
that.
    ``A couple of days'' after delivering this memorandum to Mr. 
Proenza, Ms. Glackin says she received a call (at another point, she 
said she received an e-mail) from Ahsha Tribble, the Executive Officer 
(who came to the position just last September after serving as 
Technical Chief of Staff to James Mahoney--now retired, but she is seen 
also as being close to Admiral Lautenbacher and/or his staff) at the 
Center. Ms. Tribble apparently indicated there were a number of 
employees who wanted to bring their concerns to the attention of 
management. In a call with multiple employees arranged by Ms. Tribble, 
Ms. Glackin says the employees expressed discomfort with the work 
environment at the Center, felt that their opinions were being 
misrepresented, and that the Center would not be ``cohesive'' in a 
hurricane situation. Ms. Glackin said she raised these concerns 
``vigorously'' with her superiors. It was sometime after this point 
that the ``Operational Assessment Team'' was formed at the direction of 
Admiral Lautenbacher. The team was headed by the Deputy Director of the 
National Institute of Standards and Technology, James Turner, and 
including John Guenther, an attorney from the Employment and Labor Law 
Division of the Department of Commerce Office of General Counsel. The 
charge to this group was issued on July 29, 2007--approximately 10 days 
after Ms. Glackin had received allegations from NHC staff.
    On July 2, Mr. Proenza told Committee staff he received a call from 
Admiral Lautenbacher that the Team had been dispatched; they arrived at 
his office while the call was still in progress. It seemed apparent to 
him that others in the Center were already aware that the Team was 
coming. Mr. Proenza met with Turner, and an ``all-hands'' meeting with 
the Center staff followed.
    On July 4, the Miami Herald reported that Senior Specialists 
Richard Knabb and James Franklin--along with a third, Richard Pasch--
believed that Mr. Proenza had damaged public confidence in the Center 
and should be removed. Mr. Franklin was quoted as saying ``. . .the 
hurricane specialists, by and large, do not agree with much of what he 
has done;'' the article also stated that ``shouting matches'' had 
occurred between staffers supporting and opposing Mr. Proenza. On July 
5, an e-mail was distributed to the Center staff inviting them to a 
meeting ``to openly discuss recent events.'' At that meeting, attendees 
were invited to go to a second room in a campus building owned by 
Florida International University to view and sign the statement that 
was released to the media. It is also at this point that concerns are 
raised about the possibility that funds supporting aircraft flights 
would be reprogrammed to build a replacement QuikSCAT. As far as staff 
can determine, that proposal had never been made by any Member and 
would be unlikely given the vast difference in the financial scope of 
the two programs.
    Ms. Glackin told staff that a call was received on July 6 
indicating that the Assessment Team felt Mr. Proenza's actions were 
inhibiting the ability of the Team to conduct their review. Admiral 
Lautenbacher discussed the situation with the Team. On July 7, Admiral 
Lautenbacher sent a memorandum to the Center staff indicating Mr. 
Proenza was placed on leave and named Mr. Rappaport as acting Director. 
Mr. Proenza received the letter informing him he was on leave until 
August 9 as he arrived at Miami airport July 9. He was also told that 
he should not go to the Center offices without permission from Mr. 
Uccellini and that he should not contact members of the Center staff.
    A document request was sent to NOAA July 12 from Chairman Gordon, 
Chairman Lampson, and Chairman Miller of this committeee, and Chairman 
Dingell and Chairman Stupak of the Energy and Commerce Committeee, 
asking for records covering Ms. Glackin's June 14 memorandum and 
communications between various NOAA officials concerning Mr. Proenza.
    At this point, a number of important questions remain:

        <bullet>  Why was Proenza chosen to be Director of the highest 
        profiled Center at NOAA?

        <bullet>  Beyond the items listed in the Glackin memorandum--
        which NOAA stresses was not a reprimand document and was not 
        placed in Mr. Proenza's personnel file--are there any other 
        actions that better justify the action to place Proenza on 
        leave?

        <bullet>  Why was there such a depth of dissatisfaction over 
        Proenza's focus on a particular satellite?

        <bullet>  What is needed to properly equip the Tropical 
        Prediction Center, and are those resources available at this 
        time?

        <bullet>  Was the Tropical Prediction Center incapable of 
        carrying out its core task of identifying, tracking and 
        predicting hurricanes before the evaluation team was dispatched 
        by Admiral Lautenbacher?
    Chairman Lampson. The hearing will come to order. I wish 
you all a good morning. Welcome to today's hearing which we 
have entitled ``Tracking the Storm at the National Hurricane 
Center.''
    We are here today to examine the situation that has 
developed over the past few weeks at the National Hurricane 
Center. Things may be relatively calm over the Atlantic but it 
has been somewhat stormy at the Center, and this is a situation 
that must be resolved so this organization can do its important 
work for the public, forecasting hurricanes and issuing 
warnings to the emergency management community and to the 
public. They have been an extremely important part of my life 
for many, many years that I have lived on the Gulf Coast of 
this country where we have had some fairly serious storms, as 
you all know.
    Today we will hear from Mr. Bill Proenza, who was asked by 
Admiral Lautenbacher to become the Director of the Hurricane 
Center in December of last year. Mr. Proenza did not apply for 
this job or ask to be considered for the opening created by the 
retirement of Mr. Max Mayfield. Mr. Proenza was well known to 
the Southern Region and by his superiors at the National 
Oceanic and Atmospheric Administration (NOAA) headquarters. He 
led the Southern Region Office of the National Weather Service 
for the past seven years, and due to that position served on 
the NOAA corporate board. By all accounts, he has a reputation 
for speaking his mind and occasionally ruffling feathers in an 
effort to change the way things are done inside the National 
Weather Service when he believed that it was in the public 
interest to do so. So NOAA leadership selected an experienced 
and dedicated NWS--National Weather Service--manager to be the 
new Director of the Hurricane Center. Now, before he had been 
in the position for even a single hurricane season, NOAA 
dispatched an assessment team to the Center. A number of 
employees at the Center have become upset enough to call for 
Mr. Proenza to step down and Admiral Lautenbacher has placed 
Mr. Proenza on temporary leave from the position he asked him 
to accept just seven months ago.
    In the background, we have some other controversies. 
Shortly after his appointment to the Hurricane Center, Mr. 
Proenza drew attention to the fact that a satellite, QuikSCAT, 
that provides data used in forecasting, was beyond its design 
life and if it failed, forecasts could be degraded, and as I 
understand it, he wanted NOAA to prepare for this possibility 
and have a plan to replace it. His statements to the press 
about this issue clearly made NOAA headquarters uncomfortable, 
uncomfortable enough that Acting Director of the Weather 
Service, Mary Glackin, issued Mr. Proenza a memo on June 14 
stating the belief that Mr. Proenza's statements were 
undermining confidence in the Center's forecasting abilities.
    What is going on? That is all we would like to know. This 
is a hurricane season. The only storms the Center should be 
dealing with are those that form out in the ocean. I still 
don't fully understand why Admiral Lautenbacher believed that 
dispatching an assessment team with little experience or 
knowledge of the National Weather Service or forecasting to the 
Center was the appropriate way to deal with staff complaints 
about Mr. Proenza. It seems the arrival of the Assessment Team 
exacerbated problems with the staff and has left the National 
Hurricane Center without a director. Is this the case of a 
disruptive renegade manager that has mistreated and alienated 
the staff at the National Hurricane Center and has put its 
forecasts and warning mission in jeopardy or has NOAA 
leadership helped to foster staff resentment of Mr. Proenza and 
used this resentment to justify removing a career employee who 
embarrassed NOAA's leadership by pointing out the shortcomings 
in the agency budgets and their failure to plan for future 
replacement of essential forecasting equipment? I don't know 
but we are going to try to figure it out and to figure out what 
has happened.
    At a minimum, NOAA leadership has made at least two bad 
decisions. First, either Mr. Proenza was the wrong choice to 
lead the Hurricane Center in December or it was premature to 
send in an assessment team and remove him in July. The second 
bad decision was the Admiral's failure to inform me and two 
other Members of this committee that he met with on June 27 of 
the potential problems at the Hurricane Center or his plan to 
send an assessment team there on July 2. It is clear from the 
documents we received last night that Admiral Lautenbacher not 
only was aware of the problems but had already set the plans in 
motion to dispatch the Assessment Team to Miami.
    We cannot afford any more bad decisions. It is hurricane 
season, and if we want to make it personal, I can. I live 
there, where we have been displaced multiple times from our 
homes, damage to our homes, fright to our children. The people 
at the Center need to work together to perform the essential 
task this nation needs: providing forecasts and warnings of 
hurricanes. The Center needs strong, competent leadership to 
serve the public. This is serious business and we need to 
straighten this out before we are in the midst of a real storm.
    [The prepared statement of Chairman Lampson follows:]

              Prepared Statement of Chairman Nick Lampson

    Good morning. We are here today to examine the situation that has 
developed over the past few weeks at the National Hurricane Center.
    Things may be relatively calm over the Atlantic, but it has been 
stormy at the Center and this is a situation that must be resolved so 
this organization can do its important work for the public--forecasting 
hurricanes and issuing warnings to the emergency management community 
and the public.
    Today, we will hear from Mr. Bill Proenza, who was asked by Admiral 
Lautenbacher to become the Director of the Hurricane Center in December 
of last year. Mr. Proenza did not apply for this job or ask to be 
considered for the opening created by the retirement of Mr. Max 
Mayfield.
    Mr. Proenza was well-known to the Southern Region and by his 
superiors at NOAA Headquarters. He led the Southern Region Office of 
the National Weather Service (NWS) for the past seven years and, due to 
that position, served on the NOAA Corporate Board.
    By all accounts he has a reputation for speaking his mind and, 
occasionally ruffling feathers in an effort to change the way things 
are done inside the NWS when he believed it was in the public interest 
to do so.
    So, NOAA leadership selected an experienced and dedicated NWS 
manager to be the new Director of the Hurricane Center.
    Now, before he has been in the position for a single hurricane 
season, NOAA has dispatched an assessment team to the Center, a number 
of employees at the Center have become upset enough to call for Mr. 
Proenza to step down, and Admiral Lautenbacher has placed Mr. Proenza 
on temporary leave from the position he asked him to accept just seven 
months ago.
    In the background, we have some other controversies. Shortly after 
his appointment to the hurricane center, Mr. Proenza drew attention to 
the fact that a satellite--QuikSCAT--that provides data used in 
forecasting was beyond its design-life and, if it failed forecasts 
could be degraded.
    As I understand it, he wanted NOAA to prepare for this possibility 
and have a plan to replace it. His statements to the press about this 
issue, clearly made NOAA Headquarters uncomfortable--uncomfortable 
enough that Acting Director of the Weather Service, Mary Glackin issued 
Mr. Proenza a memo on June 14 stating the belief that Mr. Proenza's 
statements were undermining confidence in Center's forecasting 
abilities.
    What is going on? That's what we'd all like to know. This is 
hurricane season. The only storms the Center should be dealing with are 
those that form out in the ocean. I still do not fully understand why 
Admiral Lautenbacher believed that dispatching an assessment team with 
little experience or knowledge of NWS or forecasting to the Center was 
the appropriate way to deal with staff complaints about Mr. Proenza. It 
seems the arrival of the Assessment Team exacerbated problems with the 
staff, and has left the NHC without a Director.
    Is this the case of a disruptive, renegade Manager that mistreated 
and alienated the staff of the National Hurricane Center and has put 
its forecast and warning mission in jeopardy? Or has NOAA leadership 
helped to foster staff resentment of Mr. Proenza and used this 
resentment to justify removing a career employee who embarrassed NOAA 
leadership by pointing out shortcomings in the Agency budgets and their 
failure to plan for future replacement of essential forecasting 
equipment?
    I don't know, but we are going to try to figure out was has 
happened. At a minimum, NOAA leadership has made at least two bad 
decisions. First, either Mr. Proenza was the wrong choice to lead the 
Hurricane Center in December or, it was premature to send in an 
assessment team and remove him in July. The second bad decision was the 
Admiral's failure to inform me and two other Members of this committee 
he met with on June 27 of potential problems at the Hurricane Center or 
his plan to send an assessment team there on July 2.
    It is clear from the documents we received last night, Admiral 
Lautenbacher not only was aware of the problems, but had already set 
the plans in motion to dispatch the Assessment Team to Miami.
    We cannot afford any more bad decisions. It's hurricane season. The 
people at the Center need to work together to perform the essential 
task this nation needs--providing forecasts and warnings of hurricanes. 
The Center needs strong, competent leadership to serve the public. This 
is serious business and we need to straighten this out before we are in 
the midst of a real storm.

    Chairman Lampson. I will call on the Chairman of our 
Oversight Subcommittee, the distinguished Mr. Miller.
    Chairman Miller. I thank Chairman Lampson. I also don't 
know what is going on here but I would like to know and I think 
it merits a closer look by these two subcommittees and by 
Congress, and I agree with Mr. Lampson that the work of TPC, 
the Tropical Prediction Center, is important to a lot of 
Americans, important to Mr. Lampson in his district. It is 
important to me in North Carolina. In the last 11 years, North 
Carolina has been badly damaged by a number of storms, 
particularly Floyd and Fran have done a great deal of damage, 
and it is important that we have the best forecasting of those 
storms that we possibly can so that we can be prepared to 
minimize the damage.
    On first impression of what has happened at the Tropical 
Prediction Center, the TPC, sounds like office politics, 
particularly bad office politics, particularly vicious office 
politics, but office politics, something that happens every day 
all across America. There are disgruntled employees who are 
having trouble adjusting to a new manager, not getting along 
with the new manager. There is a new manager or new director 
who is trying to adjust to a new set of employees, to a new 
chain of command, but on closer look there are certainly parts 
of this that don't appear to add up, facts that don't quite add 
up, something doesn't seem quite right and it certainly merits 
a closer look by Congress to see if it is just particularly 
toxic office politics or something that should concern us more 
than that.
    We know that Mr. Proenza, Bill Proenza, before being named 
Director of the Tropical Prediction Center, the TPC, in Miami 
had been a strong, well-regarded leader through seven years as 
head of the National Weather Service in the Southern Region. By 
all reports, Mr. Proenza had a strong relationship with the 
Weather Service union. He was seen by line employees as one of 
their staunchest advocates, staunchest supporters. The contrast 
to the apparently toxic relationship to the employees at TPC 
could not be stronger, could not be more striking. We would 
assume that if Admiral Lautenbacher was convinced that Mr. 
Proenza would be the right replacement for Max Mayfield, he 
must have thought that Mr. Proenza was a competent leader and 
manager. He would not have called Mr. Proenza to ask him to 
take that position if he did not think that. It doesn't make 
sense. That is why we are here today trying to understand why 
an apparently proven leader with a known track record has come 
to find himself in such grave trouble with his own employees 
and his own managers.
    But once you look past the apparently spontaneous rebellion 
by employees at the lab at the TPC and look at what has 
happened at the management level above Mr. Proenza in the chain 
of command, not below him, there are further questions about 
what the real reason is for what has gone wrong. The question 
becomes whether Mr. Proenza was pushed out or is being pushed 
out because he was a critic within NOAA, not because of his 
difficulties in dealing with his employees. Is it because he is 
a whistleblower, because he was willing to stand up to the 
people who are higher than him in the hierarchy, not because of 
his relationship with the people below him in the hierarchy?
    Mr. Proenza called attention to the failure of NOAA to take 
aggressive steps to find a replacement for QuikSCAT. I don't 
claim to know all the technical details of QuikSCAT and that is 
something that Mr. Proenza has talked about again and again. 
Some have criticized his criticisms, his comments and the 
science for the basis for some of his observations, but Mr. 
Proenza, like all of us, has had to rely on staff for 
information, so if he is wrong about that, there is certainly 
blame to go around. It is not all his fault and it certainly is 
not his fault for raising those questions, questions that many 
within NOAA and the Weather Service are raising. And it is hard 
to argue that the degradation of QuikSCAT or one model matters 
more than another, well, all that misses the point that 
virtually everyone in the meteorological community, all the 
people who really do know what they are talking about when it 
comes to this agree that they do need QuikSCAT, so the loss of 
QuikSCAT is a real problem. The source for Mr. Proenza's 
information shows up in NOAA presentations to the National 
Research Council in April, in February's interagency strategic 
research plan for tropical cyclones produced by the Office of 
Federal Coordinator of Meteorology. To argue about the 
projected degradation or whether one model matters more than 
another just misses the point. He has called attention to the 
amount of money that NOAA has spent on celebrating its 200th 
anniversary, an amount that appears to be more than $4 million 
over fiscal year 2006-2007, this fiscal year, if you include 
the cost of employees working on the issue. He is opposed to 
Weather Service downsizing, which had been one of the hallmarks 
of Mr. Johnson's tenure at the Weather Service, but for that he 
has earned the gratitude of Congress and of the employees' 
union. Not every manager welcomes a critic within the agency 
but Congress certainly does. It is certainly easier for us to 
do our job in oversight if we did not face a smooth wall of 
unanimity, of one opinion without variation, and Mr. Proenza 
has certainly been willing to be a critic and to raise 
questions that has helped us do our job.
    So Chairman Lampson, I look forward to the questions. I 
look forward to finding out more about whether this is simply a 
case of office politics or it is the case of an agency not 
welcoming criticisms of Mr. Proenza.
    [The prepared statement of Chairman Miller follows:]

               Prepared Statement of Chairman Brad Miller

    On first impression, what's been unfolding at the Tropical 
Prediction Center (TPC), it sounds like office politics, something that 
happens every day at workplaces all across America. Certainly, there 
are disgruntled employees having difficulty adjusting to a new manager 
and a new Director trying to adjust to a new chain of command. But on a 
closer look, something just doesn't seem quite right, the facts don't 
quite add up.
    We know that Bill Proenza, before being named Director of the 
Tropical Prediction Center (TPC) in Miami, had demonstrated that he was 
a strong, well-regarded leader throughout his seven years as head of 
the National Weather service Southern Region. We know that by all 
reports, Mr. Proenza had a strong relationship with the Weather Service 
union, and was seen by line-employees as one of their staunchest 
supporters.
    We would assume, that if Admiral Lautenbacher was convinced that 
Mr. Proenza would be a superb replacement for the retiring Max 
Mayfield, he must have also thought that Mr. Proenza was a competent 
leader and manager.
    What doesn't make sense is why we are here today, trying to 
understand why a proven leader with a known track-record has come to 
find himself in grave difficulties with his own employees and managers.
    If you look past the apparently spontaneous rebellion by employees 
in the lab, and look past what has unfolded at the managerial level of 
NOAA, the question arises whether Mr. Proenza was pushed out because he 
was a whistle blower, a truth teller.
    Mr. Proenza called attention to the failure of NOAA to take 
aggressive steps to find a replacement for QuikSCAT. That has come to 
be a major talking point for Mr. Proenza in recent months. Some have 
criticized his comments and the science underlying his observations. To 
these critics I would note that Mr. Proenza had been relying on staff 
for this information and so the blame, if there is any, should be 
spread widely. In addition, to argue about the projected degradation or 
whether one model matters more than another misses the point that 
virtually everyone in the meteorological community agrees they need 
QuikSCAT. Finally, the source for Mr. Proenza's information shows up in 
NOAA presentations to the National Research Council in April and in 
February's ``Interagency Strategic Research Plan for Tropical 
Cyclones'' produced by the Office of the Federal Coordinator for 
Meteorology. To argue about the projected degradation or whether one 
model matters more than another misses the point.
    He also called attention to the amount of money being spent by NOAA 
to celebrate its 200th Anniversary--an amount that appears to exceed $4 
million over FY 2006-2007 if one includes the costs of employees 
working on the issue.
    Finally, Mr. Proenza opposed the weather service ``down-sizing'' 
efforts that had been the hallmark of Mr. Johnson's tenure at the 
National Weather Service. For that he earned the gratitude of many in 
Congress and in the Union.
    Not every manager would welcome Mr. Proenza's willingness to speak 
out. Some would see him as an annoyance. In addition to the possible 
motive of silencing an internal critic, the actions of the NOAA 
management suggest that something isn't right here, that this isn't 
about Mr. Proenza's deficiencies as a manager. The chronology of events 
just doesn't fit.

        <bullet>  By the spring of 2007, Louis Uccellini, Proenza's 
        immediate supervisor and head of the NECP, began keeping a file 
        on Mr. Proenza containing apparently minor administrative 
        violations by Proenza. It should be noted that while Mr. 
        Uccellini was Mr. Proenza's superior, he was Mr. Proenza's 
        junior in the weather service and he and Mr. Proenza had been 
        essentially of equal rank when Proenza was head of the Southern 
        Region of NWS.

        <bullet>  In April of 2007, senior staff at NOAA met at the 
        Admiral Lautenbacher's direction to work on something labeled 
        in an e-mail as the ``Proenza plan.'' This plan was to have 
        five steps and be run by legal for review. . . It was shared 
        with D.L. Johnson, then head of the National Weather Service 
        and Jack Kelly, Deputy Under Secretary at NOAA.

        <bullet>  On June 14, three days after being named as Acting 
        Director of the Weather Service, Ms. Mary Glacken approved a 
        memo that listed Mr. Proenza's minor administrative violations 
        that Mr. Uccellini had collected and urged Mr. Proenza to work 
        through the chain of command and adhere more strenuously to new 
        NOAA media policy.

        <bullet>  On June 21 or 22, TPC senior forecasters--going 
        against the chain of command--complained to Ms. Glacken about 
        Bill Proenza's leadership. The call was organized by the 
        Executive Officer in the Center, Dr. Ahsha Tribble, who was 
        seen by many at the TPC to be a ``headquarters person.'' Dr. 
        Tribble had arrived at the Hurricane Center just last September 
        after working as Technical Chief of Staff to the Assistant 
        Secretary of Commerce for Oceans and Atmosphere.

        <bullet>  By June 26, Admiral Lautenbacher assembled a team to 
        be dispatched from Commerce to the Center to evaluate its 
        operations. The team did not include any management or weather 
        experts. Rather than turn to outside parties with expertise in 
        the relevant areas--administration (National Association of 
        Public Administration) or meteorology (National Academy of 
        Science)--the Admiral selected people from within Commerce who 
        had no background in weather service forecast office issues and 
        little expertise in the science. The team's preparation 
        included meeting with the senior management figures who had 
        played a role in preparing Mr. Proenza's June memo and in 
        launching the ``Proenza plan.''

        <bullet>  On July 2, the Team arrived on site. Mr. Proenza 
        learned that this team was being sent by a telephone call from 
        the Admiral that was designed to be timed with their arrival. 
        While Mr. Proenza was unaware that a team was being dispatched 
        to the Center of which he was Director, other people at the 
        center knew of their pending arrival. Ahsha Tribble, apparently 
        was assigned to greet the Team and take them to Proenza's 
        office.

    I hope that our witnesses today can explain some of this. I look 
forward to hearing Mr. Proenza's side of the story. I look forward to 
hearing from Admiral Lautenbacher on his management of NOAA and of the 
TPC.

    Chairman Lampson. Thank you, Chairman Miller.
    The Chair now recognizes Mr. Inglis, Ranking Member of the 
Energy and Environment Subcommittee, for an opening statement.
    Mr. Inglis. Thank you, Mr. Chairman.
    Great nations have governments that ask questions of 
themselves so we are here to ask some questions. The loyal 
opposition to the Administration, that would be my colleagues 
to my left, naturally smell rats from time to time and it could 
be that there is a rat. The two Chairmen have just spoken about 
how perhaps this is a critic who is being silenced. I think the 
evidence may show here today that it is equally plausible that 
what we have here is a mismatched manager and a personnel 
matter and nothing more. So we have a hearing. Great nations 
have governments that ask questions of themselves and we are 
here to ask questions, and we have heard some speculation about 
some real rats out there. It may be a fairly straightforward 
personnel matter. It appears that the Administration put a 
highly recommended and well-qualified director into the office 
of the hurricane director and thereafter about half of the 
staff at that Center signed a letter asking that Mr. Proenza to 
be removed. Perhaps they are acting on some personal vendetta, 
that may be shown here today, or perhaps they just didn't like 
his management style. In any event, the administrator clearly 
did the right thing by appointing an independent panel to 
investigate the situation. That panel was chaired by Dr. Jim 
Turner, who will testify here today.
    Chairman Lampson mentioned that this fellow may not have 
expertise in hurricane forecasting, and I would ask, if you 
think it is a management matter, why would you care if the 
fellow had expertise in hurricanes? The question is management 
if it is a personnel matter in which case you could hire a 
consulting firm to go and ask questions. It happens all the 
time. Consultants don't necessarily know how to make a chemical 
product in a chemical factory. They don't have to. They are 
asking management questions and so if that is what it was, it 
is pretty clear that it is appropriate to form a panel and go 
ask management-related questions.
    We can agree that Mr. Proenza has a distinguished resume 
and a history of positive performance reviews. Because of his 
success as Southern Regional Director of the National Weather 
Service he appeared qualified for the NHC Director position. In 
his new role, he became concerned about the potential loss of 
the QuikSCAT satellite. Some, as I understand it, would agree 
with Mr. Proenza that QuikSCAT helps forecasters better 
understand the behavior of tropical storms. Others would assert 
that Mr. Proenza exaggerated the impacts of the potential loss 
of the QuikSCAT.
    Mr. Proenza's management style will be discussed here 
today. Surely we need a steady and reliable hand at the wheel 
of the National Hurricane Center. With the peak of hurricane 
season fast approaching, Admiral Lautenbacher was told that Mr. 
Proenza had become so disruptive that forecasters were saying 
they could no longer do their jobs. We will hear today that Mr. 
Proenza's management style became such an issue that his 
immediate supervisors lost confidence, his employees lost 
confidence and the independent operational Assessment Team lost 
confidence in his ability to manage the Center. We will hear 
that Admiral Lautenbacher decided that Mr. Proenza, as 
qualified as he had been at the outset, was perhaps miscast as 
a director of the Center. I hope my colleagues in the press 
will stay around to hear the testimony of Admiral Lautenbacher 
and Dr. Turner to hear, as Paul Harvey says, the rest of the 
story. Although it seems odd not to accord a senior 
Administration official the courtesy of testifying at the 
outset of this hearing today, and the Chairman and I have had 
discussions about that, I trust that we will all wait to form 
conclusions until all the witnesses have testified.
    I thank you, Mr. Chairman. I yield back.
    [The prepared statement of Mr. Inglis follows:]

            Prepared Statement of Representative Bob Inglis

    Thank you Mr. Chairman.
    For my home State of South Carolina and many others in coastal 
areas, the National Hurricane Center (NHC) is a critical national 
resource. The lives of individuals and families depend on the 
information the Center provides. Given the NHC's importance for 
protecting our citizens, we should carefully protect the integrity of 
the National Hurricane Center.
    We may find that we are here today discussing a fairly 
straightforward personnel matter. It appears that the Administration 
put a highly recommended and well qualified director into the office of 
Hurricane Director. Thereafter, about half of the staff at the 
Hurricane Center signed a letter asking that Mr. Proenza be removed. 
Perhaps they were acting on some personal vendetta. Perhaps they just 
didn't like his management style.
    In any event, the Administrator did the right thing by appointing 
an independent panel to investigate the situation. That panel was 
chaired by Dr. Jim Turner, who will testify here today.
    We can agree that the Mr. Proenza has a distinguished resume and a 
history of positive performance reviews. Because of his success as 
Southern Regional Director of the National Weather Service, he appeared 
qualified for the NHC Director position. In his new role, he became 
concerned about the potential loss of the QuikSCAT satellite. Some 
would agree with Mr. Proenza that QuikSCAT helps forecasters better 
understand the behavior of tropical storms; others would assert that 
Mr. Proenza exaggerated the impacts of a potential loss of QuikSCAT.
    Mr. Proenza's management style will be discussed here today. We 
need a steady and reliable hand at the wheel at the National Hurricane 
Center. With the peak of hurricane season fast approaching, Admiral 
Lautenbacher was told that Mr. Proenza had become so disruptive that 
forecasters were saying they could no longer do their jobs.
    We will hear today that Mr. Proenza's management style became such 
an issue that:

        <bullet>  his immediate supervisors lost confidence,

        <bullet>  his employees lost confidence,

        <bullet>  and the independent operational Assessment Team lost 
        confidence in his ability to manage the Center.

    We will hear that Admiral Lautenbacher decided that Mr. Proenza, as 
qualified as he had been at the outset, was miscast as the Director of 
the Center.
    I hope that my colleagues and the press stay around to hear the 
testimony of Admiral Lautenbacher and Dr. Turner. Although it seems odd 
to not accord a senior Administration official the courtesy of 
testifying at the outset of this hearing today, I trust that we will 
all wait to form conclusions until all of the witnesses have testified. 
Thank you Mr. Chairman.

    Chairman Lampson. Thank you, Mr. Inglis, and the Chair will 
now recognize Mr. Sensenbrenner, the Ranking Member on the 
Oversight and Investigation Subcommittee, for an opening 
statement.
    Mr. Sensenbrenner. Thank you, Mr. Chairman.
    In December of 2006, Mr. Bill Proenza was announced as the 
Director of the Tropical Prediction Center. In July of 2007, 
after his superiors, employees and an independent assessment 
team questioned his management of the TPC, the administrator of 
the National Oceanic and Atmospheric Administration placed Mr. 
Proenza on temporary leave pending the final recommendation of 
an assessment team. The independent Assessment Team 
unequivocally found that the TPC could not operate effectively 
under Mr. Proenza's leadership. Our country is in the middle of 
a hurricane season. After Hurricane Katrina, everyone is aware 
of how dangerous this season can be.
    The Tropical Prediction Center compiles data about ocean 
temperature, wind speed and direction, barometric pressure and 
other factors and uses this data to forecast hurricanes. When a 
storm is within three days of a potential landfall, the TPC 
issues official forecasts and warnings every six hours. As the 
storm gets closer to land, the forecasts are updated even more 
frequently. Lives depend on the work at the TPC.
    Last month in the midst of an investigation of NASA's 
Inspector General, I warned that we risk creating a culture of 
overzealous oversight. I reiterate that point today. There is a 
fine line between good oversight and harmful interference. 
Playing politics with hurricane forecasters endangers the lives 
of people the TPC works to protect. Admiral Conrad 
Lautenbacher, the Undersecretary of Commerce for Oceans and 
Atmosphere, replaced Mr. Proenza because he was an ineffective 
director. In the spring of this year, Mr. Proenza made several 
exaggerated and inaccurate public statements complaining about 
a lack of resources and funding at the TPC, the potential 
failure of one of the TPC satellites and NOAA's use of funds 
for the 200th anniversary celebration of the Coastal Survey. In 
an independent assessment of the TPC performed by the National 
Institute of Standards and Technology, reviewers observed that 
Mr. Proenza made statements about the limited lifetime of the 
QuikSCAT satellite and the resulting impact on forecasts 
``without context or caveat.'' The reviewers further reported 
that many staff believe that Mr. Proenza intentionally 
misrepresented their views and repeated certain false claims 
even after he was corrected. On June 18, Mary Glackin, the 
Acting Director of the National Weather Service, received phone 
calls from 11 employees of the TPC including seven out of the 
nine hurricane forecasters raising concerns about Mr. Proenza's 
leadership. The employees complained that Mr. Proenza 
interfered with their ability to do their jobs. On June 19, Ms. 
Glackin communicated her fears to Admiral Lautenbacher. The 
Admiral then sent an independent assessment team to report on 
the situation. Meanwhile, staff discontent was increasing. 
Three senior forecasters called for Mr. Proenza's removal and 
nearly half of the 46 staff members at the TPC signed a 
petition demanding his removal because according to the Center 
staff, the effective functioning of the Center was at stake 
with Mr. Proenza as its director. On July 6, the Assessment 
Team requested that Mr. Proenza be placed on leave because he 
was jeopardizing the Center's ability to do its job. Three days 
later, Admiral Lautenbacher informed Mr. Proenza that he was 
being placed on leave.
    Upon completion of its report, the independent team's 
recommendation was unequivocal: ``The current TPC director 
should be reassigned and not allowed to return to his position 
at the Center. This should be done due to his failure to 
demonstrate leadership within the TPC.'' Such substantial 
questions were raised about Mr. Proenza that a failure to 
replace him would have been irresponsible. During this 
subcommittee's investigation of NASA's Inspector General, the 
Majority continuously objected to having an inspector general 
in place who did not have the confidence of his staff. In the 
present situation, employees have made similar complaints and 
raised the same concerns about Mr. Proenza's leadership. I have 
no doubt that if Mr. Proenza was still serving as the Director 
of the TPC, this subcommittee would be waving the employee 
petition in front of Admiral Lautenbacher demanding that he 
take action. Mr. Proenza's name would have been added to the 
growing list of personnel decisions demanded of the 
Administration by Congress.
    Instead, the Majority is questioning the veracity of the 
employee's complaints. In a July 12 letter to Admiral 
Lautenbacher, five Democratic Congressmen wrote that ``It is 
alleged that staff was pressured to sign onto what became a 
well-publicized letter of complaint against Mr. Proenza.'' I 
have no idea who made this allegation. According to the Orlando 
Sentinel, staffers at the TPC angrily objected to suggestions 
that some were pressured into signing the letter. The Center's 
Administrative Officer said ``no one was pressured to sign that 
letter but they aren't calling the people who signed it to find 
it. Why not? I smell politics at work here.'' Conspicuously, 
none of the employees who worked under Mr. Proenza at the TPC 
are here to testify today. Instead, the Majority invited two 
Emergency Management officials who worked with him when he 
served in his former position as Southern Regional Director for 
the Weather Service. No one has raised any issues about Mr. 
Proenza's effectiveness in that role. The complaints here have 
all been about his ability to lead the TPC. It appears that the 
Majority has held today's hearing and questioned the 
independence of the Center's staff without even talking to the 
staff that made the complaints.
    Dr. James Turner is here to testify about the findings of 
the independent Assessment Team but he is here because he was 
invited by the Republicans. The Majority was prepared to hold a 
hearing investigating the replacement of Mr. Proenza without 
inviting the independent assessors who reported on the 
management of the TPC or the TPC employees whose 
recommendations and complaint lead to Dr. Proenza's 
replacement. No wonder the Center's administrative officers 
smelled politics.
    None of us are strangers to politics but to disregard our 
country's readiness to obtain a political advantage extends 
beyond recklessness. I am disappointed that I have to state 
what should be the obvious, that unwarranted interference with 
the operation of the small hurricane center at its most 
critical time can only cause more harm than good. The Tropical 
Prediction Center should be allowed to focus on the hurricane 
season instead of being forced to weather this Congressional 
storm.
    Thank you.
    [The prepared statement of Mr. Sensenbrenner follows:]
    Prepared Statement of Representative F. James Sensenbrenner, Jr.
    In December, 2006, Mr. Bill Proenza was announced as the Director 
of the Tropical Prediction Center (TPC). In July 2007, after his 
superiors, employees, and an independent assessment team questioned his 
management of the TPC, the Administrator of the National Oceanic and 
Atmospheric Administration (NOAA) placed Mr. Proenza on temporary leave 
pending the final recommendation of the Assessment Team. The 
independent Assessment Team unequivocally found that the TPC could not 
operate effectively under Mr. Proenza's leadership.
    The United States is in the middle of hurricane season. After 
Hurricane Katrina, everyone is aware how dangerous this season can be. 
The Tropical Prediction Center (TPC) compiles data about ocean 
temperature, wind speed and direction, barometric pressure, and other 
factors, and uses this data to forecast hurricanes. When a storm is 
within three days of potential landfall, the TPC issues official 
forecasts and warnings every six hours. As a storm gets closer to land, 
the forecasts are updated even more frequently. Lives depend on the 
work at the TPC.
    Last month, in the midst of an investigation of NASA's Inspector 
General, I warned that we risked creating a culture of overzealous 
oversight. I reiterate that point today: There is a fine line between 
good oversight and harmful interference. Playing politics with 
hurricane forecasters endangers the lives of the people the TPC works 
to protect.
    Admiral Conrad Lautenbacher, the Under Secretary of Commerce for 
Oceans and Atmosphere, replaced Mr. Proenza because he was an 
ineffective director. In the spring of this year, Mr. Proenza made 
several exaggerated and inaccurate public statements complaining about 
a lack of resources and funding at the TPC, the potential failure of 
one of the TPC's satellites, and NOAA's use of funds for the 200th 
Anniversary celebration of the coastal survey. In an independent 
assessment of the TPC performed by the National Institute of Standards 
and Technology (NIST), reviewers observed that Mr. Proenza made 
statements about the limited lifetime of the QuikSCAT satellite and the 
resulting impact on forecasts ``without context or caveat.'' The 
reviewers further reported that many staff believed that Mr. Proenza 
intentionally misrepresented their views and repeated certain false 
claims even after he was corrected.
    On June 18, Mary Glackin, the Acting Director of the National 
Weather Service, received phone calls from 11 employees of the TPC, 
including seven out of the nine hurricane forecasters, raising concerns 
about Mr. Proenza's leadership. The employees complained that Mr. 
Proenza interfered with their ability to do their jobs. On June 19, Ms. 
Glackin communicated her fears to Admiral Lautenbacher. Admiral 
Lautenbacher then sent the independent Assessment Team from NIST to 
report on the situation.
    Meanwhile, staff discontent was increasing. Three senior 
forecasters called for Mr. Proenza's removal and nearly half of the 46 
staff members at the TPC signed a petition demanding his removal 
because, according to Center staff, the ``effective functioning'' of 
the Center was at stake with Mr. Proenza as its director. On July 6, 
the NIST Assessment Team requested that Mr. Proenza be placed on leave 
because he was jeopardizing the Center's ability to do its job. Three 
days later, Mr. Lautenbacher informed Mr. Proenza that he was being 
placed on leave.
    Upon completion of its report, the independent team's 
recommendation was unequivocal:

         The current TPC director should be reassigned and not be 
        allowed to return to his position at the center. This should be 
        done due to his failure to demonstrate leadership within the 
        TPC. . .

    Such substantial questions were raised about Mr. Proenza, that a 
failure to replace him would have been irresponsible. During this 
subcommittee's investigation of NASA's Inspector General, the Majority 
continuously objected to leaving an inspector general in place who did 
not have the confidence of his staff. In the present situation, 
employees have made similar complaints and raised the same concerns 
about Mr. Proenza's leadership. I have no doubt that, if Mr. Proenza 
were still serving as the Director of the TPC, this subcommittee would 
be waiving the employee petition in front of Admiral Lautenbacher 
demanding that he take action. Mr. Proenza's name would have been added 
to the growing list of personnel decisions demanded of the 
Administration by Congress.
    Instead, the Majority is questioning the veracity of the employees' 
complaints. In a July 12 letter to Admiral Lautenbacher, five 
Democratic Congressman wrote that ``it is alleged that staff was 
pressured to sign on to what became a well-publicized letter of 
complaint'' against Mr. Proenza. I have no idea who made this 
allegation. According to the Orlando Sentinel, staffers at the TPC 
``angrily objected to suggestions that some were `pressured' into 
signing the letter.''
    The Center's Administrative Officer said, ``No one was pressured to 
sign that letter, but they aren't calling the people who signed it to 
find it. Why not? I smell politics at work here.''
    Conspicuously, none of the employers who worked under Mr. Proenza 
at the TPC are here to testify today. Instead, the Majority invited two 
emergency management officials who worked with Mr. Proenza when he 
served in his former position as the Southern Region Director for the 
National Weather Service. No one has raised any issues with Mr. 
Proenza's effectiveness in that role. The complaints have all been 
about his ability to lead the TPC. It appears that the Majority has 
held today's hearing and questioned the independence of the Center's 
staff without even talking to the staff that made those complaints.
    Dr. James Turner is here to testify about the findings of the 
independent Assessment Team, but he is here because he was invited by 
the Minority. The Majority was prepared to hold a hearing 
``investigating'' the replacement of Dr. Proenza without inviting the 
independent assessors who reported on management of the TPC or the TPC 
employees whose recommendations and complaints lead to Dr. Proenza's 
replacements. No wonder the Center's Administrative Officer smelled 
politics.
    None of us are strangers to politics, but to disregard our 
country's readiness to obtain a political advantage extends beyond 
recklessness. I am disappointed that I have to state what should be 
obvious, that unwarranted interference with the operation of a small 
hurricane center at its most critical time can only cause more harm 
than good. The Tropical Prediction Center should be allowed to focus on 
the hurricane season instead of being forced to weather this 
Congressional storm.

    Chairman Lampson. Thank you, Mr. Sensenbrenner. Just for 
the record, staff has talked both to signers and non-signers of 
the petition.
    If there are Members who wish to submit additional opening 
statements for the record, your statements will be added to the 
record at this point.
    [The prepared statement of Mr. Klein follows:]

             Prepared Statement of Representative Ron Klein

    I want to thank my good friend, the distinguished Chairman of this 
subcommittee, along with the Ranking Member for holding this hearing 
and allowing me to participate. I can think of only a handful of issues 
as important as keeping the American public safe from hurricanes and 
other deadly storms. It's a fundamental duty of the Federal Government 
that I and all Americans take very seriously. That's why I have taken a 
high level of interest in the health of our weather satellites, and in 
particular, the Quick Scatterometer, otherwise known as QuikSCAT.
    On June 5, 2006, NOAA convened a workshop with other federal 
agencies to assess, among other things, the impact of satellite surface 
wind speed and direction measurements. QuikSCAT, one of two weather 
satellites at the heart of the workshop's assessment, received several 
eye-catching quotes in support of its usefulness. Rick Knabb, senior 
hurricane specialist at the National Hurricane Center, said, ``When 
QuikSCAT is gone, it will be like going back seven years in tropical 
cyclone analysis.'' He also added, ``Losing QuikSCAT would be like 
losing a limb, especially for Tropical Analysis and Forecasting 
Branch.''
    I've heard similar comments during my many meetings with NOAA 
officials, including from General David Johnson, former Director of the 
National Weather Service. And during my recent visit to the National 
Hurricane Center, several forecasters independently verified to me the 
value of QuikSCAT's data when detecting and analyzing hurricanes and 
tropical storms. They showed me how the cone used to predict the path 
of a storm may be altered when QuikSCAT's data is incorporated, making 
the cone narrower and the timing of landfall more precise.
    Now, in the midst of the controversy surrounding Mr. Proenza's 
dismissal as director of the Center, I'm hearing comments that 
essentially retreat from the earlier support of QuikSCAT. There are 
accusations that Mr. Proenza misrepresented or overstated the science 
when saying two-day and three-day forecasts would be adversely affected 
by the loss of QuikSCAT, and one senior forecaster at the Hurricane 
Center even compared the loss of QuikSCAT to ``driving a BMW with cloth 
rather than leather seats.''
    This sudden retreat concerns me. While I recognize that there may 
be disputes over Mr. Proenza's management or administrative style, I am 
not in a position to evaluate his employment status. However, while I 
recognize that disagreements over scientific studies can occur among 
reasonable and reputable scientists, my fear is that this retreat may 
be born out in part by political motivations.
    Such actions may have distracted us from legitimate inquiries into 
QuikSCAT along with NOAA's other weather satellites. Fortunately, this 
committee has taken its oversight responsibilities seriously and 
convened this hearing, inviting me to participate. I'm very grateful 
because from the very beginning of my interest in QuikSCAT, I've been 
asking two very simple questions to NOAA. How did we get to this point 
where a useful weather satellite is on its last legs with no 
replacement set to launch, and what are NOAA's short-term and long-term 
contingency plans to replace the loss of its data. I should add that we 
also now need to inquire whether the QuikSCAT retreat is legitimate and 
if this once-praised satellite has value. But if it does, I feel it is 
imperative that we find out what are the backup plans, when it fails, 
to replace the data and other information it provides in the evaluation 
of hurricanes and tropical storms.
    I sincerely hope at the end of this hearing that I can leave and 
say that we have logical, supportable answers. But if I'm not 
satisfied, I intend to keep pressing to ensure that our forecasters 
have the best resources and technology available to help them keep the 
American public safe from hurricanes and other deadly storms. I look 
forward to the outcome and the responses of the distinguished panelists 
and Subcommittee Members, and thank the esteemed Chairman and Ranking 
Member for their leadership on this issue.

    Chairman Lampson. I ask unanimous consent to enter into the 
record selected materials that have been provided to the 
Subcommittees by the National Oceanic and Atmospheric 
Administration. Is there any objection? So ordered.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Lampson. At this point to mention, and I will talk 
with Admiral Lautenbacher in just a few minutes regarding this, 
but we did ask two members of the NOAA management chain to be 
here this morning. We expected them to be. We were notified at 
around 9:00 that they would not be here.
    At this point, I would ask unanimous consent to allow 
Representative Ron Klein to join us here on the dais and to be 
allowed to participate in this committee hearing. Is there 
objection?
    Mr. Inglis. Reserving the right to objection--hold on a 
second.
    Chairman Lampson. Without objection, so ordered. 
Representative Klein, you are welcome to join us.
    At this point I would like to introduce our first panel. 
Mr. William Proenza is the Director of the Tropical Prediction 
Center, the National Hurricane Center, National Centers for 
Environmental Prediction, National Oceanic and Atmospheric 
Administration. He will discuss his service as director of the 
Tropical Prediction Center, the National Hurricane Center, and 
his experiences during the recent events that led the NOAA 
administrator to place him on leave.
    Mr. Sensenbrenner. Mr. Chairman, I have a parliamentary 
inquiry. Is it not the practice of this committee to require 
witnesses to file their written testimony 24 hours in advance 
so that the Members and the staff of the Committee can review 
that testimony and draft appropriate questions?
    Chairman Lampson. We did not ask for testimony, which I 
understand is common practice. With circumstances like this, we 
did ask for his biography and it was submitted.
    Mr. Sensenbrenner. A further parliamentary inquiry. Has 
written testimony been submitted in a timely manner by all of 
the other witnesses on the other two panels?
    Chairman Lampson. Yes. Written testimony of everyone has 
been submitted.
    Mr. Sensenbrenner. Further parliamentary inquiry. I am 
referring to the Committee rules governing procedure of the 
Committee on Science and Technology that says insofar as is 
practical, each witness who is to appear before the Committee 
shall file no later than 24 hours in advance of his or her 
appearance both a statement of the proposed testimony and a CV 
in printed copy and electronic form. Why was it not practical 
for Mr. Proenza to file his statement pursuant to the rules 
when it was practical for all of the other witnesses to do so?
    Chairman Lampson. He submitted his bio, which is what we 
asked him for.
    Mr. Sensenbrenner. Further parliamentary inquiry. Then why 
did not the Chair ask for the proposed testimony, which is also 
required under the rules, since apparently all of the other 
witnesses were able to submit proposed testimony?
    Chairman Lampson. I think there is a difference between the 
two types of information that was coming. I think that it is 
traditional when persons who could be considered whistleblowers 
are coming before a panel that they not be asked to submit 
written testimony.
    Mr. Sensenbrenner. Well, a further parliamentary inquiry. 
It is also traditional that Administration witnesses appear 
first on the first panel rather than being forced to wait 
around, and that was my practice when I was the Chair of the 
Committee and the Clinton Administration was in office. Why was 
not Admiral Lautenbacher given the same courtesy that tradition 
has allowed Administration witnesses for as long as I have been 
on this committee?
    Chairman Lampson. I made the determination as the Chairman 
to the order that we would have our witnesses come. That is at 
the discretion of the Chair and that was the decision that I 
made.
    Mr. Sensenbrenner. I would then ask unanimous consent 
pursuant to the tradition of this committee that Admiral 
Lautenbacher be allowed to testify first as an Administration 
witness.
    Chairman Lampson. I object.
    Mr. Sensenbrenner. I would further ask unanimous consent 
that Mr. Proenza be excused because he has not filed his 
testimony 24 hours in advance as all the other witnesses have.
    Chairman Lampson. He is not required to be, and I might add 
also that even your own actions for the Committee that you 
chaired are different than what you are asking right now, 
Ranking Member. And at this point our witnesses should know.
    Mr. Sensenbrenner. I would ask unanimous consent that Mr. 
Proenza be excused until he files the written testimony as all 
of the other witnesses have.
    Chairman Lampson. We have heard enough and we will go 
forward with this witness, and as you know, the witnesses.
    Mr. Sensenbrenner. I object.
    Chairman Lampson. And we will go forward with this plan 
with our committee as planned.
    And as our witnesses should know, spoken testimony is 
limited to five minutes each. It is also the practice of the 
Subcommittee to take testimony under oath. Do you have 
objections to being sworn in? You also have a right to be 
represented by counsel. Is anyone represented by counsel? Are 
you represented by counsel at this hearing? Please stand and 
raise your right hand.
    [Witness sworn]

                                Panel I

STATEMENT OF MR. WILLIAM PROENZA, DIRECTOR, TROPICAL PREDICTION 
                             CENTER

    Mr. Proenza. Chairman Lampson, Chairman Miller, Ranking 
Member Inglis, Ranking Member Sensenbrenner, Committee Members, 
thank you for inviting me here this morning.
    Although for the position of National Hurricane Center I 
was not a candidate as was mentioned, I was really happy to 
accept as a lateral career movement in my senior executive 
service that reassignment. I fully felt the weight of this 
position and I dedicated myself to its mission, the mission 
which boils down to the highest calling in government, the 
protection of life. I took over on January 3 as my predecessor 
retired on the same day.
    A quick background on me. I am a meteorologist. I started 
my National Weather Service career in the mid 1990s with two 
hurricane seasons at the National Hurricane Center and then 
another three seasons flying into the hurricanes with the 
Hurricane Hunters. However, a lot of my leadership experience 
was gained heading the Weather Services for one of the world's 
most severe weather active areas, the Southern Region, since 
actually January of 1998, an area that extends from New Mexico, 
includes Oklahoma and Texas eastward to include all of the Gulf 
states, Georgia, Florida, Puerto Rico, the Virgin Islands, and 
hydrologic services include South Carolina, North Carolina and 
into Virginia as well. This region has nearly 90 percent of the 
U.S. landfalling hurricanes. Our nation in an average year has 
an active enough hurricane threat in the Atlantic basin, no 
question about it, but since 1995 we have been in what we call 
a more active, multi-decadal in length, period in which 
hurricanes are especially major. During this active cycle, our 
nation's average annual losses jump from $4 billion per year to 
nearly $19 billion per year. Furthermore, our culture has our 
people liking to live near the coast. In fact, our census shows 
us that about 53 percent of the Nation's total population lives 
within the first 50 miles of the coastline, an important 
consideration as we face the challenges of the future for the 
Hurricane Center so we can easily see why building the 
preparedness of our nation, of our people, building our 
partnership with emergency management, local government 
officials and Homeland Security, local and State government and 
the media is so important to the National Weather Service and a 
major activity for me, especially before the normal season 
begins in June.
    Another major concern during this preseason time for me 
that I have spent in this position was assessing our readiness 
to maintain our mission delivery to the American public, and 
while the National Hurricane Center has never been, has never 
been more ready for a season, we still had some potential 
problems. But already we have dealt with four tropical storms 
and dealt with them without any problem. One was what we 
called--one of the problems that we had and one of the 
potential problems, what we call the ocean sector surface 
vector winds which really is the wind field above the ocean 
that is so important for hurricane analysis. It is vital data 
that we get from the NASA satellite that was launched in 1999, 
QuikSCAT, with an estimated lifespan of three, sometimes people 
will say five years, three to five years, but it is now in its 
eighth year, and it is on its backup transmitter. Two days 
after I entered the National Hurricane Center on January 5, my 
staff briefed NOAA Administrator Lautenbacher, NWS Director 
Johnson and my then new immediate supervisor, Director 
Uccellini, on this problem. A critical satellite on borrowed 
time and no plans, no plans to replace it. That presentation 
from January 5 stated how important this ocean surface wind 
field is from the everyday users of this particular service, 
and I have quotes such as, from the senior hurricane 
specialists that are on my staff now, ``When QuikSCAT is 
gone,'' and I quote exactly, ``It will be like going back seven 
years in tropical cyclone analysis.'' ``Losing QuikSCAT will be 
like losing a limb, especially for tropical analysis and 
forecasting.'' The Navy says QuikSCAT plays a critical role in 
our analysis of short-term warnings and forecasts. That is the 
Joint Typhoon Warning Center in Pearl Harbor.
    NHC has many facts that we look at, many sources of data 
but one thing is apparent to us all the time is that over the 
ocean we have a tremendous sparsity of data. We have some 
buoys, we have some satellites that look over the cloud 
features across the ocean, we have some ship reports, but when 
it comes to the sparsity of data, no single source of data adds 
more information to us for the analysis than QuikSCAT. The fact 
that this is a little known recent NOAA publication that came 
out officially stated very clearly seven years of QuikSCAT 
dependence and we don't have plans in our government to replace 
it with a new generation version. It will take five years to 
develop and send up a new generation of satellite but it will 
have great new benefits. But don't take my word for it. Dr. 
Robert Atlas is here this morning, an expert on QuikSCAT from 
his days at NASA and now one of our leading NOAA ocean and 
atmospheric research scientists. This is not about having a 
satellite version that we could call a Chevy or a Cadillac. It 
is about having one reliable latest science, what we call ocean 
surface vector wind satellite that will help us protect life in 
the oceans and on land.
    Despite what I thought was a reasonable approach to 
QuikSCAT's advocacy, I have asked myself why all this 
resistance. The fact is, NOAA is one of the U.S. departments 
struggling right now with huge overruns, billions of dollars in 
its polar orbiting environmental satellite system and still 
nowhere in there, nowhere in their design is there a new 
generation listed QuikSCAT replacement until the year 2016. An 
oversight? We are all concerned about the protection of life of 
our people. Perhaps it was a way to cut costs, whatever. I 
dared to call attention to it. I dared to call attention to it, 
and by golly, I am going to pay the price for bringing this to 
the attention of the American people.
    On another matter.
    Chairman Lampson. Can you wrap up because your time?
    Mr. Proenza. Sure. Another matter, the $200,000 that was 
diverted for the Joint Hurricane Test Bed. It was used for one- 
to two-year projects translating science into operations. That 
was removed this year, and I simply pushed to have it restored 
when my deputy, my deputy in January said it would hurt the 
success of improving our hurricane monitoring and forecasting. 
In addition, I called attention to the fact that it was over $4 
million in NOAA resources for celebration of an alleged 200-
year anniversary of NOAA when it was a bit of a stretch, since 
NOAA was formed in 1970. Most important, I didn't feel in my 
opinion that self-promotion was an acceptable way to use funds, 
especially when funds are tight. So I shared all of this early 
on with my chain of command, with my partners and later brought 
it to the attention of the country and I have been chastised, 
threatened, investigated, recommended for reassignment, 
discredited after more than 40 years of dedicated service to my 
country. The investigation was extraordinarily disruptive that 
came in to us that Monday and a surprise from Washington which 
triggered a frenzy of concern for mission delivery and employee 
careers. I am still the Center's Director. I need to go back to 
work. I am ready to repair bruised relationships wherever they 
may be with whatever mediators and things that we feel may be 
the best way to move forward. That is what we have to do in 
this year's hurricane season.
    Mr. Chairman, thank you so much for these five minutes. I 
am at your Committee's disposal.

                     Biography for William Proenza

    Bill Proenza is the Director of the National Hurricane Center (NHC) 
in Miami, part of the National Weather Service (NWS), an agency of the 
Department of Commerce bureau, NOAA.
    A 1967 meteorology graduate of The Florida State University, 
Proenza served two hurricane seasons in '63 & '64 at NHC and then three 
hurricane seasons as an assistant flight meteorologist ('65-'67) on the 
``hurricane hunter'' aircraft. He continued his career within the 
National Weather Service for more than 40 years receiving numerous 
performance commendations and awards, including recognition from the 
NWS Employees' Organization as the NWS Manager of the Year for 1998 for 
his collaborative leadership.
    Proenza has held a diverse array of field and leadership positions 
and his meteorological experience ranges from leadership in the 
modernization of weather services as well as managing weather 
forecasting and severe weather warning services as well as climate 
services. He rose through the ranks of the NWS and held the position of 
Director of the most severe weather-active area of our nation, the 
Southern Region, encompassing one-fourth of the Nation from New Mexico, 
Texas, Oklahoma eastward all the way to Florida and on across the 
Caribbean to include Puerto Rico and the Virgin Islands from 1998 
through the end of 2006 (acting in '98). Through his experience in the 
southern, north-central and eastern portions of the Nation, Bill has 
gained a unique familiarity with many types of weather from tropical to 
intense winter weather and severe local storms.
    Proenza is a long standing member of the American Meteorological 
Society, the National Weather Association, the International 
Association of Emergency Managers and the National Emergency Management 
Association. In 2001, the American Meteorological Society (AMS) 
recognized him with its prestigious ``Francis W. Reichelderfer Award'' 
for outstanding environmental services to the Nation and in 2003, he 
was conferred the prestigious status of ``Fellow of the AMS.'' Just 
recently in 2006, he was elected by his peers to the leadership board 
of the American Meteorological Society as a Counselor.
    Proenza is an internationally recognized meteorologist and has 
represented the U.S. Government across the Caribbean Basin. In 2006 and 
2007, he headed the United States Delegations to United Nations 
(UNESCO) meetings on tsunamis and the oceans. Proenza is also the 
chairman of the United Nation's World Meteorological Organization's 
Hurricane Committee, which supports 26 member nations in the hurricane 
threatened nations of the Americas.

                               Discussion

    Chairman Lampson. Thank you, Mr. Proenza.
    It is time now for our first round of questioning, and the 
Chair will recognize himself for five minutes.

                          NOAA Assessment Team

    Mr. Proenza, when were you notified that NOAA was sending 
an assessment team to the Hurricane Center?
    Mr. Proenza. I received a call from Conrad Lautenbacher, an 
Administrator at NOAA, at 9:00 that Monday morning, then they 
showed up knocking at my door. I did not know before then.
    Chairman Lampson. Was anyone else on your staff aware that 
the Team was arriving?
    Mr. Proenza. Yes, sir. I talked to my deputy and I asked 
him if he knew anything about it. He said yes, he was 
instructed from Washington by Louis Uccellini that this team 
was coming down to the Hurricane Center but he was told not to 
tell me.
    Chairman Lampson. Did anyone from NOAA come with the Team 
to the Center?
    Mr. Proenza. Two people from NOAA came. One was a senior 
executive service person from the satellite service of NOAA, 
another one was an administrative support person from NOAA, and 
then three people from the Department of Commerce.

                             Media Exposure

    Chairman Lampson. We have the review team's report, and I 
want to ask you a few things about it that are in it. Page 3 of 
the report indicates that you asserted to the review team that 
you didn't want anyone going to the media about the assessment. 
Is that true?
    Mr. Proenza. That is correct. We were in the midst of the 
hurricane season. I wanted to have a minimal exposure to what 
was going on in the Hurricane Center.
    Chairman Lampson. The report goes on to say, 
``Nevertheless, the next day he held media interviews on the 
forecast operations floor about the assessment while the 
hurricane specialists were performing their duties analyzing 
tropical activity.'' Is this true?
    Mr. Proenza. That is correct again. Essentially those 
interviews were set up by NOAA public affairs. A NOAA public 
affairs person came down with the Team in addition to our NOAA 
public affairs. They coordinated on all of my interviews for 
the day and I just simply conducted the interviews I was 
instructed to conduct.
    Chairman Lampson. And you just answered my next question, 
did you arrange those interviews. And who arranged them? Would 
you tell me again?
    Mr. Proenza. The NOAA public affairs people there. There 
were two of them, a Dennis Feltgen, who is normally the NOAA 
public affairs person for the Hurricane Center, and the person 
that came down with the Team, Greg Romano, who is also a NOAA 
public affairs person.
    Chairman Lampson. The way the report is written, it implies 
that you were being disingenuous with the assessment team, that 
although you told them you didn't want media attention on the 
assessment, you actually did want media present and that you 
arranged for the media to be at the Center. So you didn't want 
the media there and you did not arrange those interviews, 
correct?
    Mr. Proenza. That is correct, sir.
    Chairman Lampson. I will turn to another example in the 
report. Again on page 3, it states, ``One specialist reported 
that the Director disrupted his ability to track tropical 
storms. We had Barbara and Barry. He kept bringing the media 
over onto the operations floor to show QuikSCAT while I am 
trying to put out a forecast. It was hard to get the job 
done.'' Do you remember that incident?
    Mr. Proenza. Yes, I do.
    Chairman Lampson. Do you want to tell me a little more----
    Mr. Proenza. Certainly. It was a case where we had Barbara 
and we had Barry. I was on duty for both of those storms with 
the two hurricane specialists and we had examples where we 
could show that the sparsity of data that we were experiencing 
over the ocean where these storms were located, and what we 
could show was the QuikSCAT coming over and giving us the data 
that we needed. It was certainly momentary and it was always 
with the full knowledge of knowing what was going on at the 
time.
    Chairman Lampson. You asked if the media could be brought 
over to----
    Mr. Proenza. Yes, sir.
    Chairman Lampson.--see that and he agreed?
    Mr. Proenza. I asked if we could show them what was going 
on and how we were using analysis of QuikSCAT.
    Chairman Lampson. And----
    Mr. Proenza. And they even demonstrated it themselves.
    Chairman Lampson. And the response from him was?
    Mr. Proenza. ``Yes, and I will demonstrate it,'' and it let 
them do the demonstration.
    Chairman Lampson. Is it unusual for the media to be present 
on the operations floor of the Hurricane Center? I was of the 
impression that it is set up for media presence during storms. 
Am I wrong?
    Mr. Proenza. Off and on for special circumstances, I see it 
happening. I don't think it is that unusual but I don't have 
enough time there to say.

                         Staff Dissatisfaction

    Chairman Lampson. You were the director for the Southern 
Region Office of the National Weather Service for seven years. 
During that time, did NOAA ever send an assessment team to the 
regional office?
    Mr. Proenza. No, sir.
    Chairman Lampson. Prior to the arrival of this team, were 
you aware that members of the staff were dissatisfied with your 
management and leadership of the Center?
    Mr. Proenza. No, sir.
    Chairman Lampson. Was there any resistance to change and 
concern about any public statements?
    Mr. Proenza. There was resistance to change as far as what 
we were trying to do. One of the objectives that we had as we 
entered the season and looked at the fact that we had growing 
challenges on the horizon for the Nation's hurricane warning 
program, I simply wanted to get the research community more 
attuned to the needs of what the operational community needed, 
and so we were working together with the NOAA side of the 
research group that is there in Miami in the South Florida area 
and we had a great cooperation working and they objected to 
that.
    Chairman Lampson. My time has expired. I will now recognize 
Chairman Miller. I am going to relinquish the chair to Mr. 
Miller for five minutes.
    Chairman Miller. Mr. Proenza, how are you this morning?
    Mr. Proenza. Good. Thank you, sir.
    Chairman Miller. The last questions from Chairman Lampson 
that there was some resistance to change by various employees 
of the Center, did you think that there were any problems or 
differences between you and the staff that could not be worked 
out, that were so serious that they were beyond a solution?
    Mr. Proenza. No, not at all. It's just the normal course of 
events and how we implement change and we are doing it all the 
time in the scientific environment.

                                QuikSCAT

    Chairman Miller. You talked a good deal about QuikSCAT. I 
would like to talk about that a little more. Did you ever 
advocate for cutting the funding for the hurricane aircraft to 
fund QuikSCAT?
    Mr. Proenza. Not at all.
    Chairman Miller. How are those two projects comparable?
    Mr. Proenza. First of all, the QuikSCAT project itself when 
it was asked what we wanted to do there, I said that indeed the 
NOAA requirements report asked for something to be started 
immediately or the replacement with a new generation of 
satellite. I said I concurred with that. I said also though I 
wanted to make sure that we had support for the aircraft and 
for the later model developments we were seeking for the 
Doppler radar we wanted for the Air Force, a whole slew of 
items that we feel are important for the future our capability 
protecting the people. But in addition to that, when they said 
well, which one do we have to start on, well, I said we need to 
start on the QuikSCAT because that is going to take five to six 
years to get it going to the point that we can have a possible 
launch and so I said that we needed to start immediately on 
that and so I emphasized that.
    Chairman Miller. Also, the funding level required for the 
hurricane planes versus the QuikSCAT satellite.
    Mr. Proenza. For the plane, it is about $50 million. For 
the satellite, it is $500 million.
    Chairman Miller. Some of the senior forecasters at the 
Center apparently believe that your comments about QuikSCAT 
were undermining public confidence in the Center's forecast 
ability. Why did you continue to talk about QuikSCAT and the 
failure to have a satellite ready replacement?
    Mr. Proenza. Because I had the scientific community, I had 
my own hurricane specialists telling me in their quotes how 
important QuikSCAT was to them and I certainly wanted to make 
sure that I advocated their positions operationally.

                         Hurricane Season: 2007

    Chairman Miller. How well prepared are we for the current 
hurricane season?
    Mr. Proenza. We are absolutely as prepared as we have ever 
been. We have a new model on board. We are excited about that. 
We have had some graphic changes that we put into the web site. 
We have an option where the cone of uncertainty has been 
redefined by one of the hurricane specialists. We feel that 
that would be more accurate and we are also having a toggle 
where the user, whoever that may be, can actually take a little 
black line that Max used to say don't focus in on. They can 
take it off and put it back on. We are doing that and we have 
an experimental tropical weather outlook graphic that is going 
out that will show the user, the public, a better concept of 
where the active areas of disturbed weather are right now.
    Chairman Miller. Did you ever think that advocating for 
better equipment for future forecasting in any way undermined 
the forecasting or the confidence of the forecasts now?
    Mr. Proenza. No, absolutely not.

                            More on QuikSCAT

    Chairman Miller. Did anyone superior to you at NOAA, the 
Department of Commerce ever tell you to stop talking about 
QuikSCAT?
    Mr. Proenza. Yes, sir.
    Chairman Miller. Who were they? And what did they say?
    Mr. Proenza. I had a call on Friday, April 13, and it was 
from my immediate supervisor, and the statements were, ``You 
better stop these QuikSCAT NHC funding associated with the 
Joint Hurricane Test Bed complaints. I am warning you. You have 
NOAA, DOC, OMB, the White House''--excuse me--``pissed off.''
    Chairman Miller. I am sorry. Was that an oral statement or 
an e-mail?
    Mr. Proenza. That was an oral statement and I just put it 
contemporaneously in my calendar.
    Chairman Miller. And you said your immediate superior. Was 
that Mr. Uccellini?
    Mr. Proenza. Yes, sir.
    Chairman Miller. How about Mary Glackin? Did you ever hear 
from her?
    Mr. Proenza. Yes. She came on board in June, June 11, I 
believe. She came to visit us at the end of that week and she 
said in her time that she has been on board as the Acting 
Director of the National Weather Service, that she felt she was 
spending an inordinate amount of time handling QuikSCAT 
questions and wanted me to cease and desist.

     Integrating Research at the Hurricane Research Center and the 
                       National Hurricane Center

    Chairman Miller. I understand you advocate for more closely 
integrated research done at the Hurricane Research Division 
with the operational forecasting done at the Center, the 
National Hurricane Center. Have those organizations worked 
together historically? Why did you want them more closely 
linked? And was there any resistance to having a closer 
relationship between----
    Mr. Proenza. The resistance I was told about and advised 
about by my senior staff was that there had been a barrier, so 
to speak, between the two operations in the past and I said I 
understand but I felt that it was compelling upon all of us 
based on the challenges that those barriers were no longer to 
exist and we needed to bring together all of the resources that 
we had in NOAA into one operation that would challenge the 
researchers to meet the needs of the operational forecasters.
    Chairman Miller. And my time is also expired, Mr. Proenza. 
I think we would now turn to Mr. Inglis for five minutes.
    Mr. Inglis. Thank you, Mr. Chairman.

       Director Proenza's Tenure at the National Hurricane Center

    Mr. Proenza, this Administration was bitten badly by 
Katrina. The theory of the case for you brought forward by the 
majority is that you are being punished for being a critic. If 
this Administration, having been bitten by Katrina, were 
interested in not developing the best technology, it would be 
surprising to me. Is it surprising to you that the 
Administration, having been bitten by Katrina, would not want 
the very best technology and would see it as a crucial priority 
of this Administration?
    Mr. Proenza. Congressman, even if--if I can point to a 
publication from NOAA that looked at our requirements and said 
that we needed to do this, I can assure you, at the time that I 
brought the need for the QuikSCAT replacement with the new 
technology to my superiors, there was no plans to replace this 
particular satellite and only later this year did they mention 
that they would have something for us possibly by 2016.
    Mr. Inglis. The government is very good at reacting. That 
is what we do very well and so if this Administration is 
reacting to the stimulus, the very unfortunate stimulus of 
Katrina, doesn't it stand to reason that they would react and 
say whatever it takes, get it quickly?
    Mr. Proenza. I totally embrace that any way that I can work 
towards getting that a reality.
    Mr. Inglis. The thing is, that undermines your whole theory 
of this case. It undermines the Majority's theory of the case 
because their theory is, you are being punished for being a 
critic. You would be the hero for pointing out some better 
technology if the Administration had been so bitten, wouldn't 
it?
    Mr. Proenza. I am trying to point out that we need to work 
immediately to begin bringing the latest science and technology 
to the forefront and the design of a new instrument that would 
be able to replace QuikSCAT whenever it is possible.
    Mr. Inglis. Let me ask you this. Can you give me the names 
of three people at the Center who I could call who would say 
that you are a good leader?
    Mr. Proenza. Yes.
    Mr. Inglis. Will you give me their names?
    Mr. Proenza. Chris Landsea.
    Mr. Inglis. Let me get this down. Chris Landsea, L-a-n-c-e-
y?
    Mr. Proenza. Yes, L-a-n-d-s-e-a. You know, Congressman, 
just a moment. I don't want to put words or expectation in any 
employee of mine's mind and I want them to feel free to say 
whatever they want to say. I would just suggest that there are 
employees there that would feel that way. I just don't want to 
invade their privacy and say--and put words in their mouth that 
they----
    Mr. Inglis. I am just interested in talking with them to 
see who you think at the Center would say you are a good 
leader?
    Mr. Baird. Would the gentleman yield for one moment, if I 
may?
    Mr. Proenza. Would I----
    Mr. Baird. I am not asking the witness. I am asking my 
colleague to yield for just a moment.
    Mr. Inglis. I don't have enough time, I don't think.
    Mr. Baird. Well, I understand that, but there are 
procedural legal issues that the gentleman may be treading upon 
here.
    Mr. Inglis. Am I yielding? I guess I was yielding, but I 
consumed some of the time. I suppose I can get the time back, 
Mr. Chairman.
    Mr. Proenza, the third one.
    Mr. Proenza. I just feel awkward about, there are all sorts 
of people, sir, that I don't want to make them, invade their 
privacy by bringing their names up, and giving them the 
expectation that I feel----
    Mr. Inglis. Let me ask you this. Why do you think 23 people 
signed a letter saying you should be removed, 23 out of the 46. 
That is about half, isn't it?
    Mr. Proenza. Sir, I wasn't there when they held the 
meeting, and several people stood before the rest of the 
employees, and asked them to sign, and the reasons why, I 
didn't hear those argument. It would be hard for me to judge--
--
    Mr. Inglis. Let me ask you this. If you, even if you were 
certain that somebody said before them, I would be really 
concerned about signing such a letter, because I would be 
afraid that maybe you were going to get me after I signed the 
letter, so there is a real resistance to me signing the letter, 
right?
    So, if I sign the letter, 23 people overcoming that natural 
resistance, again, it cuts against the theory of the majority 
here. The 23 had to overcome enormous resistance to sign the 
letter, to put their name to it. Now, I am asking you for three 
people that I can call, and ask who would say that you are a 
good leader.
    Mr. Proenza. I understand, sir.
    Mr. Inglis. And you wouldn't have any trouble coming up 
with three more names.
    Mr. Proenza. No, it isn't that at all.
    Mr. Inglis. And then, you are trying to stop me from 
calling them.
    Mr. Proenza. No, no. You, sir, you have whatever 
authorities you have to do whatever you want to do. I am just 
saying upon thinking of your question, with all respect, I just 
feel that it would be wrong of me to list names of some of the 
people that I supervise, or I am in the chain of command, and 
say that they are going to say something about me.
    Mr. Inglis. Yes, I understand. You said that before. And 
let me ask you this, because my time is running out. You have 
spoken here a lot today about QuikSCAT, and you spoke about the 
importance of the work of the Center, but I notice you never 
spoke about the dedication of the people and their expertise. 
Would you describe yourself as a people person?
    Mr. Proenza. Sir, I said that the Hurricane Center has 
never been more ready than it is this year----
    Mr. Inglis. I understand, but you have never mentioned the 
people, and it seems to be a manager's crucial question here, 
if you take my theory of the case, this may just be a personnel 
matter, is that you would mention people if you were an 
effective manager, rather than simply technology, and it could 
be that you are on a hobbyhorse of a technology, and the people 
are being ignored, and perhaps, that is why the assessment team 
made the recommendation they made. Is that possible?
    Mr. Proenza. They are not being ignored. Absolutely not. 
And in fact, the assessment is based on our people, and I am a 
people person, and I have a thousand employees, just under a 
thousand employees in my previous responsibility. And also in 
the Center. I work with professionals, and even though they may 
have said what they have said, I have said also that they are 
all professionals, and I don't expect any of them to do their 
job at any lower performance level than they are capable of 
doing now. I really believe in that, and that is why I believe 
that the Center is in the best ever condition to deliver the 
mission to the American people this year.
    Chairman Miller. All right. We are well now past the five 
minutes, plus a very generous allowance for that interruption. 
Mr. Sensenbrenner for five minutes.
    Mr. Sensenbrenner. Thank you, Mr. Chairman. Mr. Proenza.
    Mr. Proenza. Yes, sir.

                         More on Media Exposure

    Mr. Sensenbrenner. On June 14, your supervisor, Mary 
Glackin, gave you a memo outlining procedures and expectations. 
Could you please tell us who else on your staff you gave this 
memo to?
    Mr. Proenza. I shared this memo with, first of all, I had a 
meeting with my staff, and I shared what was in the memo with 
them. I handed out a few copies of the memo at that time.
    Mr. Sensenbrenner. Did you release this memo to the press, 
or leak the memo to the press in any regard?
    Mr. Proenza. No, sir.
    Mr. Sensenbrenner. Then, fast forward to after the 
assessment team paid a visit to the National Hurricane Center. 
Did you ask your staff not to discuss the assessment team with 
the media, the assessment team and its investigation to the 
media?
    Mr. Proenza. I remember talking to the investigators, 
hoping that this could all be processed in a way that it would 
be low key, and not disruptive to the operations at the Center.
    Mr. Sensenbrenner. Later on, when the media came on one of 
their regular calls, did you bring the assessment team's 
presence and investigation up to them?
    Mr. Proenza. Not that I remember. I remember that all of 
the interviews that I had went through the NOAA public affairs 
people that were there, and that they, indeed, knew at that 
time that the group was there, investigating. I don't know if 
they picked it up while they were there, or they knew before 
they got there. All I did was I conducted my interview and 
answered the questions.
    Mr. Sensenbrenner. Okay. Now, I have got the assessment 
team's report here, and about two-thirds of the way down, on 
page 3 of the report, it says: ``Separately, the assessment 
team witnessed similar behavior. In the Team's initial meeting 
with the Director, he asserted he wanted the assessment to be 
least disruptive as possible to our operations, and to be low 
key. He told the Team he did not want anyone going to the 
media, otherwise, that will engage a lot of explanation on our 
part to them. Nevertheless, the next day, he held media 
interviews on the forecast operations floor about the 
assessment, while the hurricane specialists were performing 
their duties, analyzing tropical activity.'' This is a report 
of the assessment team. It is at variance with the testimony 
that you just gave under oath. Which is correct?
    Mr. Proenza. My testimony is correct. When they came in, 
and they were interviewing me, that is when those questions 
came up. I simply answered those questions. The interviews were 
set up where they normally are set up, at the briefing desk, 
and I conducted and answered accordingly. I did not set up 
those interviews. Those interviews were set up by the NOAA 
public affairs people. Is the question, sir----
    Mr. Sensenbrenner. The reason the interviews were set up by 
the NOAA public affairs people, was that relating to the 
activities of the assessment team, or was that relating to the 
normal operations of the Hurricane Forecasting Center?
    Mr. Proenza. The person that came down with the Team, Greg 
Romano, was especially for the purposes of monitoring the 
assessment team's impact on the office, and whatever went on 
between NOAA public affairs, the two people, it was coordinated 
among themselves, and I was strictly just brought out to the 
floor to answer them.
    Mr. Sensenbrenner. Okay. Then, are you saying that Dr. 
Turner's report, that I just quoted, is inaccurate, where he 
said that you were holding media interviews on the forecast 
operations floor about the assessment, while the hurricane 
specialists were performing their duties analyzing tropical 
activity?
    Mr. Proenza. If I was on the forecast floor, it was the 
desk that I conduct my briefings from, and should questions 
have come up in the media about the assessment team, I would 
have answered them at that time, but I did not in any way 
invite those questions. They were set up----
    Mr. Sensenbrenner. Did it ever occur to you that the word 
no comment, words no comment might have been a more appropriate 
response?
    Mr. Proenza. It did not, because I was answering honestly.
    Mr. Sensenbrenner. Okay. Well, all I can say is, is that 
you know, this is a personnel problem, which in my opinion, 
should have been handled internally, rather than being tried in 
the newspapers, and ended up being elevated to a Congressional 
hearing. I don't think it is our job as Congresspeople to deal 
with personnel problems.
    Mr. Proenza, you have got a problem down there that half 
your employees say they don't have any confidence in you, and 
if the NOAA management, and particularly, the NOAA 
Administrator, didn't deal with the fact that you had an 
employee revolt on your hands, for whatever reason it was, I 
think that they could have been justifiably accused of being 
negligent, you know, to a ticking time bomb that apparently has 
gone off.
    Thank you.
    Chairman Miller. Thank you. Ms. Johnson for five minutes. 
Diaz-Balart for five minutes.

      More on Director Proenza's Tenure at the National Hurricane 
                                 Center

    Mr. Diaz-Balart. Thank you, Mr. Chairman. Good to see you, 
Mr. Proenza. As many of you know, I represent and live in the 
area where the Hurricane Center is located, and I have actually 
gone to--I know Mr. Proenza, and frankly, he is a very likable 
guy. I have gotten to like him, but I do have some questions 
that I think need to be answered.
    Mr. Proenza, when you joined the Hurricane Center, and you 
said in a lateral position, so it is not like you did it for 
the money, I imagine one of the reasons you did it is because, 
frankly, as people were saying here, because of the great job 
that the people in the Hurricane Center do, and also, the 
important responsibility that they have.
    Mr. Proenza. Yes, sir.
    Mr. Diaz-Balart. And obviously, you follow a group of very 
distinguished professionals. Max Mayfield, you mentioned, Jerry 
Jarrell, Bob Sheets, Neil Frank. Some of the people that are in 
the Hurricane Center worked with a lot of these people before.
    I think we would all agree, everybody here on the dais and 
you, that the people that work in the Hurricane Center like 
you, have a very distinguished track record. I am a little 
worried, however, when you answered a question from the 
Chairman, I believe, and he asked you, and I am paraphrasing, 
but did you know that the people that worked with you in the 
Hurricane Center had a problem, and you, in essence, said I 
didn't think there was a problem with the staff. And then, 
subsequent to that, half of the staff publicly writes a letter 
with some pretty strong statements. If I may quote: ``The 
Center needs a new Director, and with the heart of the 
hurricane season fast approaching, urges the Department of 
Commerce to make this happen as quickly as possible.''
    How is it possible to have almost half of the people, 
including your secretary, senior hurricane specialists, people 
that have an incredible track record, how is it possible that 
you would not know that they had a problem, if they got to the 
point of, shortly afterwards, going out and writing a letter, 
not just saying they have got issues, but asking for you to be 
removed? Is that, were you disconnected entirely with your 
staff?
    Mr. Proenza. Congressman, there is always a few that may 
resist some changes.
    Mr. Diaz-Balart. This is half of them.
    Mr. Proenza. Let me just evolve what I would like to say.
    Mr. Diaz-Balart. Sure. Sure.
    Mr. Proenza. A few that may resist some changes. I know 
that there were some that resisted some of the graphic changes, 
some of the other changes associated with the research 
community, giving the leadership for part of the hurricane 
forecast research to the Hurricane Research Division, and so 
forth, as part of a total one NOAA type of approach, but 
nevertheless, I felt that those were best.
    But when the Team came in, what happened with that letter 
being signed was after the Team came in. When the Team came in, 
that was so extraordinarily disruptive. We had already had four 
storms. We have had no problems in dealing with the four 
storms, but it was extraordinarily disruptive. There was a 
surprise inspection. It was unprecedented. It triggered, 
because I heard some of the concerns, it triggered a frenzy of 
concern for people's careers and the mission.
    And I understand that, and I respect their concerns. They 
were popped in with this investigation, and they were 
concerned, and of course, at that time, after the investigation 
was started, and the meeting that was held, that was called for 
by some of the leaders, by some of the leaders of the group 
that wanted to do something. That particular time is when they 
got the signatures together.
    Mr. Diaz-Balart. But Mr. Proenza----
    Mr. Proenza. It was after the Team investigation began.
    Mr. Diaz-Balart. Okay. Now, again, because I have had 
contact with these, they were constituents of mine. They have 
contacted me as well, and some of them have said that a group 
of ten of them initiated the call----
    Mr. Proenza. Okay.
    Mr. Diaz-Balart.--to your supervisors. They were the ones 
who initiated the calls. Now, again, that is what they said. I 
don't know if that is factual or not, but here is the question. 
You said you did not know there was a problem with the staff. I 
don't know, you obviously had a problem, and maybe it was a 
problem with one or five or ten, but you had a problem, because 
some of them initiated this letter. But you said that you did 
not know there was a problem. I mean, it just, it is hard to 
believe that you would, did you not know, or did you not think 
it was a big enough problem?
    Mr. Proenza. Perhaps they should have come to me.
    Mr. Diaz-Balart. Perhaps, but let me ask you this now, 
because you have been a very successful supervisor. If you, in 
one of your previous positions, have a group of highly 
respected professionals wrote to you, and say our direct boss 
has real problems, and it is making our job impossible, would 
you think, would you have not done anything?
    Mr. Proenza. I would have----
    Mr. Diaz-Balart. Or would you have tried to, in the best 
way possible, tried to figure out what the problem was, and 
maybe sent in a group of impartial people to find out if there 
was a problem? Or would you have done absolutely nothing? 
Because this is my problem. If you have people that you and I 
have both said, and everybody here respect, say that the 
Director of the Hurricane Center must go, and if NOAA would 
have not done anything, if a group of highly regarded 
professionals calls their supervisors, as they have said they 
did on their own, and said our boss is a major problem, and is 
not allowing us to do our job, which may not have been the 
case, but that call took place, it seems like. If NOAA would 
have not done anything, do you think that would have been 
responsible? And in your case, if that would have happened in 
your case, would you have done nothing? Would that have been 
responsible?
    Mr. Proenza. No, I would have called the Supervisor, first 
thing. I have had 45 such supervisors under my responsibility, 
and the first thing I would have done is called the supervisor, 
explain what I have heard is a problem, and explain to them 
what can we do to help out. But I would have at least enlisted 
them first, to find out what we could do at that level first.
    Mr. Diaz-Balart. Now, it seems to me that----
    Chairman Miller. The gentleman's time has expired. We will 
have a second round of questions.
    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    Chairman Miller. Mr. Baird for five minutes.

                           Legal Obligations

    Mr. Baird. I don't particularly have questions. I just 
would suggest that as the Committee inquires about this, that 
we be cognizant that there are legal matters pertaining to 
employment issues. I personally asked the gentleman to yield 
previously, because I think to ask a supervisor to identify 
personnel in a Congressional forum in the manner that was asked 
is really not fair, and is not respectful of his certain legal 
obligations, and I think we have to respect.
    However, I really don't have a dog in the fight, except 
that I think there is politicization. If the gentleman is doing 
his best to protect his country from hurricanes, I certainly 
worked in organizations, where sometimes, change is resisted. 
And I think it is problematic to say to a gentleman, whichever 
side you are on on this, would you identify staff members on 
one side or the other in this public forum, and I would urge 
this committee to refrain from that, out of respect not only 
for the gentleman here, but for the employees themselves, and 
for legal issues that may pertain to employee hiring and 
promotion and other decisions. And that was the point I was 
trying to make earlier.
    Yield back.
    Chairman Miller. Mr. Feeney for five minutes.

                          The Role of Congress

    Mr. Feeney. Well, thank you, Mr. Chairman, and I think the 
gentleman's comments are well taken. I mean, personnel 
decisions are always tough. I was Speaker of the House, I had 
900 employees, and whether you are managing two people or 900. 
The real question for me is why Congress is involved in this 
one. The right decision or wrong decision may have recently 
been made, but you know, not long ago, I sat in a joint hearing 
of the House Science Committee and our corollary on the Senate 
side, and we had a supervisor that was accused of being too 
popular for his bosses, and so, we had to have a full joint 
hearing of the House and Senate.
    Now, we have got one who is accused of being too unpopular 
with some of his bosses and his employees, and so, we have got 
to have a full hearing. We have got admirals and other leaders 
waiting in the background. We are going to have a series of 
questions. And so, what Congress is going to do is to 
micromanage personnel decisions. We have had close to 400 
investigations in the first six months, and I guess I should 
have expected, coming to work today, that I would be busy, 
because I am running from here to the Judiciary Committee, 
where we are fighting with the White House over personnel 
decisions. And so, as Congress, 535 of us, try to micromanage 
decisions that the Administration make, as we are trying to 
micromanage, in some cases, the war, it is useful to remember 
why we have a chief executive. Somebody has to call the runner 
out or safe at home base, and you can't have 15 umpires. You 
have got to have one, and the President of the United States 
has to make this decision.
    And with all due respect, like Congressman Diaz-Balart 
said, you may have been the greatest supervisor in the world, 
and maybe just bad luck, bad timing, wrong place, wrong time, 
personality differences, for whatever reason, we have half your 
employees calling for your removal because of lack of 
confidence. It may not be your fault. They may have exercised 
misjudgment.
    Secondly, we have got your supervisor saying that in order 
to restore confidence in the TPC, that we need to have your 
removal, and finally, we have an independent investigative body 
saying the same thing. And it may not be fair at all to you, 
sometimes, life isn't fair, but nobody has a right to a job, 
especially when it is an appointment by the President of the 
United States.

                            More on QuikSCAT

    One of the big things that seems to have generated this 
dispute, other than personal issues and interpersonal skills, 
and who is mad at whom, is the question over QuikSCAT, and you 
have made statements to the press recently that suggest that 
without a very rapid replacement of QuikSCAT, essentially, our 
ability to track and forecast hurricane paths may be 
undermined. That is one of the things that people claim they 
are concerned about. As recently as May 22, you were quoted at 
a NOAA news conference as saying: ``I am encouraged in those 
conversations that we have had, and discussions we have had, 
that the Nation will be moving ahead very constructively in 
coming up with a design next-generation QuikSCAT to replace the 
current, which is still operational QuikSCAT that we have at 
this time.''
    You just told this committee that we are more prepared than 
ever to track hurricanes. The dispersal of information 
gathering capabilities is much greater than when we started 
with QuikSCAT. For example, aircraft reconnaissance, you 
started your career. Congressman Diaz-Balart and I recently 
crawled into one of the NOAA Hurricane Hunters, so you are very 
familiar with the, every year, we are getting better with that 
sort of equipment, observations from ocean buoys, ships, 
Caribbean islands. We have got a European satellite, and in 
fact, NOAA is now investigating ways that we can get the 
necessary information.
    So, maybe your press skills aren't the best. Lord knows, I 
have made my mistakes with the press, but for whatever reason, 
there is a great difference of opinion amongst the experts of 
how we need to replace the capabilities of QuikSCAT, and some 
of your recent comments have generated concern that we have 
undermined the ability to protect Americans with the best 
information, and if I had to suggest one thing that probably 
has led to this whole scenario, it is the fact that you have 
made statements, your staff has tried to either correct you or 
change those statements, and I will allow you to respond to 
that, but I would just tell you, in my view, there is only one 
umpire. That decision has been made. I think it has been 
verified. It may not be your fault, but you are out.
    And with that, I will let you respond to the QuikSCAT 
capabilities.
    Mr. Proenza. Thank you, Congressman.
    First of all, on the QuikSCAT program, the statement I made 
on May the 22nd, that I was greatly encouraged, was based on 
Conrad Lautenbacher, Administrator of NOAA, saying to the press 
that indeed, that particular project was gaining in the 
priorities at NOAA, and was rising in its priority level, and I 
was encouraged to hear that. And I also know that we were 
starting to have a preliminary meeting with the NASA people, 
the Jet Propulsion Laboratory, on the concept of how a new 
instrument would be designed, and again, I was encouraged. When 
you mention the aircraft data is valuable to us. It is 
essential for us. We use it operationally all the time, when we 
have a system.
    QuikSCAT is quite different, in that that type of data, we 
need QuikSCAT, too. It gives us the wind direction, the wind 
speed, at the surface, but it gives us an 1,800 kilometer-wide 
swath of information across the ocean, and it covers 90 percent 
of the global oceans. It is a key piece of data force.
    Thank you, Congressman.
    Chairman Miller. Mr. Klein.

                Director Proenza's Comments on QuikSCAT

    Mr. Klein. Mr. Ehlers and Members of the Committee, if he 
wants to go first.
    Chairman Miller. Well, actually, I think in the ordinary 
rotation of Majority and Minority. Mr. Ehlers, do you care?
    Mr. Klein. Okay. Thank you very much. Thank you, Mr. 
Chairman. First of all, thank you for being here today, and I 
think the public is tired of hearing about the debate. I think 
the public is much more interested in making sure that public 
safety is number one. Those of us who live in Florida or any 
other part of the country where hurricanes are a factor, and we 
have lived through some pretty substantial disasters and loss 
of life and property, and we know that this Hurricane Center is 
very much an important part of how we plan and deal with the 
preparation.
    So, what was refreshing to me all along was the fact that 
you brought something up, and it was a question of let us look 
into it. Again, I don't personally feel qualified to determine 
whether or not, you know, you should be the manager or not. I 
think that if there is a question, that needs to be looked 
into. I think this process is fine, and let it play itself out, 
and I think none of us support or endorse the idea of 
politicization of any kind of job. There is a job to be done, 
and this is not any kind of insignificant job. This is a very 
important public safety job.
    Specifically, my question is this. When I went to the 
Hurricane Center, as a matter of fact, I was there one of the 
days Congressman Diaz-Balart was down there, I had the chance 
to talk to the hurricane forecasters, and to see QuikSCAT and 
how it is used. I was told by the forecasters that, they showed 
me exactly how the data is presented, that it is one of many 
tools. It is not the entire tool. It is one of many tools that 
allows them to give a better forecast, allows them to shape the 
cone. We all know what that cone looks like, and how we prepare 
for it. It allows them to establish, hopefully, a timing 
element that is better, and knowing when landfall is met, and I 
saw that.
    I read, since then, a number of comments that have come 
from different people, Rick Knabb at the Hurricane Center, 
which said when QuikSCAT, it will be like going back six years 
in tropical cyclone analysis. Other people in other positions 
have said the same thing, and I guess my question is why is it 
that some of these people have retracted or retrenched or 
backed off on some of their comments? I look at these people as 
professionals. These are scientists. These are career experts, 
and just tell me, you know, what your sense of that is. I 
understand you stand by your positions, and I just want to make 
sure that you still are in that same position, and you still 
feel that QuikSCAT is an important part of the data that is 
presented to the analysts.
    Mr. Proenza. Absolutely. It is an important part of the 
data that is presented for the analysis of tropical oceans, 
over the tropical oceans, no question about it. It is data that 
we vitally look at, and we need to perform our jobs. We have 
found a way that we can mitigate, temporarily, while QuikSCAT 
is designed, a new generation is designed. But at the same 
time, it does not equal the quality of QuikSCAT.
    Why people may change their minds, it could be any number 
of things. It could be their perspective on an issue might have 
changed, evolved. I would rather give them the benefit of the 
doubt, and say that they went through an evolution in their 
thinking, even if they were in the scientific arena, and it 
happened.

                           Future of QuikSCAT

    Mr. Klein. And if QuikSCAT were to, and again, its beyond 
its useful life, we all understand what that means, it could 
last another few years.
    Mr. Proenza. Yes.
    Mr. Klein. It could last another week, and since we are in 
the middle of the hurricane season, the question I have been 
asking and writing and orally all along to you and your 
managers is, what is plan B, and I was told that obviously, we 
are trying to upgrade the hurricane trackers, which I support. 
There is a European satellite that everybody has acknowledged 
that that doesn't provide the same level of precise, high 
definition data.
    Mr. Proenza. Correct.
    Mr. Klein. Would you comment, tell me what is the 
difference, if QuikSCAT goes down, what is the difference in 
the amount, the quantity and quality of data, that we will have 
to work with?
    Mr. Proenza. For example, in the QuikSCAT data, we are 
getting an 1,800 kilometer swath of information. That is down 
to a 12.5 to 25 kilometer resolution. That means that often we 
will get a point where we get that type of data coming in to 
us. On the other hand, the ASCAT, and we will just use that 
comparison to the coverage, the ASCAT has got two swaths of 
data that are about just over 500 kilometers wide, and then, it 
has got a 700 kilometer opening in the middle, where it has no 
data. So, the data is quite interrupted, and it is not as 
consistent, and not as relevant to what we need.
    Mr. Klein. So, for the layperson, understanding what the 
technical description you are giving us, what does that mean in 
terms of a forecast, for looking at the information presented? 
If QuikSCAT is unavailable, and we have the European satellite 
and the buoys and other things out there, how does this 
translate into the accuracy, the timing, the cone, all those 
kinds of things that we are all paying attention to?
    Mr. Proenza. The data is not as good, and accordingly, the 
analysis that we have will not be as good. A measure of that 
difference, the one study that I can remember, and we will have 
a QuikSCAT expert coming up here that you may ask that question 
of, but the way I understand it, that if we subtract the 
QuikSCAT data from the models that were run back in 2003, just 
to use some comparison, and see what the model forecast, with 
and without the data, that we could see some degradation in the 
outcome of the model.
    I think it would be best to ask the expert from that 
standpoint. I stand on my position that QuikSCAT is a vitally 
important tool for the analysis over the tropical oceans and 
the rest of the oceans, for forecasting waves and warnings, 
winds, and at the same time, in analyzing tropical storm 
potential.
    Mr. Klein. Mr. Chairman, what I would take from all that is 
that I think part of the process of what our committee should 
be doing and the Committees of Congress, is considering what 
the backup plans are, make sure we are supporting backup plans, 
and thinking short-term and long-term in this process.
    Chairman Lampson. Thank you very much. Mr. Ehlers, you are 
recognized for five minutes.
    Mr. Ehlers. Thank you, Mr. Chairman. First of all, I agree 
with Mr. Sensenbrenner's earlier comments, that we should not 
be involving ourselves in a personnel issue. There are 
procedures within the administrative bench to handle this. We 
can provide our input, but I think we should shift the emphasis 
away from the personnel aspects.
    I think what we should, as a Science Committee, concern 
ourselves with is the science involved, and particularly, on 
the issue of QuikSCAT, but much beyond that, and to the whole 
picture of the weather satellite program that we have. I am a 
scientist. I can assure you that every scientist I know wants 
the maximum amount of data, and wants the data to be as good as 
possible. And I understand your desire to that. At the same 
time, I have some disagreement with your statement that the 
data from QuikSCAT is both important and vital. I would agree 
it is important. I do not agree that it is vital. I think there 
are other ways of getting--from my limited knowledge, I think 
there are other ways of getting the data that are necessary. 
And perhaps not as good, but I just don't think the QuikSCAT is 
vital, but we should be concentrating our efforts on developing 
better alternatives to QuikSCAT, and do that quickly.
    And I am also very disappointed, and have been disappointed 
for some time, with the difficulty we have had with the NPOESS 
satellite program at NOAA, with the huge cost overruns, and we 
have spent endless hours trying to straighten that mess out. We 
got it back on track, but the price we paid was to give up some 
of the sensors on NPOESS, one of which would have provided some 
of the data that QuikSCAT provides, and might have done it even 
better.
    I argued against removing those sensors. I felt we should, 
if necessary, slow the project down a year or two, in order to 
get the additional money to put the other sensors back on. I 
lost that battle, and I think if I had won, we might have had a 
better handle on the data sooner than we are going to have now. 
Whether or not we need to replace QuikSCAT is another issue. If 
we do, I certainly hope that we do not simply run out and have 
another QuikSCAT put up there. All the technology has improved. 
We can certainly do much better than what we have done in the 
past, and even if it takes a few more years to get it done, I 
think it is worth doing that.
    But I really think, Mr. Chairman, that the responsibility 
of this committee has to be a detailed review of the entire 
weather satellite program, and establishing good priorities for 
us, as to where the money should go. I am also concerned that 
we are not putting much money into that, when you consider the 
amount of money the Federal Government is putting into military 
satellites of various types, is putting into the GPS system, is 
putting into the Shuttle Program and so forth, I think we have 
given short shrift to NOAA and to the weather satellite 
program. When, I just think, if you look at the cost of one 
Katrina, that is far greater than the cost of the satellites 
that we need to help predict things better, and help to prevent 
things.
    So, Mr. Chairman, that is the end of my speech. I don't 
have any questions for you, Mr. Proenza, but I do think we 
should concentrate on the science, not on the personality 
aspects, certainly not on the personalities involved. And I 
would ask, Mr. Chairman, that we have a complete review of our 
weather satellite program. We have not done it justice in the 
past, and we have to do a better job.
    Chairman Lampson. Thank you. Thank you very much, Mr. 
Ehlers. We will recognize, we will go for our second round of 
questioning at this point, and I will recognize----
    Mr. Inglis. Mr. Chairman, may I ask, do we really need a 
second round? We have got Admiral Lautenbacher waiting, and I 
think that we have heard quite a bit. It seems to me that there 
is no real value in an additional round here. Couldn't we go 
right on to Admiral Lautenbacher?
    Chairman Miller. I have some questions I would like to ask.
    Mr. Inglis. Will you be around later to hear from Admiral 
Lautenbacher?
    Chairman Miller. I will.
    Mr. Inglis. Okay. Will everybody be around? I hope so, 
because we really----
    Chairman Miller. I am not sure everybody will.
    Mr. Inglis.--need the other side of the story.
    Chairman Miller. But I will be, and I have more questions 
that I want to ask.

                       Director Proenza's History

    Chairman Lampson. I recognize myself for five minutes.
    Mr. Proenza, I have a series of questions.
    Mr. Proenza. Yes, sir.
    Chairman Lampson. Here in only five minutes, so please, 
short. Yes or nos will be fine. We will be able to get through 
this hopefully quickly.
    Did you apply or seek, in any manner, the position of 
Director of the Hurricane Center?
    Mr. Proenza. No.
    Chairman Lampson. I understand it was D.L. Johnson who 
first approached you about the possibility of your taking the 
position.
    Mr. Proenza. Yes.
    Chairman Lampson. Who offered you the position, and when 
was that made?
    Mr. Proenza. Conrad Lautenbacher, December 1, 2006.
    Chairman Lampson. And you began as Director of the Center 
when?
    Mr. Proenza. I entered on duty on January the 3rd. I was 
put on paper as the Hurricane Center Director on the 7th of 
January.
    Chairman Lampson. I understand that although the position 
Hurricane Director is high profile and prestigious, it is 
technically a demotion, as compared to your position as head of 
the Southern Regional Office. Is that correct?
    Mr. Proenza. Yes, sir.
    Chairman Lampson. I also understand that your position as 
Southern Region Director attached to a position on the NOAA 
Corporate Board. Is that correct?
    Mr. Proenza. Correct.
    Chairman Lampson. Accepting your current position means you 
are no longer on the Corporate Board. Is that correct?
    Mr. Proenza. Yes, sir.
    Chairman Lampson. Did you ruffle any feathers during your 
time on the Board?
    Mr. Proenza. I held positions that I thought were important 
to the delivery of the mission to the American people.
    Chairman Lampson. I am going to take that as a yes. I 
understand the NOAA Corporate Board is a venue where NOAA-wide 
policies are established, and decisions are made about the 
operation of the line offices, budgets, et cetera. Right?
    Mr. Proenza. Yes, sir.

                       Concept of Operations Plan

    Chairman Lampson. NOAA was considering a change in the way 
the local Weather Service offices were structured and worked 
together, the so-called concept of operations plan. CONOPS. 
Were you a supporter of that plan?
    Mr. Proenza. No.
    Chairman Lampson. Who were the advocates for the plan on 
the Board?
    Mr. Proenza. The leadership, the very high leadership on 
the Board.
    Chairman Lampson. And that would include D.L. Johnson?
    Mr. Proenza. That is correct.
    Chairman Lampson. Did you believe NOAA leadership supported 
the CONOPS plan?
    Mr. Proenza. A mixed bag. Some support and not support.
    Chairman Lampson. Mostly, more a yes than no.
    Mr. Proenza. More yes than no, absolutely.
    Chairman Lampson. So, some people might see your departure 
from the Corporate Board as, shall we say, a positive step 
toward more harmony and tranquility on the Corporate Board? 
Yes?
    Mr. Proenza. Yes.
    Chairman Lampson. This committee, I am pleased to say, was 
instrumental in halting the plan. We had a GAO team investigate 
and assess the plan for several years, and they produced two 
reports. The second one was released last month. They weren't 
very impressed with the planning effort, and the Admiral has 
told us that the plan has been abandoned. Would you tell me 
some about that plan, please?
    Mr. Proenza. The concept of operation?
    Chairman Lampson. Yes.
    Mr. Proenza. Looked at the idea of trying to assign 
responsibilities at certain times to adjoining office, and 
allowing some of the forecast offices around the country to 
shut down, to be less than 24/7 operations.
    Chairman Lampson. And they closed it for that reason?
    Mr. Proenza. They would close, because the adjoining office 
would be able to pick up the responsibility. The concern was 
that emergency management would not be served on a 24 hour by 
seven basis. In addition to that, there was concern that we 
could not open up an office as fast as would be needed to apply 
the local expertise of that particular county warning area, to 
the issue that might have developed overnight.
    Chairman Lampson. Thank you, Mr. Proenza. I will now 
recognize Chairman Miller for five minutes.

      Criticisms and Shortcomings of the National Hurricane Center

    Chairman Miller. Thank you, Mr. Chairman.
    It certainly is not the role of these two subcommittees to 
look at personnel decisions, personnel matters. This appears to 
be something that goes beyond, well beyond office politics. The 
question that I raised in my opening statement. I found out in 
the same way most Americans found out about this controversy, 
by watching the news a couple of weeks ago. These subcommittees 
had nothing to do with this issue coming up in the national 
news. But when there is an explosion like what we saw a couple 
weeks ago, it certainly is appropriate for this subcommittee to 
find out what has been going on, what on Earth happened.
    One unchallenged assumption in a lot of the questioning has 
been, and I don't want to ruffle your feathers, or those who 
work at the Center, has been that this Center does the best 
work. I have talked to research scientists, I don't want to 
name names in this setting. Mr. Baird would call me down for 
that. But the assumption that the forecasts of the Hurricane 
Center are really, really good, are the best, is not what they 
say at all. In fact, they say the forecasts are so bad, 
particularly forecasts of inland flooding, and the vast 
majority of people who die now from hurricanes die from inland 
flooding. The forecasts of intensification, whether hurricanes 
are going to strengthen or weaken, those are really bad. 
Virtually every research university in the country that does 
atmospheric research, that does meteorological research, 
disregards the Hurricane Center's forecasts. They take the raw 
data, they run their own forecasts with their own models, which 
are always better, always more accurate.
    So, I am not sure that I think it is a bad thing that 
someone come into that Center and look at whether that Center 
is doing as good a job as it should, and whether it is using 
the best science that it should be doing. Mr. Proenza, have you 
heard those criticisms that I just repeated?
    Mr. Proenza. Yes, sir.
    Chairman Miller. Okay.
    Mr. Proenza. And it was my objective to address those. The 
growing challenges of the future, as far as the population 
centers, and the growing populations along the coastline, was 
an absolutely compelling argument why we had to get more 
accurate at forecasting intensity changes. I needed to bring 
all of the forecast capabilities together with the research 
capabilities of our organization and the academic community 
together to address that. Absolutely. In fact, intensity 
forecasts had shown very little improvement over many years.
    Chairman Miller. Okay. Your efforts to try to bring 
together, to try to meld research and operations, is that, were 
those efforts addressed to get at the failings of the forecasts 
of the Hurricane Center?
    Mr. Proenza. Yes, sir. We were trying.
    Chairman Miller. Well, I think, by comparison to FEMA, yes, 
the Hurricane Center is top notch. If we compare it to the kind 
of emergency management in Katrina, at least we knew there was 
a hurricane coming, but from all that I have heard from people 
who know this stuff know, the work of the Hurricane Center is 
not as good as it should be. It could be better right now, if 
it paid closer attention to the science, the best science that 
is out there, and research universities all across the country 
are doing better forecasting than the Hurricane Center.
    Mr. Proenza. And yes, Congressman, but I have to say we 
have to bring the very best science and tools to the Hurricane 
Center for them to get better at what they do. They are top 
notch group of professionals doing the best job they can with 
the information and the tools that they have.
    Chairman Miller. Mr. Inglis, would you like to ask a 
question or a comment? You are recognized for five minutes.
    Mr. Inglis. I won't use that, except to respond to Mr. 
Miller that as I understand it, the Hurricane Forecasting 
Center accurately predicted Katrina's path, and gave warnings 
three days in advance of that storm hitting New Orleans. Pretty 
impressive work.
    Mr. Proenza. Absolutely, sir.
    Mr. Inglis. By very dedicated people.
    Mr. Proenza. Top notch.
    Mr. Inglis. That work very hard to accomplish the 
objectives of the American people. I have no further questions, 
Mr. Chairman.
    Chairman Lampson. Mr. Diaz-Balart, you are recognized.

                       Hurricane Center Personnel

    Mr. Diaz-Balart. Thank you, Mr. Chairman. I first want to 
thank Mr. Klein, Congressman Klein, for trying to get us 
focused on the one thing that we do do in this committee, which 
is science, and not personnel.
    Look, it is pretty obvious that despite what I just heard 
from Mr. Miller that the Hurricane Center is horrible, and I 
beg to differ. And I don't know how many times he has been 
there, by the way, maybe many, and maybe he has met the 
incredible men and women in the Hurricane Center that Mr. 
Proenza says are incredible, and that I know are incredible. 
So, I just, despite that, I think everybody here is well-
intentioned. I think Mr. Proenza is a decent, good, 
professional guy with a great track record.
    Nobody can claim that he doesn't have a great track record, 
and I think the people in the Hurricane Center are the same 
thing. Unfortunately, and I don't want to, pardon the pun, but 
unfortunately, Mr. Proenza has become the lightning rod, from 
within the staff in the Hurricane Center and others. And that 
is unfortunate, and that has created a problem. I don't think 
Mr. Proenza is at fault. I don't think the people at the 
Hurricane Center are at fault. Sometimes, these things happen, 
and it is unfortunate. Unfortunately, it has created a problem.
    Now, we shouldn't be talking about personnel here, because 
Congress doesn't do personnel, and even if we decided that Mr. 
Proenza is the person to be there, we can't really do anything 
about it anyway, so we are kind of just talking for the sake of 
talking. So, I do want to get back to, as Mr. Klein said, the 
science.

                 Hurricane Center Science and QuikSCAT

    And I do have one piece of good news for Congressman Klein. 
A number of us, including Chairman Lampson, Rep. Melancon, and 
myself, met with the Admiral, met with the NASA Administrator, 
Mr. Griffin. Specifically about this satellite issue, and, 
because we were concerned that there was no plan. And I can't 
speak for the other two gentlemen, but I can speak for myself. 
I am not satisfied that it has taken this long to come up with 
a decision as to what has to go up, but I think we are all, at 
least I was satisfied, that at least there is a plan to, and I 
guess by January, they are supposed to get back us, Mr. 
Chairman. They are supposed to get back to NOAA and NASA and 
everybody else as to what exactly is the right satellite that 
has to go up, in order to make sure that we have not only 
QuikSCAT but actually, a much better version of it.
    So, and by the way, I think Mr. Proenza has got to be given 
a lot of credit for bringing up this issue, whether you agree 
with him that it is less important or more important, the 
reality, however, is that now, at least, there is a plan, and I 
feel good about that. And I think that is what we, frankly, 
need to be talking about, because we keep talking about 
personnel issues, and the reality is, you know, are we going to 
have, then, the 20 plus people that don't like Mr. Proenza for 
good reasons or bad, and the 20 plus people that do like Mr. 
Proenza for good reason or bad, to come and testify as well?
    You know, we are kind of getting a little trivial here. 
Those are important issues. I think we need to get into the 
science, and when we get into the science, I think there are 
much better questions to ask, and I wish we would kind of focus 
on that.
    Thank you, Mr. Chairman.
    Mr. Proenza. Thank you, Congressman.
    Chairman Lampson. Thank you, Mr. Diaz-Balart. I recognize 
Mr. Klein.
    Mr. Klein. Thank you, Mr. Chairman.
    And listen, there is a reason, in my view, for Congress to 
have oversight, and make sure there is accountability in our 
systems, and sometimes, appointments are good, and sometimes, 
they are not. We all don't like, the public doesn't like cover-
ups. The public does like when someone is straightforward and 
open and honest, and brings something forward.
    You know, what happens from this point on is going to play 
itself out, but most importantly, what I appreciate is Mr. 
Proenza's bringing this issue forward. And I can't address what 
happened inside the office there, but I really believe that 
this Congress today, and the meetings that you have had, and 
the meetings I have had with the Air Force Reserve and with the 
NOAA representatives, and forcing people to come forward, and 
say what is plan B, because America wants to know what plan B 
is.
    If QuikSCAT goes down, and it is even 10 percent of the 
information that is provided for hurricane forecasting, that is 
real information. And Mr. Ehlers said it correctly, scientists 
want to know that they have got everything on the table to 
figure that out.
    I will tell you also, I participated in the Senate hearing 
on QuikSCAT about a couple weeks ago, that Senator Nelson and 
others participated in, and another fact that we haven't even 
brought up today, is there is no question whatsoever that 
QuikSCAT has everything to do with marine forecasting. Nobody 
has even questioned that. So, if you have got large vessels, 
small vessels, anywhere around the world, the fact that, you 
know, the service that gets this information, QuikSCAT, is 
providing valuable information to our shipping, our 
recreational, all the safety factors that go into commerce and 
safety of individuals on the water, QuikSCAT has a big role. 
So, even if people are questioning whether it has the same 
level of impact on landfall, there is no question that on the 
marine side, it does have a big impact.
    So, there is a reason to have this conversation. There is 
definitely a reason to make sure that our colleagues at NOAA 
and the National Hurricane Center have the tools, that they are 
doing whatever they can do to make sure that we are properly 
protected, and I do give credit for this conversation coming 
forward to this point, and that we stay on top of this, as has 
been suggested by all the Members of this committee, to make 
sure that we understand the total comprehensive picture on our 
weather satellites and, of course, QuikSCAT, and anything else 
that gives us this data to help best prepare Americans for any 
kind of----
    Mr. Diaz-Balart. Will the gentleman yield for a few 
seconds?
    Mr. Klein. Yes, sir.
    Mr. Diaz-Balart. Thank you. I just want to make sure that, 
because you have been in the Hurricane Center, like I have, and 
I just want to make sure that we don't scare the American 
people. I think you would agree with me that they do an 
incredible job. Obviously, we need to do everything we can in 
our power, so that they have all the technology and the 
funding, but I just want to make sure that we don't scare the 
American people, because I have heard some things here today on 
this dais. Mr. Miller, I think said something which I think was 
unfortunate. I think you would agree with me that they do a 
heck of a job, and they are really good, dedicated people that 
are good at what they do.
    Mr. Klein. Mr. Chairman, if I can respond. The answer is, 
of course. The personnel are highly qualified scientists. The 
question that we are grappling with today is making sure that 
they have all the tools necessary to get us even better.
    I think Mr. Miller's point is well taken. Can they do 
better? Can that cone get narrower? Can the prediction of the 
landfall get tighter? You bet, and we have made progress over 
time. But we can do more, and we should do more. That doesn't 
mean America should be concerned today that we don't have the 
necessary good people in place that are doing it, but this 
Congress needs to back up the National Weather Service and the 
Hurricane Center, and make sure that they have got what they 
need to best protect Americans.
    Chairman Miller. I think we are going to thank you very 
much, Mr. Proenza----
    Mr. Proenza. Thank you, Mr. Chairman.
    Chairman Miller.--for coming, and for your comments. The 
panel, I mean the Committee, Committees, for their questions 
and comments. We will take a short break, and convene our next 
panel of witnesses.
    Thank you very much.
    [Recess.]

                                Panel II

    Chairman Lampson. I call this meeting of our two 
subcommittees, Energy and Environment and Investigations and 
Oversight, back to order. Witnesses have taken their seats. I 
will introduce our panel at this time.
    Dr. Robert Atlas is the Director of the Atlantic 
Oceanographic and Meteorological Laboratory, National Oceanic 
and Atmospheric Administration. Dr. Atlas' laboratory is part 
of the Hurricane Research Division, which works with the 
Tropical Prediction Center to improve tools and techniques in 
hurricane forecasting.
    Mr. Don McKinnon is the Director of the Jones County 
Emergency Management Agency, Jones County, Mississippi. Mr. 
McKinnon addresses the weather services the National Weather 
Service provides to emergency management offices, and he also 
worked with Mr. Proenza during his service as Director of the 
Weather Service Southern Regional Office.
    Mr. Robie Robinson, Director, Dallas County Office of 
Security and Emergency Management is testifying on behalf of 
the Emergency Management Association of Texas, and he will 
discuss the service provided to the emergency management 
community in Texas by the National Weather Service, by the 
Southern Region Office during the period of Mr. Proenza's 
tenure as its Director.
    As our witnesses, again, should know, spoken testimony is 
limited to five minutes. I am going to try to keep you on that, 
so if you will pay close attention to it, please, I would 
appreciate it.
    And after which, the Members of the Committee will each 
have five minutes to ask their questions, and it is also the 
practice of the Subcommittee to take testimony under oath. Do 
you have any objections to being sworn in?
    You also have the right to be represented by counsel. Is 
anyone represented by counsel at today's hearing?
    Then, if you will please stand and raise your right hand.
    [Witnesses sworn]

     STATEMENT OF DR. ROBERT M. ATLAS, DIRECTOR, ATLANTIC 
OCEANOGRAPHIC AND METEOROLOGICAL LABORATORY, OFFICE OF OCEANIC 
  AND ATMOSPHERIC RESEARCH, NATIONAL OCEANIC AND ATMOSPHERIC 
          ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Dr. Atlas. Chairman Lampson, Chairman Miller, and Members 
of the Committee, as mentioned, I am Bob Atlas. I am the 
Director of NOAA's Atlantic Oceanographic and Meteorological 
Laboratory in Miami.
    At my laboratory, we do open ocean and coastal ocean 
research. We do research on climate, and we have as one of our 
divisions, within my laboratory, the Hurricane Research 
Division of NOAA.
    Prior to joining NOAA, I was a NASA scientist for 32 years. 
I have helped pioneer many of the satellite systems that are in 
use today, and one of them being QuikSCAT, but many others, and 
I was a member of the team that developed QuikSCAT, and am 
still a member of the team working on the future of such 
measurements.
    The QuikSCAT, as mentioned, is a NASA satellite. It is the 
third in a string of satellites that do ocean surface wind, 
direction and speed. The first satellite lasted three months. 
The second satellite lasted 10 months, and QuikSCAT has been 
there now for over seven years. It is a major success, not only 
in its longevity, but in the quality of the data that it 
produces under most atmospheric conditions, and also, in the 
amount of data that it provides.
    Its advantages are that it has higher resolution than any 
of the other datasets available. The normal resolution is 12.5 
kilometers between observations. This is twice as good as the 
European ASCAT and twice as good as any of the preceding 
satellites. And it is capable, under research conditions, or 
limited operations, to do even double that resolution, 6.5 
kilometers. It also has disadvantages. The disadvantage is that 
it does not see very well through heavy rain, so in heavy rain 
situations, especially where the wind isn't strong, it cannot 
predict wind direction accurately, and the data is not as high 
quality in heavy rain, high wind situations, such as exist 
within hurricanes.
    QuikSCAT is used for many applications. It is used in 
research of the atmosphere, ocean, and climate. It is now 
considered an essential climate monitoring dataset. It is used 
for ocean prediction, for driving ocean models, and it is used 
in both numerical weather prediction and operational 
prediction. I want to say first about operational prediction 
and the Ocean Prediction Center of NOAA, the Ocean Prediction 
Center of NOAA forecasts for ships at sea and other maritime 
interests.
    I asked forecasters at the Ocean Prediction Center if they 
are using QuikSCAT many years ago, and they said we depend upon 
it. I said how would you rate it. They said it was the most 
valuable dataset they had. I heard that from three forecasters 
of the Ocean Prediction Center, and I also heard from them that 
they believe this data is contributing to saving lives, that 
ships, some ships are not sinking in bad weather, and some 
sailors are not drowning in bad weather, because we have these 
kinds of measurements.
    For hurricane prediction, it is used directly by the 
forecasters at the Tropical Prediction Center and--slash--
National Hurricane Center, and its primary use is for tropical 
analysis. It enables them to define what we call the wind 
radii, the aerial extent of tropical storm force winds. This is 
a very useful application of the data. It also will sometimes 
show that a storm, a tropical depression, has formed. It will 
show the circulation within the winds, on occasion, before 
geostationary satellites show it in the clouds.
    So, from those two perspectives, it is an extremely 
valuable instrument, but it is only one of the tools that the 
Hurricane Center forecasters use. They have heavy reliance upon 
the reconnaissance aircraft, and upon ground-based radar, 
ships' buoys, and the numerical models. And the numerical 
models is the other use of QuikSCAT that affects hurricane 
forecasts, and in fact, forecasts everywhere on the globe.
    There are three studies defining what the impact of 
QuikSCAT is, one by the Joint Center for Satellite Data 
Assimilation,\1\ which showed a 10 percent degradation at 48 
hours, and a 16 percent degradation at 72 hours, if this data 
wasn't there. This study is a rigorous, scientifically correct 
study. It is limited in its sample size. There is a Navy study 
that has conflicting results, and the authors of that study 
have stated that it applies only to the Navy model, and in 
fact, the Navy model does not use QuikSCAT as effectively, 
because they do something, and they create what is called a 
bogus or synthetic hurricane vortex within their analysis. The 
QuikSCAT then has to compete with that data, and it is not able 
to make as much of an impact.
---------------------------------------------------------------------------
    \1\ References to the studies can be found on p. 54.
---------------------------------------------------------------------------
    To sum up, QuikSCAT is an extremely important tool. We need 
not another clone of QuikSCAT, but we need a next generation 
system that will enable us to make the improvements to 
hurricane prediction that the Nation deserves, and NOAA is 
working actively to pursue both a follow-on to QuikSCAT and has 
an effective mitigation plan now to deal with a possible demise 
of QuikSCAT.
    [The prepared statement of Dr. Atlas follows:]

                 Prepared Statement of Robert M. Atlas

Introduction

    Mr. Chairman and Members of the Committee, I am Dr. Robert Atlas, 
Director of the Atlantic Oceanographic and Meteorological Laboratory in 
the Office of Oceanic and Atmospheric Research (OAR). OAR is a line 
office of the National Oceanic and Atmospheric Administration, within 
the Department of Commerce (DOC).

NOAA's Atlantic Oceanographic and Meteorological Laboratory, Hurricane 
                    Research Division

    NOAA's Atlantic Oceanographic and Meteorological Laboratory (AOML) 
is located in Miami, Florida and specializes in hurricanes and open and 
coastal ocean research. Scientists at AOML study the relationship 
between the ocean and atmosphere by conducting research in both near-
shore and open ocean environments. This research includes the dynamics 
of the ocean, its interaction with the atmosphere, and its role in 
climate change. AOML's research improves the understanding and 
prediction of hurricane track and intensity change, and the impacts 
from wind, storm surge, waves, and rain. Key to this work is the annual 
hurricane field program supported by the NOAA Aircraft Operations 
Center research/reconnaissance aircraft. AOML scientists cooperate with 
other federal, State, and local authorities to maximize research 
expertise for use in economically and environmentally important 
projects. AOML also provides and interprets oceanographic data 
collected via ships, satellites, aircraft, drifting buoys and floats, 
and conducts research relevant to annual-to-decadal climate change, 
coastal ecosystems and hurricanes.
    Within the Hurricane Research Division (HRD) at AOML, scientists 
conduct research into hurricanes and related tropical weather 
phenomena, using theoretical studies, computer models, and an annual 
field program employing NOAA hurricane research aircraft. This research 
has resulted in a deeper, scientific understanding and in numerous 
practical applications which have improved forecasts. HRD employs 
meteorologists, computer scientists, and other professionals, who 
collaborate with other governmental and academic scientists worldwide 
in this on going effort to advanced scientific knowledge and increase 
public safety. HRD coordinates parts of its programs with other NOAA 
organizations, e.g., the Aircraft Operations Center and the National 
Centers for Environmental Prediction, in particular the Environmental 
Modeling Center and the Tropical Prediction Center/National Hurricane 
Center (NHC).

NOAA's Hurricane Forecasting

    NOAA strives to improve the reliability, accuracy, and timeliness 
of our predictions of hazardous weather, such as hurricanes, to help 
society cope with these high impact events. Over the last 15 years, 
hurricane track forecast errors have decreased by 50 percent, largely 
due to advances in hurricane modeling, an increased understanding of 
hurricane dynamics, improvements in computing and technology, and 
increased observations in both the region around the hurricane and in 
other data sparse regions. Today's five-day forecasts of a hurricane 
track are as accurate as three-day predictions were 20 years ago. 
Hurricane predictions are better today than they have ever been and 
will continue to improve in the future.
    To help guide future research efforts and improvements, NOAA 
requested that the NOAA Science Advisory Board commission a Hurricane 
Intensity Research Working Group to provide recommendations to the 
agency on the direction of hurricane intensity research. The Working 
Group transmitted its final report to the Advisory Board in October 
2006 (http://www.sab.noaa.gov/reports/reports.html). The Federal 
Coordinator for Meteorological Services and Supporting Research 
released a report in February 2007, Interagency Strategic Research Plan 
for Tropical Cyclones: The Way Ahead, to provide a strategy for 
continuing to improve the effectiveness of operational forecasts and 
warnings through strategic coordination and increased collaboration 
among the major players in the operational and R&D communities (http://
www.ofcm.gov/p36-isrtc/fcm-p36.htm). Both of these reports call for 
accelerated research investments and a deliberate focus on moving 
research results to operations. In response, NOAA has created a 
Hurricane Forecast Improvement Project Team to develop a unified 
approach to define and accelerate hurricane forecast improvements over 
the next ten years. Objectives will be focused on improved tropical 
cyclone forecasting (intensity, track, precipitation, and uncertainty 
forecasts), storm surge forecasts, flooding forecasts, and information 
and tools to support community and emergency planning.

NOAA Hurricane Observations

    Before I talk about the QuikSCAT satellite, I wanted to explain the 
systems NOAA uses to monitor hurricanes. Over the open oceans, 
continual images from our GOES satellites are the first reliable 
indicators of any storms or inclement weather. GOES provides near real-
time critical data to help our forecasters determine a storms location, 
size, intensity, and movement. These satellites are so important we 
keep a spare in orbit. As tropical systems come closer to land, 
information from NOAA and Department of Defense (DOD) aircraft and 
ocean buoys provide real time direct measurements of the storm. Within 
200 miles of the coast, ground-based radars are used to track the 
storm. Computer models used to predict storm track and intensity 
require extensive amounts of data, which are mostly provided by NOAA 
and various National Aeronautics and Space Administration (NASA), DOD 
polar satellites, and where appropriate foreign environmental 
satellites. Together these systems provide the forecasters with layers 
of information critical to helping them make their forecast.

What is QuikSCAT?

    QuikSCAT is a NASA satellite that has demonstrated the ability to 
measure ocean wind speed and direction from space with unprecedented 
coverage. QuikSCAT data is used for many applications, including 
climate monitoring, ocean research and weather prediction. It can be 
used to produce improved forecasts of hurricanes in three ways: its 
direct use by forecasters, its use as initial conditions for numerical 
weather prediction models, and its use as validation data in the 
development of advanced ``next generation'' weather prediction models. 
According to the forecasters at the National Hurricane Center, 
``QuikSCAT has become an important tool, especially for estimating the 
track, intensity and size of tropical and other strong marine storms.'' 
In most cases, however, QuikSCAT has little demonstrated impact on 
hurricane intensity forecasts. In hurricanes, winds above 75 miles per 
hour typically occur over an area that is smaller than the QuikSCAT 
measurement resolution and are usually associated with heavy rain 
events. Thus QuikSCAT usually cannot distinguish winds above 75 miles 
per hour in a hurricane due to its lower than desired resolution and 
signal attenuation in heavy rain. However, QuikSCAT can distinguish 
winds above 90 miles per hour in extra-tropical cyclones where strong 
winds exist over larger regions of the ocean surface. In addition, 
until very recently, most numerical models did not have sufficient 
resolution to represent key processes leading to rapid intensity 
changes or the ability to assimilate much of the detailed information 
contained in the QuikSCAT observations.
    QuikSCAT is well past its design life. NASA says QuikSCAT appears 
healthy and has fuel to last until 2011. It is not possible to predict 
how long QuikSCAT will continue to provide data. It could last several 
more years or cease to provide observations very quickly.
    There are three studies that address the potential degradation to 
computer hurricane forecasts that might result from the loss of 
QuikSCAT. Each of these studies has limitations that prevent definitive 
conclusions, and additional studies are needed. In my opinion, the 
preponderance of evidence from the three studies indicates that 
computer model forecasts of landfalling hurricanes, especially in the 
2-5-day time range, could be degraded if we do not mitigate the loss 
effectively. Forecasters at the NHC are able to improve upon the 
computer forecasts, so that the potential degradation can be 
diminished. This is especially true as the storms are approaching land 
in the shorter time ranges. In addition, NOAA has recently developed an 
effective mitigation plan that would make substantial use of other 
satellites as well as enhanced aircraft observations.

What are the options to replace QuikSCAT data?

    If QuikSCAT were to fail today, the NHC would still receive ocean 
wind speed and direction data from space. NOAA is now receiving data 
from a new instrument aboard a European satellite, called ASCAT--which 
has similar technology to QuikSCAT. ASCAT will not provide the same 
quality data as QuikSCAT, especially in terms of coverage and 
resolution. NOAA is rapidly developing procedures for inserting the 
data into models and using the visual display of these data in 
forecasting. We are also examining how to increase the use of our 
hurricane hunter aircraft through more flight hours and outfitting the 
planes with more advanced technologies. In addition, we are researching 
the feasibility of placing scatterometers on Unmanned Aircraft Systems.
    In June 2006, NOAA held a workshop at the National Hurricane Center 
to discuss the requirements for ocean wind speed and direction. 
Hurricane forecasters, researchers, and numerical modelers all prefer a 
next generation QuikSCAT, which they hope would be able to meet the new 
requirements. Such a satellite would be able to provide observations of 
ocean surface wind that would greatly enhance ocean surface wind 
measurements for hurricane intensity forecasting, as well as for 
weather, ocean and climate applications. In January 2007, Vice Admiral 
Lautenbacher, the head of NOAA, was briefed on the conclusions of the 
workshop and the need to replace QuikSCAT data. After receiving our 
fiscal year 2007 appropriations, NOAA initiated a study with NASA's Jet 
Propulsion Laboratory, which built the original QuikSCAT, to examine 
replacement options. Those studies are due in January 2008 and from 
these studies, we will determine the best way to provide ocean surface 
wind speed and direction to forecasters.

Details on QuikSCAT

1.  We now believe that the quality of ocean surface vector wind 
retrievals in storms at sea using any passive sensor (such as WindSat, 
or the Microwave Imager/Sounder on the National Polar-orbiting 
Operational Environmental Satellite System (NPOESS) ) will never be 
comparable to those retrieved using an active sensor such as QuikSCAT. 
NPOESS will not provide an acceptable solution for ocean surface vector 
winds retrievals, but it will provide many other types of useful data 
and imagery.

2.  QuikSCAT has provided many benefits but also has significant 
limitations. While it provides important additional data for estimating 
the intensity and size of tropical storms and other strong marine 
storms, it cannot be used for measuring the intensity of most 
hurricanes.

3.  Data from any non-satellite platform could never replicate the 
coverage provided by a satellite. Therefore, no non-satellite option 
exists to replace QuikSCAT for wide-area measurements of ocean surface 
vector winds. Satellites are complementary to other data sources, such 
as aircraft and buoys, which have their own strengths and limitations. 
Satellites, aircraft, and surface-based observations are all critical 
components of the Nation's weather monitoring and forecasting 
enterprise.

4.  Data from the European ASCAT satellite instrument are just now 
becoming available to National Weather Service (NWS) forecasters. ASCAT 
is not a replacement for QuikSCAT, since it provides only about 60 
percent of the coverage and only about half the resolution of QuikSCAT. 
It will, however, provide partial mitigation against the eventual loss 
of QuikSCAT, and it will be fully evaluated for maximum possible use by 
NWS operational forecasters and models.

5.  Since even QuikSCAT data do not meet NOAA operational requirements 
for ocean surface vector winds, serious consideration should be given 
to a sustained, more capable, next-generation satellite program for 
ocean surface vector winds using already existing technologies. A next-
generation capability is needed to more accurately measure the strength 
and size of hurricanes and other intense marine storms, since aircraft 
data are not always available and only cover a small portion of the 
storm circulation. Such a capability would enhance operational NWS 
forecasts of many weather systems for the United States, and it would 
benefit research on the intensity of hurricanes and other marine storms 
that occur worldwide.

6.  NOAA and NASA are working together during the next several months 
to examine the costs and benefits of options for what kind of satellite 
should replace QuikSCAT: a QuikSCAT copy, or a next-generation sensor. 
NOAA and NASA engineers will work directly with NWS operational 
forecasters during this study to provide recommendations by early 2008 
on next steps for an ocean surface vector winds mission to replace 
QuikSCAT.

7.  Track forecasts for landfalling storms have the added benefit of 
the national and international rawinsonde network (sensors to obtain 
detailed atmospheric profiles of wind, temperature, and dewpoint 
information), and from aircraft reconnaissance flights into and around 
the approaching hurricane. With these data, if QuikSCAT would fail, the 
impact on the track forecasts of hurricanes as they approach land would 
on average be smaller than for forecasts for storms in the open ocean. 
Studies on landfalling storms are insufficient to quantify the impacts. 
However, available experiments show that observations far away from the 
location of hurricanes can have a significant impact on model track 
forecasts. As such, NOAA's mitigation plan will attempt to minimize any 
degradation that might otherwise occur.

Current Research Studies of QuikSCAT in Models

    Studies have shown either negligible or slightly positive impacts 
of QuikSCAT observations on track. The major drawback of these studies 
is the small number of cases examined. A more systematic study using 
cases from a number of seasons should be performed to clarify the 
impact. To date there are no studies of the impact of QuikSCAT data on 
tropical cyclone intensity forecasts. The main problem is that until 
this season models that forecast tropical cyclone intensity relied only 
upon coarse resolution global data assimilation system for their 
initial conditions. The impact on intensity must be tested in the 
future using very high resolution global and regional models, where 
inner core observations can be assimilated.
    One study using the NOAA global data assimilation system and global 
forecast system tested the impact of QuikSCAT on track forecasts from 
two months of Atlantic storms in 2003 (Zapotocny et al., 2007). The 
study, conducted at the NOAA/NASA/DOD Joint Center for Satellite Data 
Assimilation, examined storms in August-September 2003 and showed that 
a degradation in the 48 hour track forecasts of 10 percent and in the 
72 hour track forecast of 16 percent when QuikSCAT was removed. A 
drawback of this study was the number of cases (only 25 cases at 48 
hours and 19 cases at 72 hours). Nevertheless, this study provides the 
best available estimate of the degradation of model track forecasts 
that might result from a QuikSCAT failure.
    A second study used the Navy Operational Global Atmospheric 
Prediction System and data assimilation system from two months in the 
2004 Atlantic hurricane season (Goerss and Hogan, 2006). This study, 
using 8-10 times as many cases as the previous one, found little 
significant improvement in the track forecasts due to the inclusion of 
QuikSCAT observations of ocean surface vector winds beyond that at 24 
hours, which showed a three percent improvement (two percent 
improvement at 48 hours, and slight degradation at 72-120 hours. In my 
opinion, the impact of QuikSCAT data in this experiment was limited by 
the way in which the data was assimilated, and the results should apply 
only the Navy model used in the experiment.
    A third study by NASA and NOAA (Atlas et al., 2005) using the NCEP 
forecast system for two months of forecasts in 1999 showed a meaningful 
positive impact of QuikSCAT. In one case (Hurricane Cindy, 1999) the 
60-hour forecast intensity and location with QuikSCAT observations of 
ocean surface vector winds was more accurate than the 24-hour forecast 
without them. This study should be considered in the context of two 
decades of numerical experiments with NASA models that have 
consistently shown improved predictions of storms over the oceans 
(Atlas et al., 2001).
    In summary, QuikSCAT provides vital data for a variety of important 
applications, including weather prediction for ships at sea, hurricane 
forecasting, atmospheric and oceanic research, and climate monitoring. 
NOAA has developed an effective mitigation plan that should reduce the 
impact of a QuikSCAT failure on hurricane forecasting while working 
with NASA to evaluate an advanced replacement for QuikSCAT.

LITERATURE CITED

Atlas, R., R.N. Hoffman, S.M. Leidner, J. Sienkiewicz, T.-W. Yu, S.C. 
        Bloom, E. Brin, J. Ardizzone, J. Terry, D. Bungato, and J.C. 
        Jusem, (2001) The effects of marine winds from scatterometer 
        data on weather analysis and forecasting. Bulletin of the 
        American Meteorological Society. 82(9):1965-1990.

Atlas, Robert, Arthur Y. Hou and Oreste Reale. (2005) Application of 
        SeaWinds scatterometer and TMI-SSM/I rain rates to hurricane 
        analysis and forecasting. ISPRS Journal of Photogrammetry and 
        Remote Sensing. 59(4):233-243.

Goerss, J. and T. Hogan. (2006) Impact of satellite observations and 
        forecast model improvements on tropical cyclone track 
        forecasts. 27th AMS Conference on Hurricanes and Tropical 
        Meteorology, Paper P5.2, available online from http://
        ams.confex.com/ams/27Hurricanes/techprogram/paper107291

Zapotocny, T.H., J.A. Jung, J.F. LeMarshall, and R.E. Treadon. (2007) A 
        Two Season Impact Study of Four Satellite Data Types and 
        Rawinsonde Data in the NCEP Global Data Assimilation System. 
        Submitted for publication in Weather and Forecasting (available 
        upon request from James Jung, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f8b29195d6b28d969fb896979999d69f978e">[email&#160;protected]</a>)

                     Biography for Robert M. Atlas

    Dr. Robert Atlas is the former Chief Meteorologist at NASA's 
Goddard Space Flight Center (GSFC), and is currently the Director of 
the National Oceanic and Atmospheric Administration's (NOAA) Atlantic 
Oceanographic and Meteorological Laboratory in Miami, Fla. Some of the 
areas he focuses his current research on include the prediction, 
movement and strengthening of hurricanes. Atlas has worked with both 
satellite data and computer models as a means to study these hurricane 
behaviors. He is also recognized world-wide as an expert on satellite 
surface wind data and performed the original research that demonstrated 
the use of these data to improve weather prediction.
    Robert Atlas received his Ph.D. in Meteorology and Oceanography in 
1976 from New York University. Prior to receiving the doctorate, he was 
a weather forecaster in the U.S. Air Force where he maintained greater 
than 95 percent forecast accuracy. He was also a summer intern at the 
National Center for Atmospheric Research (NCAR) and an instructor of 
physics for the State University of New York (SUNY).
    From 1976 to 1978, Dr. Atlas was a National Research Council 
Research Associate at NASA's Goddard Institute for Space Studies, New 
York, an Assistant Professor of Atmospheric and Oceanic Science for 
SUNY and Chief Consulting Meteorologist for the ABC television network.
    In 1978, Dr. Atlas joined NASA as a research scientist. He served 
as head of the NASA Data Assimilation Office from 1998-2003, and as 
Chief meteorologist at NASA GSFC from 2003-2005. During this time, he 
was also an Adjunct Professor of meteorology, teaching weather 
prediction to both experienced and inexperienced weather forecasters.
    Dr. Atlas has performed research to assess and improve the impact 
of satellite temperature sounding and wind data since 1973. He was the 
first person to demonstrate the beneficial impact of quantitative 
satellite data on weather prediction, for both satellite temperature 
soundings and satellite surface winds.
    He served as a member of the Satellite Surface Stress Working 
Group, the NASA Scatterometer (NSCAT) Science Team, the ERS Science 
Team, the SeaWinds Satellite Team and the Working Group for Space-based 
Laser Winds. He is also a member of the Scientific Steering Group for 
GEWEX (the Global Energy and Water Cycle Experiment), Chairman of the 
U.S. World Ocean Circulation Experiment (WOCE) Advisory Group for 
model-based air-sea fluxes, and is a past member of the Council of the 
American Meteorological Society.
    From 1974-1976, he developed a global upper-ocean model and studied 
oceanic response to atmospheric wind forcing as well as large-scale 
atmospheric response to sea surface temperature (SST) anomalies 
(unusual events). In more recent years, his research concentrated on 
the role of how the air and sea interacts in the development of 
cyclones, the role of soil moisture and unusual SST events in the 
initiation, maintenance and decay of prolonged heat waves and drought, 
and most recently on the modeling and prediction of hurricane 
formation, movement and intensification.
    Atlas was one of the principal investigators of a new hurricane 
computer model called the ``Finite Volume General Circulation Model'' 
(fvGCM), being run at NASA's GSFC and Ames Research Center, Moffitt 
Field, Calif. The model provides a more realistic representation of 
hurricanes and their behaviors, which is enhancing the state of 
hurricane forecasting.

    Chairman Lampson. Thank you, Dr. Atlas. Mr. McKinnon, 
please proceed for five minutes.

  STATEMENT OF MR. DONALD L. MCKINNON, DIRECTOR, JONES COUNTY 
        EMERGENCY MANAGEMENT AGENCY, LAUREL, MISSISSIPPI

    Mr. McKinnon. Chairman Lampson, Chairman Miller, Ranking 
Member Inglis, and Ranking Member Sensenbrenner, and 
distinguished Members of the Subcommittees, thank you for the 
opportunity to come before you today to provide testimony 
regarding the service provided by the National Weather 
Service's Southern Region during Mr. Proenza's tenure.
    I am Don McKinnon, Director of the Jones County Emergency 
Management Agency in Laurel, Mississippi. I am representing the 
Mississippi Civil Defense and Emergency Management Association, 
which has 300 members across all 82 counties of the State of 
Mississippi. I have worked in the Emergency Management Agency 
in Jones County for 26 years. I have been the Director since 
2001.
    Current, accurate, and timely weather information plays a 
significant role in all weather events, as well as other 
incidents. The accessibility and the willingness of the 
National Weather Service to help emergency management are 
critical in our incident action plans, as we prepare for and 
respond to these incidents.
    Over the past six years, I have had the opportunity to work 
with the Southern Region Director, Mr. Bill Proenza, on many 
occasions. At conferences and other meetings, Mr. Proenza would 
always solicit comments from the emergency managers, and took 
their concerns to heart. Mr. Proenza convinced me that the 
National Weather Service could be more than a reactive weather 
source, and could, in fact, be a proactive weather resource in 
the emergency management community.
    Mr. Proenza encouraged the local weather offices to involve 
emergency managers in their outreach activities. He fostered an 
environment within the Southern Region that allowed his 
personnel to work with and meet the needs of the customers that 
they served. Mississippi emergency managers could give you many 
examples of how Mr. Proenza made a difference in their ability 
to protect their citizens. I have listed a few in my written 
statement.
    The Warning Coordinating Meteorologist in San Angelo, Texas 
came up with the Turn Around, Don't Drown Program. Mr. Proenza 
recognized the benefit the program could have on saving lives, 
and brought the program to the emergency management community. 
Once he sold the emergency managers on the program, he promoted 
it across the United States. The National Weather Service 
office in Jackson, Mississippi partnered with the Mississippi 
Civil Defense and Emergency Management Association to develop 
an eight-hour training course geared toward the emergency 
management community that included the National Weather Service 
offices in Slidell, Louisiana, Memphis, Tennessee, and Mobile, 
Alabama. Now, the training is offered annually and available to 
emergency management and the media.
    Without Mr. Proenza to institute changes and growth in the 
Southern Region, we may not have had the Radar Integrated 
Display and Geospatial Elements, or RIDGE System, which 
provides area-specific warning information in the form of 
graphic polygons and text messages. This allows emergency 
management to focus on specific areas of the county, and makes 
our decision-making process much quicker and more reliable. 
Now, we do not have to make broad advisories, but we can focus 
on a specified area. Mr. Proenza recognized our need, and 
worked with his staff to get us a better tool. The end result 
is saving lives and property.
    Many counties in the State were plagued by inefficient 
coverage by the National Weather Service Doppler radar system. 
Simply stated, it did not cover the counties the way it was 
designed to, due to elevation and geographical location. Mr. 
Proenza was aware of this problem, and worked constantly to 
correct it. Thanks to his support and tenacity in getting the 
radar moved, we now have a more reliable Doppler radar covering 
our counties.
    Recently, NOAA was considering the concept of operations, 
which would have resulted in lowering National Weather Service 
field office staffing and hours of operation of some field 
offices. Mr. Proenza defended the much-needed local presence of 
full-time service, and stood with local emergency managers to 
question this dangerous concept. We are concerned that Mr. 
Proenza's defending the interests of the public safety and the 
emergency management community may have brought retribution on 
him.
    Mr. Proenza is a dedicated servant of the American people. 
If you are uncomfortable with straight, honest, truthful 
answers to the hard questions, then don't ask Mr. Proenza the 
question, because that is what you are going to get, the truth.
    When I learned that Mr. Proenza had been appointed the 
Director of the National Hurricane Center, I was extremely 
happy, and at the same time, I was sorry to see him leave 
managing the Southern Region. We hoped he would have the 
opportunity to bring the same innovative approaches to the 
National Hurricane Center that we came to expect when he 
managed the Southern Region.
    Mr. Proenza is an advocate for the people he serves, and 
when he encounters problems, he faces them head-on. If it is 
broken, he wants it repaired. If it is working correctly, he 
wants it improved. In my dealings with Mr. Proenza, he has 
never been one to sit back and watch things happen. He has 
always been on the forefront making things happen. Sadly, it 
seems that he made the mistake of trying to improve the 
National Hurricane Center.
    Thank you for the opportunity to appear today, and I will 
be glad to answer any questions.
    [The prepared statement of Mr. McKinnon follows:]

                Prepared Statement of Donald L. McKinnon

    Chairman Lampson, Chairman Miller, Ranking Member Inglis, Ranking 
Member Sensenbrenner, and distinguished Members of the Subcommittees, I 
thank you for the opportunity to come before you today to provide 
testimony regarding the service provided by the National Weather 
Service's Southern Regional Office during Mr. Bill Proenza's tenure.
    I am Don McKinnon, Director of the Jones County Emergency 
Management Agency, Laurel, Mississippi. I am representing the 
Mississippi Civil Defense and Emergency Management Association 
(MCDEMA), which has 300 members from all 82 counties in Mississippi. 
Since 2000 the State of Mississippi has had 11 Presidential Disaster 
Declarations, nine Small Business Administration (SBA) Disaster 
Declarations and 19 Governor State of Emergencies. I have worked in the 
emergency management agency in Jones County for approximately 26 years. 
I have been the Director since 2001. Emergency Management is a 
coordinating agency responsible for maintaining emergency plans, 
preparedness, response, disaster exercises, recovery, and mitigation 
projects. We work with all public safety agencies, local, State, and 
federal, as well as volunteer and non-emergency agencies. One of our 
primary missions is to prepare for and respond to weather-related 
events. We in Jones County are no strangers to tornadoes, floods and 
hurricanes. I am responsible for responding to all of them. We also 
have incidents that are not caused by weather that we rely on the 
National Weather Service (NWS) to assist us with. For example, chemical 
spills, hazardous shipment accidents, bridge collapse, fire, search and 
rescue, etc. Current, accurate, and timely weather information plays a 
significant role in each of these incidents. The accessibility and the 
willingness of the NWS to help emergency management are critical in our 
Incident Action Plans as we prepare for and respond to these incidents.
    Jones County, Mississippi, is located approximately 100 miles 
inland from the Mississippi Gulf Coast. When Hurricane Katrina slammed 
into Mississippi on August 29, 2005, we suffered everything the Gulf 
Coast suffered except the storm surge. We had 130 + mph sustained winds 
with gusts much greater. We had 250 homes destroyed, 650 homes with 
major damage and several thousand homes with minor damage. We suffered 
seven Hurricane Katrina-related deaths. Remember we are 100 miles 
inland from the coast.
    Over the past six years in my tenure as the Emergency Management 
Director I have had the opportunity to work with the Southeastern 
Regional Director of the National Weather Service Mr. Bill Proenza on 
many occasions. I first met Mr. Proenza at a Mississippi Civil Defense 
Emergency Management Association conference. Mr. Proenza was speaking 
to the conference attendees on the importance of the National Weather 
Service and the Emergency Management Community working together to 
achieve more success in warning our citizens of impending weather 
events. Mr. Proenza was passionate about his topic and would later meet 
with conference attendees to network individually and continue his 
discussion. Mr. Proenza would always solicit comments from the local 
emergency managers and took their concerns to heart. Mr. Proenza 
convinced me that the NWS could be more than a reactive weather source 
and could, in fact, serve as a proactive weather resource working with 
the emergency management community.
    Not only did Mr. Proenza come to us, he asked us to come to him. 
Mr. Proenza encouraged the local weather offices to involve emergency 
management in their outreach activities. The National Weather Service 
Office in Jackson, Mississippi, partnered with the Mississippi Civil 
Defense Emergency Management Association to develop an eight hour 
training course geared toward the emergency management community and 
the interaction with the NWS. Then the NWS offices from Slidell, LA, 
Memphis, TN, and Mobile, AL were invited to attend so the emergency 
management customers they serve could interact with them. Some of the 
topics included understanding the Doppler Radar, understanding the 
products produced and offered by the NWS and tracking specific events 
that had occurred. Now the training is offered annually and available 
to emergency management and the media. Mr. Proenza recognized that 
there are, aside from the general public, two core customers, emergency 
management and the media, that needed personal and daily interaction 
with the National Weather Service. He fostered an environment within 
the Southeastern Regional NWS that allowed his personnel to work with 
and meet the needs of the customers they served.
    Mr. Proenza was deeply involved in the development of the NWS 
Southern Region program ``Turn Around, Don't Drown.'' Flooding is the 
number one cause of drowning deaths in the United States. Realizing 
that the National Weather Service could do more to educate the public 
on what they should and should not do during a flood Mr. Proenza 
solicited information from the NWS Offices in his region. The Warning 
Coordination Meteorologist in San Angelo, TX came up with the ``Turn 
Around, Don't Drown'' theme. Mr. Proenza recognized the benefit the 
program could have on saving lives and brought the program to the 
emergency management community. Once he sold the EMs on the program he 
promoted the program across the United States. The next time you hear 
that slogan, remember where it came from. Without Mr. Proenza we would 
not have it.
    Not one to just continue a practice because ``that is the way we 
have always done it,'' Mr. Proenza encouraged the NWS Southern Region 
Headquarters Staff to develop a computer program that would give a 
graphic display of severe weather information on the NWS Radar sites on 
the Internet. Users could already see the weather cells or lines moving 
into their areas but when a watch or warning was issued that 
information was not visible on the Internet site. Mr. Proenza knew that 
emergency management and the public needed more and that's what he gave 
them. Now when a flood, storm or tornado watch or warning is issued 
they get a graphic box showing the area affected simultaneously with 
the weather on the NWS Radar page of the Internet. Not only do you get 
visual representation, if you click on a county/parish in the box you 
get the text message associated with the watch or warning. You will 
know the program as Radar Integrated Display with Geospatial Elements 
or RIDGE. Without Mr. Proenza to institute changes and growth in the 
NWS Southern Region we may not have the RIDGE System. What we had, 
worked. Mr. Proenza knew that it could work better and provide more 
useful information to a public who needed it. That's what we have 
because Mr. Proenza would accept no less.
    Mr. Proenza was contacted in 2004 by a local emergency management 
director in a small rural county about a problem with the NOAA weather 
radio system in their area. This is a county with a population of 
approximately 22,000 people. Mr. Proenza met with the local officials 
and listened as they explained their concerns. Mr. Proenza then went to 
work for them. In late 2005 the county received equipment to replace 
the defunct system. The County now has a working NOAA weather radio 
system and the citizens of Carthage, Mississippi, can rest easier 
knowing that they will get timely weather information that may save 
their lives. I later learned that Mr. Proenza had repeated this process 
in several other counties in Mississippi. Not only did he follow 
through with the equipment that he promised, he personally followed up 
on the resolution of the problems to ensure that the systems were 
performing as they should and nothing else was needed. Mr. Proenza was 
instrumental in making these systems functional.
    Problems are plentiful in the emergency management business. Mr. 
Proenza is not afraid to face these problems with us when they concern 
the National Weather Service. Jones County as well as many other 
counties in the state was plagued by inefficient coverage by the new 
(1993) NWS Jackson Doppler Radar system. Simply stated, it did not 
cover my county the way it was designed to. In defense of the NWS it 
was designed to give full coverage to the NWS Jackson coverage area of 
which my county is a part. But when construction was started on the 
site, the Federal Aviation Administration notified the NWS Jackson 
office that the tower housing the radar would have to be lowered by 10 
meters (30 feet) because of the proximity to the Jackson International 
Airport. Having no alternative site the construction had to proceed. 
From day one the radar coverage was degraded by approximately 50 
percent in the eastern part of the state. This was because of a terrain 
issue. What did this mean to the radar coverage? It meant that the 
forecasters could not accurately monitor rain data and wind data below 
six to eight thousand feet. Unless a storm was well above six to eight 
thousand feet then the forecasters could possibly miss it, as was the 
case in November of 2001 in Jones County. A small tornado touched down 
in west Jones County at approximately 7:20 P.M. and destroyed several 
homes. The West Jones High School and Middle School received major 
damage. NWS officials came to Jones County the next day and explained 
that they simply did not see the storm. Mr. Proenza was aware of the 
Doppler Radar problem and was working to correct it. He kept me 
updated. The emergency management community wrote many letters of 
support in this push to get the radar moved to a more suitable 
location. Finally the radar was moved in 2002 to a site in Rankin 
County, Mississippi, approximately seven miles from the original site. 
Coverage has improved tremendously and we have not had any 
``surprises'' since the move. Without Mr. Proenza's support and 
tenacity we may not have achieved the move. He made it happen and my 
citizens are safer because of it.
    Mr. Proenza asked for my input on an issue concerning the National 
Weather Service name and logo a number of years ago. NOAA wanted to 
change the name and the logo of the National Weather Service to the 
NOAA Weather Service. This came as a surprise to me and quite honestly 
I was baffled by the proposed change. The NWS is a national brand name. 
It is trusted and credible with a history going back over 130 years. 
The logo represents quality and knowledge in the weather service. To 
change the name for no more reason than to just change the name doesn't 
make sense to me. I understand that this is still an issue.
    More recently Mr. Proenza asked me to represent the emergency 
management community in the interview process to replace the retiring 
NWS Jackson Warning Coordination Meteorologist (WCM). I had worked with 
the outgoing WCM for many years and had grown to trust and respect his 
opinion. Finding a suitable replacement was going to be a challenge. We 
found a very capable applicant. Before the applicant was approved for 
the position Mr. Proenza called me to make sure I was comfortable with 
the applicant and that this person would be a good fit in our emergency 
management programs. I am happy to report that the new WCM has been 
well received by emergency management and has brought with him many new 
and useful ideas. Mr. Proenza did not have to include the emergency 
management community in this process. However, he recognized the 
importance of this position to emergency management and took the step 
to include us in selecting the person we would be working so closely 
with.
    Recently NOAA was considering a ``concept of operations'' which 
would have resulted in lowering NWS field office staffing and hours of 
operation of some field offices. Mr. Proenza defended the much-needed 
local presence of full time service and stood with local emergency 
managers to question this dangerous concept. I know my meteorologists 
and they know me. They know where Jones County is and what the terrain 
is like here. We work together to inform and protect the public. The 
meteorologists in NWS Jackson, Mississippi, treat Jones County as more 
than a statistical spot on a map. We were grateful that as a result of 
questions raised by Congress and particularly this committee that 
proposal is on hold. We are concerned that Mr. Proenza's defending the 
interests of public safety and the emergency management community may 
have brought retribution on him.
    Mr. Proenza is a dedicated servant of the American people. If you 
are uncomfortable with straight, honest, truthful answers to the hard 
questions then don't ask Mr. Proenza the question. Because that's what 
you are going to get, the truth. Mr. Proenza has always been accessible 
and approachable. He really cares about the public he represents. When 
I learned that Mr. Proenza had been appointed the Director of the 
National Hurricane Center I was extremely happy and at the same time I 
was sorry to see him leave managing the Southern Regional Office of the 
NWS. However, The NHC is a vital part of Mississippi's emergency 
management program. The information provided to me and the State of 
Mississippi from the NHC in times of emergency is critical in the 
decision-making process of my Emergency Operations Center.
    Mr. Proenza is an advocate for the people he serves and when he 
encounters problems he faces them head on. If it is broken, he wants it 
repaired. If it is working correctly, he wants it improved. In my 
dealings with Mr. Proenza he has never been one to sit back and watch 
things happen. He is on the forefront making things happen. Sadly it 
seems that he made the mistake of trying to improve the National 
Hurricane Center.
    It has been an honor and a pleasure to come to our Capitol to meet 
with distinguished leaders of our nation's Congress and present this 
testimony on behalf of Mr. Proenza's leadership at the NWS Southern 
Regional Office. I will be happy to answer any questions you may have.

                    Biography for Donald L. McKinnon

    Donald L. McKinnon currently serves as the Director of the Jones 
County Emergency Management Agency and Office of Homeland Security in 
Laurel, Jones County, Mississippi. Don has held this position since 
2001. Jones County consists of approximately 702 square miles with four 
municipalities and a combined population of approximately of 68,000 
people. Jones County is located 100 miles inland from the Mississippi 
Gulf Coast. Prior to becoming Director Don served in various positions 
within the Emergency Management Agency to include: Search and Rescue 
Coordinator; Storm Spotter; Administrative Officer; and Operations 
Officer.
    Don is responsible for the Jones County Emergency Operations 
Center; the Office of Homeland Security; the 911 Office; the 
Communications Dispatch Center; the 800 Megahertz Trunked Public Safety 
Radio System; the Public Safety Paging System; two 911 Tower Sites; and 
the Communications Technical Services Staff.
    From 1972 until 1978 Don served in the United States Marines Corps. 
Don held the rank of Staff Sergeant with a Secret Security clearance 
and was assigned communications duties. During his service Don spent 
two terms of duty in Okinawa, Japan where he was the Communications 
Center Supervisor for the 1st Marine Air Wing. Don was later assigned 
to the Marine Corps Development and Education Command (MCDEC) in 
Quantico, VA where he was a communications center shift supervisor.
    Don moved to Laurel, Mississippi in 1979 and took a position with 
Northern Electric Company as a computer programmer/software analyst.
    Don began his service with the Jones County Emergency Management 
Agency in 1980. It was during this time that Don volunteered to serve 
the emergency management agency as a dive rescue team member. Don 
organized and directed the Dive Team from 1980 until 2000. Don also 
served as the Jones County Volunteer Fire Coordinator during this time.
    He is the past President and founding member of the Mississippi 
Chapter of the National Emergency Number Association (911); active 
member of the Associated Public Safety Communications Officers 
International (APCO); active member of the Mississippi Civil Defense 
and Emergency Management Association (MCDEMA); former Board Member of 
the MCDEMA; Chairman for Communications and Technology committee of 
MCDEMA; and active member of the International Association of Emergency 
Managers (IAEM).

    Chairman Lampson. Thank you, Mr. McKinnon. Mr. Robinson, 
you are recognized for five minutes.

STATEMENT OF MR. ROBIE ROBINSON, DIRECTOR, DALLAS COUNTY OFFICE 
              OF SECURITY AND EMERGENCY MANAGEMENT

    Mr. Robinson. Chairman Lampson, Chairman Miller, Ranking 
Member Inglis, Members, thank you very much for inviting me; 
again, Robie Robinson, Director of Security and Emergency 
Management, Dallas County. Today, I am speaking on behalf of 
the Emergency Managers' Association of Texas.
    As you know, every state in the Nation is at risk to 
disasters, and Texas is no exception. Disaster situations occur 
in our state practically every day. From '89 to 2000, floods 
and flash floods caused 35 percent of the weather-related 
deaths in Texas. They are followed in order by tornadoes, 
lightning, winter storms, extreme heat, severe thunderstorms, 
and finally, hurricanes and tropical storms.
    As I was preparing this testimony, Texas had 61 counties 
with declared disasters going on. We also know that a 
proactive, robust emergency management program can reduce risk, 
property loss, and even death. A critical component of local 
emergency management programs is timely, accurate weather data 
that we can understand.
    Bill Proenza has always been an active supporter of local 
emergency managers. During his tenure as the Southern Director, 
Bill ensured that the local emergency managers had ready access 
to weather information. He ensured that his folks took the time 
to understand our weather information needs. He ensured that 
they were available during weather events to answer our 
questions and provide forecasts. He also ensured that they 
worked closely with storm spotters and volunteer weather 
monitors to improve forecast models. Bill encouraged his staff 
to conduct training classes, teach local emergency managers one 
on one, and give presentations at local events and conferences.
    Support for local emergency managers was evident in my 
first emergency management position in Fisher County, Texas. I 
had only been the volunteer EMC for ten days when a tornado 
struck the largest town in our community. It was not a large 
tornado, but it was not a large town, either, and the warnings 
given by the National Weather Service and the follow-up concern 
that they displayed were incredible.
    It changed the relationship from Service and County to 
Robie Robinson and Buddy McIntyre, who worked at the San Angelo 
office of the National Weather Service. I went on to learn a 
lot more about weather from Buddy, and he hosted the first 
disaster exercise that I ever participated in as an emergency 
manager. Now, if I had never moved from rural West Texas, I 
would have chalked that one up to small town hospitality, but 
now, I am in the ninth largest county in the Nation, and the 
relationship that I have with the people there, Bill and Gary, 
is the same as it was back in West Texas. It is clear to me 
that the commitment of the National Weather Service personnel 
that I have worked with is a reflection of the leadership that 
they had coming down from the regional level.
    Thanks to Bill's leadership, we now have a wealth of 
weather data available in our emergency operation centers that 
we did not have 10 years ago. That data increases the time 
available for emergency managers and elected officials to 
consider alternative courses of action, and choose the 
appropriate action to take.
    Now, some people say that weather has changed, but the 
weather hasn't changed. It is the same thing it was when I was 
Isaac Cline was watching the clouds over Galveston before the 
1900 hurricane that is still the deadliest disaster ever to 
have struck on U.S. soil, but there are differences in us. 
There are different things that we do. We have more citizens in 
buildings, more densely populated cities, more people who don't 
rely on their own eyes and wives' tales, they rely, instead, on 
reliable forecasts, to safeguard their families and their 
businesses.
    Thanks to Bill's leadership, we have a National Weather 
Service office in our area with a staff of professionals who 
keep us informed and answer our questions any time, day or 
night. Local emergency managers used to only get weather 
warnings and watches information by NOAA Weather Radio, phone, 
or fax. Now, we get them by Internet, e-mail, and pagers, as 
well as those other options. National Weather Service personnel 
listened to our needs and met them.
    Bill actively pushed for the Warning Coordinating 
Meteorologist Program to support local emergency managers. The 
National Weather Service has also built, during his tenure, 
valuable partnerships. Just a couple of years ago, in 
Galveston, the National Weather Service opened a joint office 
with the Galveston County Emergency Management Agency. This is 
an innovative, forward-thinking partnership. Now, we all claim 
that we want to work together in our respective fields, but how 
many of us voluntarily go in to share offices on a day to day 
regular basis?
    Jack Colley is the State Director of Emergency Management 
in Texas, and he couldn't be here today, but he asked me to 
say: ``We could not operate without the National Weather 
Service. They are a key partner in our state, and Bill is an 
innovator and an advocate for serving the needs of the locals, 
so that we can protect the people who rely on us.''
    My county is currently building a new Emergency Operations 
Center to help keep our citizens safe. I hope that the National 
Weather Service will continue to look toward the future as we 
are, and bring new tools and new products to the table. I hope 
that they continue the personal contact with emergency managers 
surrounding their regional offices. I hope their funding will 
be maintained at a level that we won't ever question their 
ability to serve the emergency management community and protect 
our people. I hope I can see and rely on the same enthusiasm 
and commitment from the National Weather Service during the 
last half of my career that I have witnessed during the first 
half.
    In closing, I hope the National Weather Service will 
continue the partnerships, energy, and knowledge and innovation 
that Bill Proenza fostered. I hope the information sharing will 
continue to us at the local level, as we are the conduits 
through which their warnings and watches are delivered to the 
moms and the dads and the sisters and brothers whose actual 
literal lives depend on that information.
    Members of the Subcommittees, forecasting the weather 
requires courage, because human beings don't control the 
weather. But I hope the leadership of NOAA and the National 
Weather Service do not move in this new century by squelching 
the courage of their people to speak out when they feel it is 
important.
    Thank you.
    [The prepared statement of Mr. Robinson follows:]

                  Prepared Statement of Robie Robinson

    Chairman Lampson, Chairman Miller, Ranking Member Inglis, and 
Ranking Member Sensenbrenner and Subcommittee Members, thank you for 
inviting me to speak to you this morning. My name is Robie Robinson. I 
am the Director of Security and Emergency Management for Dallas County, 
Texas, and I am here to speak on behalf of the Emergency Managers' 
Association of Texas.
    As you know, every state across the Nation is at risk to some form 
of disaster. Texas is no exception. Our state is vulnerable to multiple 
forms of disaster situations--whether they are triggered by an act of 
nature, an accident, or man-made. We know from historical data that 
disaster situations occur in the state nearly every day, and weather 
threats cause the majority of deaths. From 1989-2000, floods and flash 
floods caused 35 percent of the weather-related deaths in Texas. These 
are followed by tornadoes, lightning, winter storms, extreme heat, 
severe thunderstorms, and finally by hurricane/tropical storms. As I 
was preparing this testimony, Texas had 61 counties dealing with 
declared disasters. We also know that a proactive and robust emergency 
management program can reduce risk, property loss, and death. A 
critical component of a local emergency management program is timely 
and accurate weather data that decision-makers understand.
    Bill Proenza has always been an active supporter of local emergency 
managers. During his tenure as the southern regional director, Bill 
ensured that the local government emergency managers had ready access 
to weather information. He ensured his Warning Coordinating 
Meteorologists took the time to understand our weather information 
needs and to explain the impacts and probabilities of weather events on 
our local areas. He ensured the Warning Coordinating Meteorologists 
were available during weather events to answer our questions, provide 
forecasts, and discuss the various weather products with us. He also 
ensured the Warning Coordinating Meteorologists worked closely with the 
storm spotters and volunteer weather monitors to improve the forecast 
models that applied to our most common hazard, flooding.
    The Warning Coordinating Meteorologists and National Weather 
Service forecasters provide valuable training for local emergency 
managers and weather spotters. Bill supported and encouraged his staff 
to conduct training classes, teach local emergency managers one-on-one, 
and give presentations at local events and professional conferences.
    National Weather Service support for local emergency managers was 
evident in my first emergency management position in rural Fisher 
County, Texas. I had only been the volunteer EMC for 10 days when a 
tornado struck in the middle of the largest town in the county. It 
wasn't a large tornado, but it wasn't a large town either. The National 
Weather Service assistance began with tornado warnings, but it did not 
end there. They stayed in touch as we had crews searching through 
debris and cleaning up streets over the next several days. The warnings 
given by the National Weather Service and the follow-up concern that 
they displayed were incredible. That experience changed the 
relationship from Service and County, to Robie Robinson and Buddy 
McIntyre, Warning Coordination Meteorologist for the San Angelo office 
of the National Weather Service. I went on to learn more about 
thunderstorms and weather from Buddy and he hosted the first disaster 
exercise that I attended as an emergency manager. If I had never moved, 
I would have put it all off to small town hospitality, but I am now in 
the ninth largest county in the Nation and the relationship that I have 
with Bill and Gary in the Fort Worth office is the same. They interact 
with the emergency managers in our area on a regular basis. That is how 
they are able to keep an eye on our needs and modify their efforts to 
help us. It is clear to me that the commitment of the National Weather 
Service personnel with whom I have worked is a reflection of the 
leadership they had at the regional level.
    Bill's support of local emergency managers also applied to the 
River Forecasting Centers. The Fort Worth River Forecast Center worked 
closely with local emergency managers as well as the U.S. Army Corps of 
Engineers and Texas River Authorities before, during, and after heavy 
rainfall and flooding events. This coordination has been critical in 
our abilities to protect critical infrastructures, government 
facilities, and the public from flooding events.
    The new weather products now available are very useful in our 
planning efforts. We have various text products, river data, 
hydrographs, various precipitation images, reports and forecasts. We 
now have better maps, charts, and tables; weather forecasts, 
hydrometeorological data and discussion, climate data, and historical 
data. Local emergency managers get the weather information we need in 
the format that best meets our needs thanks largely to the programs and 
the leadership of Bill Proenza.
    The increased variety of weather products, discussions, and graphs, 
coupled with probability estimates improved decision-making in our 
emergency operations centers before and during extreme weather events. 
We now have a wealth of weather data available in our emergency 
operations centers that did not exist ten years ago. That data, and our 
understanding of it, increases the time available for the local 
emergency manager and the elected officials to consider alternative 
courses of action and to select the most appropriate one for the 
jurisdiction. Bill worked with local emergency managers to ensure we 
had the data we needed.
    There are those who say that technology has changed our world so 
that the weather is different or that our dependence on weather has 
lessened over the years. I would say that weather is not any different 
today than what it was back when Isaac Cline was watching the clouds in 
Galveston, Texas before the 1900 hurricane that is still the deadliest 
disaster to have struck in the United States. There are, however, 
differences in us and how we live. Our vulnerability is even greater 
than ever before. We have more citizens, buildings and vehicles at 
risk, and more densely populated cities with people who rely, not on 
their own eyes and wives' tales, but instead on reliable scientific 
forecasts to safeguard their businesses and their families. Thanks to 
Bill's leadership, we have a National Weather Service Office with a 
staff of professionals who work to keep us informed and to answer our 
questions any time, day or night.
    We have all learned to listen to forecasts and we have all heard 
when there were watches and warnings in our area. Admittedly, I am 
among the ranks of professional emergency managers who are professional 
paranoids. It is my job to watch the weather and plan for disasters but 
everyone wonders whether it will rain during the game or if today is a 
good day to go to the beach or to the lake. We rely on the National 
Weather Service for that information.
    The National Weather Service distributes weather data based on our 
needs. Local emergency managers used to get weather warnings, watches, 
and information only by NOAA Weather Radio, phone or fax. Now we get 
them from the Internet, by e-mail, and by pagers. The Warning 
Coordinating Meteorologists and other National Weather Service 
Personnel listened to the local emergency managers needs for weather-
related information and they met them. Bill Proenza actively pushed for 
the Warning Coordinating Meteorologist program and for the National 
Weather Service support of local emergency managers. The improvements 
we experienced over the last ten years would not have occurred without 
his leadership in the southern region.
    I interact with people all over the state on a regular basis. 
People from cities, counties, private industry, health care, 
transportation, State employees, and federal personnel. Across the 
board, they have nothing but positive comments when asked about the 
National Weather Service. Under Mr. Proenza's leadership, the southern 
region built this reputation and those in place today are working 
diligently to maintain it. However, don't make the mistake of thinking 
that they are content to stop there. They are constantly leaning 
forward in the saddle looking for new, innovative ways to help us do 
our jobs better for the people of the Lone Star State. I have attended 
numerous meetings where I have spoken with National Weather Service 
representatives who were eager to hear comments from emergency managers 
about how we used their products and what we would like to see in the 
future.
    The National Weather Service has also built valuable partnerships. 
Just a couple of years ago, they opened a new office jointly with 
Galveston County Emergency Management. This is an innovative, forward 
thinking partnership. We all want to claim that we can cooperate with 
others in our respective fields but how many of us actually go so far 
as to share our offices daily. Emergency managers and the National 
Weather Service have a strong tradition of working together but that 
isn't enough. It is more important to look toward the future and to 
ensure that we are prepared. That is where the southern region was 
incredibly effective during Mr. Proenza's tenure. When I was fighting 
wildfires across the state for the Texas Forest Service in 2000, I knew 
I could and frequently did call the National Weather Service for spot 
weather forecasts. This required that meteorologists stop what they 
were doing and give me specific information for the very coordinates 
where property and lives were hanging in the balance. I needed that 
information to keep firefighters safe and to protect the homes and 
ranches of many of our citizens. These efforts weren't required; they 
were done because the service and the people behind it knew they needed 
to be done. I was safer and better able to do my job with the knowledge 
that they shared.
    In the end, the National Weather Service is not a federal agency 
with people who sit in Washington to hand down products, guidelines, 
and grant funds. It is an agency of people who provide essential 
services to the emergency management community. Jack Colley, the Texas 
State Emergency Management Director could not be here today but he 
asked me to say, ``We could not operate in Texas without the National 
Weather Service. They are a key partner in our state. Bill Proenza is 
an innovator and an advocate for serving the needs of the locals so 
that we can protect the people who rely on us.''
    My county is currently building a new Emergency Operations Center 
with County funds, not grant funds, to help keep our citizens safe. I 
hope that the National Weather Service will continue to look toward the 
future and bring new tools and products to the table. I hope that they 
continue the personal contact with professional emergency managers 
surrounding their regional offices. I hope their funding will be 
maintained at a level such that we won't ever question their value or 
their ability to serve the emergency management community and protect 
our people. I hope that I see can see and rely on the same enthusiasm 
and commitment from the National Weather Service during the last half 
of my career that I saw and relied on in the first half. They share in 
our common goal and our common role as we work hand-in-hand to protect 
people.
    In closing, I hope that the NWS will continue the partnerships, 
energy, knowledge and innovation that Bill Proenza fostered. I hope 
that the information sharing will continue to us at the local level as 
we are the conduits from which the warnings and watches are 
communicated to the Moms and Dads and sisters and brothers whose very 
lives depend on that information.
    Members of the Subcommittees, forecasting the weather requires 
courage because human beings can not control what is going to happen. I 
hope that the leadership of the National Oceanic and Atmospheric 
Administration and the National Weather Service do not move into this 
new century by squelching the courage of their people to speak out.

                      Biography for Robie Robinson

    Mr. Robie Robinson is currently the Director of the Dallas County 
Office of Security and Emergency Management. Dallas County is the ninth 
largest county in the United States and is home to over 2.2 million 
people. Under Robinson's direction are Emergency Management, Homeland 
Security, Fire Marshal, and Security for all Dallas County buildings, 
personnel, and operations.
    Robinson was previously an Assistant Professor of Emergency 
Administration and Planning at the University of North Texas. Prior to 
joining the UNT faculty, Robinson was employed as Regional Fire 
Coordinator for the Texas Forest Service where he responded to 
disasters across the State of Texas. Robinson has also served as the 
elected County Attorney and Emergency Management Coordinator for Fisher 
County, Texas.
    Robinson completed a B.A. in history from Texas A&M, a Ranch 
Management Certificate from Texas Christian University, and a J.D. from 
Oklahoma City University. In addition, he has completed the Executive 
Leadership Program from the Naval Postgraduate School in Monterey, 
California. Robinson serves on numerous committees at the local, State, 
and national level and holds certifications from both the International 
Association of Emergency Managers (CEM) and Emergency Managers 
Association of Texas (TEM).

                               Discussion

    Chairman Lampson. Thank you very much.
    We will move into our first round of questions, and I yield 
myself five minutes, as the Chairman.

            Director Proenza's Tenure in the Southern Region

    You have commented on, both Mr. Robinson and Mr. McKinnon, 
have commented on the work that Mr. Proenza did as Director of 
the Southern Region. He met the needs of your offices. Did you 
have any concerns about the quality of the products that he 
would deliver, or his agency would deliver to your agencies, 
your offices?
    Mr. McKinnon. On the contrary, no problems with the 
products at all, and if he had questions, then he would come to 
us and ask if we needed to improve what he was offering to us.
    Mr. Robinson. Typically, he would ask us if we needed 
anything else, and we got what we asked for.
    Chairman Lampson. Consider him a people person? Did he have 
a hard time getting along with people?
    Mr. McKinnon. Very approachable and a very personable 
person to me.
    Chairman Lampson. Did you have any reason to lack 
confidence in the forecasts, warnings, data, or other product 
that you had been receiving from the Center?
    Mr. Robinson. None at all.
    Mr. McKinnon. None, sir.

     Hurricane Research Division and Hurricane Center Collaboration

    Chairman Lampson. Dr. Atlas, did you ever discuss with Mr. 
Proenza greater collaboration between the Hurricane Research 
Division and the Hurricane Center, after he became Director in 
January?
    Dr. Atlas. Yes, I did. When, immediately after Bill became 
Director, we were both approached by the NOAA Chief of Staff, 
and we were asked to work closely together, to bring research 
and operations much closer, and to be able to transition more 
of what we do in research into the operations of the Hurricane 
Center.
    Chairman Lampson. How was that received by people who 
worked beneath the two of you?
    Dr. Atlas. The people who worked at AOML, at the Hurricane 
Research Division, were extremely pleased. We had been wanting 
to do this for many years. It had not been as effective as it 
could have been in the past. There are many new developments in 
research that need to get into operations, and we were working 
extremely well together to bring that about.

                           Hurricane Research

    Chairman Lampson. What would a research program look like, 
to accomplish the goal of figuring out how to forecast 
hurricane intensity, if that is the primary question?
    Dr. Atlas. In order to be able to forecast hurricane 
intensity well, we need to have numerical models at very high 
resolution, that are capable of representing the key processes 
that go on within the hurricane, including the hurricane core. 
What this means is we need to have better and more 
observations, we need to have better ways of using that data. 
We need to have a better understanding, and we must have these 
new models.
    Chairman Lampson. What kind of observational data will be 
needed to develop our understanding of hurricane intensity, and 
what kinds of sensors does that imply, that we will need in the 
future?
    Dr. Atlas. Well, we need essentially everything we have 
there now, but we need more of it, and we need it at higher 
resolution. If we are--the models that are being run now were 
based on observations that were at pretty coarse resolution, 
and so were the models. Now, as we get down to a few kilometers 
in scale in our numerical weather prediction models, we must 
have data that is on a comparable scale. We need it for the 
development of the models, and we need it to provide initial 
conditions to the models.
    Chairman Lampson. How would findings from such a research 
program be translated into upgrades to models or other tools 
and techniques for the staff at the Hurricane Center?
    Dr. Atlas. This is, there is a process in NOAA for 
transitioning research, and there are new facilities that will 
make this go even better. There is something called the 
Developmental Test Center, located in Colorado, which enables 
researchers to work with the operational models, and enable us 
to upgrade them. Ultimately, it goes through the Joint 
Hurricane Testbed at the Hurricane Center, and if it passes the 
test, it then goes into operations.
    Chairman Lampson. Thank you very much. I only have a few 
seconds left. I am going to yield that back, and I am going to 
turn it over to Mr. Diaz-Balart for five minutes.

                 More on the Hurricane Center Personnel

    Mr. Diaz-Balart. Thank you very much, Mr. Chairman. Thank 
you gentlemen for being here.
    Also, I just want to tell the Chairman and others on the 
Committee, and my dear friend, Mr. Klein, that one thing that 
is worth seeing is the operation that Dr. Atlas has down there 
in South Florida, incredible people and led very well by Dr. 
Atlas, and I recently had the privilege to visit with them, and 
thank you for your hospitality, sir.
    I am glad that we are kind of getting away from personnel 
issues, and more on science issues, which is what this 
committee knows how to do, and we don't know how to deal with 
personnel, nor do we have the power to, but since a couple of 
things were brought up, I very briefly want to address it.
    Mr. Robinson, and I think very well, stated that obviously, 
we need to make sure that the courage to do the right thing 
continues, and I have no doubt whatsoever that Mr. Proenza has 
had that courage. But I just want to, you know, there are some 
incredible people at the Hurricane Center, and I don't know if 
you all have had, you know, have had a chance to meet with 
them, but since I do live and represent that part of town, that 
part of the country, you know, you get to kind of know some of 
them, and you know, Dr. Avila, James Franklin, so, so many, 
Richard Knabb, Dr. Knabb, I should say, Daniel Brown. There are 
so many incredible leaders.
    Obviously, you are not, and I know you are not, but I just 
want to make it very clear for the record, you are not implying 
that the people in the Hurricane Center don't have the courage 
or the expertise to do their job, correct? I mean, I know you 
are not----
    Dr. Atlas. That is correct.
    Mr. Diaz-Balart. But I just want to make sure that, you 
know, right.
    Dr. Atlas. That is correct.
    Mr. Diaz-Balart. I don't want anybody to ever misinterpret 
what you are saying, because I thought you were very positive 
and very clear.

                    Improving Hurricane Forecasting

    Getting back to the science now. Dr. Atlas, you and I have 
had conversations, and you just repeated it now, that one of 
the areas that we didn't need to do much better is in 
forecasting the strength, the intensity of a storm, and you 
have given me some, I think, very easy to understand in 
layman's terms, explanations as to where we are, and how we can 
do better, and if you could just give me a little bit of your 
outlook. Are you optimistic that we can do better, and what do 
we need to do in order to do better?
    Dr. Atlas. When I left NASA to come to NOAA, I did it 
because I had a specific goal in mind, and one of those goals 
deals with the improvement of hurricane prediction. I agree 
wholeheartedly with every positive statement said about the 
National Hurricane Center and its personnel. They do an 
excellent job. It represents the state of our science, the 
state of the art. However, it is still not good enough for what 
the Nation needs. We need to narrow the cone of uncertainty. I 
believe that if we develop the kinds of models, and get the 
kinds of observations, and increased understanding that I have 
mentioned to forecast intensity, we will be able to narrow the 
cone of uncertainty as well.
    We are at a time in hurricane science where resources put 
into computing, into research, into model development, and new 
observations can have tremendous payoff.
    Mr. Diaz-Balart. Thank you, Mr. Chairman. I will yield 
back. Thank you, sir.
    Chairman Lampson. Thank you very much, Mr. Diaz-Balart. I 
will recognize Ron Klein for five minutes.

                        Alternatives to QuikSCAT

    Mr. Klein. Thank you very much, Mr. Chairman. Thank you, 
Dr. Atlas, and gentlemen, for coming today, and being part of 
our discussion.
    I was focusing, in my questions to Mr. Proenza, on the 
difference of QuikSCAT and the role that QuikSCAT plays, and 
the difference if QuikSCAT is unavailable or in some diminished 
capacity, on marine forecasting, and of course, hurricane 
forecasting in general.
    Can you give some comment on the quality and quantity of 
difference, based on what NOAA said, is here--is our, after 
pushing them a little bit, but here is the backup on how we are 
going to approach this, between the European satellite, and I 
guess there is a new Indian satellite that is coming online, or 
a couple of other things, plus the other data and resources we 
have available to us.
    Dr. Atlas. There is actually another American satellite 
that is functioning right now called WINDSAT, and I have done 
numerical experiments that show that WINDSAT does provide 
useful data, although not nearly as accurate or as much as 
QuikSCAT. In general, if we only had WINDSAT to replace 
QuikSCAT, we would lose about half of the beneficial effect of 
satellite surface wind data.
    The European scatterometer, ASCAT, is comparable to their 
earlier scatterometer, in how it senses the surface wind, and 
does a little better than QuikSCAT in heavy rain situations, 
but is much poorer in terms of resolution and coverage, and 
does not have the ability to represent an entire storm 
circulation within its data coverage.
    We believe that we will lose some forecast accuracy. 
Certainly, if we do nothing, we will lose forecast accuracy, 
but the mitigation plan that NOAA has, to make use of ASCAT, to 
augment our reconnaissance aircraft, and to potentially put new 
observing systems on unmanned aerial systems, could mitigate 
the loss of QuikSCAT very effectively. I think that one of the 
very good things NOAA has done is to develop this mitigation 
plan, and it is being thought out very carefully.
    Mr. Klein. Okay. And just a followup on your comments on 
ASCAT, and your previous comment, the fact that QuikSCAT in its 
present form has more of a difficult time in heavy rains and 
things like that. Are we already currently getting data from 
ASCAT? Is that part of our engagement currently, or is that 
just as a backup in the event QuikSCAT goes down?
    Dr. Atlas. We just started receiving data from ASCAT very 
recently. The forecasters are evaluating the quality of the 
data, and to what extent they can use it. There are several 
difficulties in applying the ASCAT data the way they applied 
QuikSCAT, and so, there is a learning curve that we need to get 
over.
    Mr. Klein. And is there anything else going on in the rest 
of the world? I mean, obviously, the Far East has significant 
storms and typhoons and a lot of other things, other countries, 
other technologies, that are currently in place, that we are 
considering, or should be considering, or are we at the top of 
the curve here in science, and there is nothing for us to grab 
onto in any other part of the world?
    Dr. Atlas. Congressman, there are other countries that are 
developing scatterometers, but we don't know how good that data 
will be, or even whether or not they will make it available to 
us. There are other technologies that could also go into space, 
or be used on aircraft, that would bring about or contribute to 
significant further improvements in weather analysis and 
prediction.

                       More on Hurricane Research

    Mr. Klein. Okay. And the last question is, we have heard a 
number of times that research, it is not just the satellite or 
the buoy, research is a key component of everything from 
developing models to, you know, identifying new factors that we 
should be considering. Are we currently researching or 
supporting the level of research that you believe is necessary 
for the future of weather forecasting at this moment, and if 
not, what do you recommend?
    Dr. Atlas. If I had to answer with a yes or no, I would 
have to say no, but that is partially because, as was pointed 
out earlier, scientists never believe they have, that we have 
enough resources for what we want to do.
    I think the level of resources that has existed up to this 
point, with where we were in the period of less hurricane 
activity, and the state of our science, was appropriate. Now, 
in this period of very active hurricanes, and the fact that our 
science is now at a stage where we can rapidly capitalize upon 
additional resources, certainly more would be warranted.
    Mr. Klein. And if you can get back to us on exactly what, 
it is easy to throw a number at something, but I think it would 
be helpful to this committee to understand what specifics that 
we could support, types of research, the amount of support, 
resources necessary to get you where you need to be. Thank you.
    Chairman Lampson. Thank you, Mr. Klein. Mr. Inglis, five 
minutes.

             Director Proenza's Relationship With Witnesses

    Mr. Inglis. Thank you, Mr. Chairman. Mr. McKinnon and Mr. 
Robinson, testimony from you is very helpful to establish that 
Mr. Proenza is a capable fellow, who did excellent work while 
he was in a liaison role with the two of you. Is that a good 
way to characterize your testimony?
    Mr. Robinson. Yes, sir. It is mine.
    Mr. McKinnon. It is fair enough.
    Mr. Inglis. That he was very effective in working with you, 
and a capable fellow. And I think that it is important for all 
of us to stipulate that that seems to be the case. You are here 
saying that, and apparently, the Administration thought that 
when they hired him to go the Center, right? Because they 
thought he was a very capable fellow.
    I just was out in the hallway with some teachers, and had a 
little discussion about how, do you think it is possible that 
somebody that is a very good match for the superintendent of 
schools for a county is maybe not the best match as the 
principal of an elementary school? And of course, they 
immediately were shaking their heads yes. There is a different 
role involved. If you were the leader of a small elementary 
school, you are rubbing shoulders every day with the teachers, 
you are energizing them, you are being enthusiastic about their 
kids and what they are doing. You are working with them in 
their individual lives. Whereas if you are at the ed shed, the 
district superintendent, you are basically interacting with the 
community and principals, and various, at a different level.
    Is it fair to say that your interaction with Mr. Proenza 
sounds like it might fit more the model of the ed shed guy, 
right, the district office person, that was interacting with 
you as community members? Is that accurate?
    Mr. Robinson. I only interacted with him as a local 
representative. I work on the county level.
    Mr. Inglis. Yeah, so you worked with him in your capacity 
as a county employee, right?
    Mr. Robinson. County emergency management. Right.
    Mr. Inglis. You never worked for him.
    Mr. Robinson. No, I did not.
    Mr. Inglis. And Mr. McKinnon, you never worked for him.
    Mr. Robinson. No, sir. I never worked for him.
    Mr. Inglis. So, in that way, you, while your testimony is 
very helpful in seeing that he is a very capable fellow, and 
substantiates the decision of the Administration to hire him in 
the first place, to go to the Center, you really can't testify 
as to what it would be like to work with him in a group of 46 
people, sometimes 24 hours a day, sleeping at the Center when a 
storm is bearing down. You really don't know what it would be 
like to be there with him in that environment.
    Mr. McKinnon. And my comment would be, sir, we have worked 
very closely over the years, and I found Mr. Proenza to be very 
approachable, very personable, and an effective leader.
    Mr. Inglis. Yeah.
    Mr. McKinnon. I don't believe we have had enough time at 
the National Hurricane Center to find out exactly, we haven't 
even gone through an entire hurricane season with him at the 
helm, to find out exactly how effective he would be at the 
Hurricane Center.
    Mr. Inglis. Right. And of course, if 23 people of the 46 
say that he is not effective, and hurricane season is coming 
on, it sort of indicates it is a scary proposition, that 23 say 
the elementary school teachers don't have confidence in the 
elementary school principal, and think perhaps he or she should 
go back to the district office.
    And of course, I would ask my colleagues to be thinking 
about how we have different relationships with our staff, 
perhaps, than we do with our constituents. With our 
constituents, we can be very friendly. They are out there. With 
our staff, we might have a very different relationship. And so, 
it is a different role, right?
    Mr. McKinnon. Yes, sir, but I think the word be out if your 
staff disliked you for that reason, and I have never heard that 
about Mr. Proenza.
    Mr. Inglis. You know, I have always been amazed at Members 
of Congress getting away with it. But anyway, I have no further 
questions. Thank you.

           Returning Dirrector Proenza to His Former Position

    Chairman Lampson. Just one thing, as we wrap this up. How 
would either of you, Mr. McKinnon and Mr. Robinson, react to a 
decision that would return Mr. Proenza to his former position 
as Director of the Southern Regional Office?
    Mr. Robinson. I would be very happy to hear that.
    Mr. McKinnon. Let me think about the question a moment, 
sir. That is a very good question. I think Mr. Proenza has a 
lot of potential. I think he has a lot to offer the American 
public, to the National Oceanic and Atmospheric Administration, 
and to the National Weather Service. I think he would do the 
National Hurricane Center and the American public very proud, 
and I think he would make it, again, not to say that it has 
lost its reputation, but I think he would elevate its 
reputation back to the premiere hurricane center in the world, 
given the opportunity to advance the ideas that he has.
    Chairman Lampson. Gentleman, thank you. Does anyone else 
have any? Mr. Diaz-Balart.

                    Investigating Personnel Problems

    Mr. Diaz-Balart. Thank you very much, Mr. Chairman, for 
your indulgence. And again, sort of speaking hypothetically, 
but--and again, as someone who really likes Mr. Proenza, I 
think he is a really good, decent man. And I think, not only 
that, that he is really trying to do the best job he can. And I 
don't think, see, I don't think there are any evil people here. 
This is not a conspiracy thing. I don't buy that. I think it is 
what it is.
    But let me just ask you this, then, kind of theoretically, 
as well. If you all have a number of, you supervise an 
individual, and that individual has a number of people that he 
or she supervises, and if you get notified by those employees, 
half of them, the very people that you really respect, that 
their supervisor, the person that works under you, they cannot 
work with, that they are having major problems with, and you 
know that it is a very important job, would you ignore that 
request? Will you just say I don't care what you say, I am not 
going to do anything about it? Would you, in one way or 
another, and there are different ways of doing that? Or would 
you try to see what is actually going on, to make sure that 
things are running smoothly?
    Mr. McKinnon. Are you directing the question to me, sir?
    Mr. Diaz-Balart. Whoever, you know, whoever wants to.
    Mr. McKinnon. I believe there is two sides to every story, 
as you have said.
    Mr. Diaz-Balart. Absolutely.
    Mr. McKinnon. And for a matter of record, I do not want to 
cast any doubt on the credibility or the professionalism of 
anyone at the National Hurricane Center.
    Mr. Diaz-Balart. Which is what I hope we don't do.
    Mr. McKinnon. Exactly. Thank you. Certainly not. Certainly 
not.
    Mr. Diaz-Balart. Right.
    Mr. McKinnon. I do believe, in this case, opposites do not 
attract, and we may have some friction there. As with any case, 
and to answer your question, I do have people that report to 
me, and I do have supervisors that report to me. If there is a 
problem that the supervisor cannot resolve, then I do, if the 
information if brought to me, I do question the supervisor, and 
I question the person who has made the allegations, and we try 
to come to a suitable conclusion for all the parties that 
matter.
    Mr. Diaz-Balart. And I think, again, in a more hypothetical 
way, I think that would be the only responsible, what I do now, 
we can argue as to what procedure you should take, in order to 
do that, but I think it would be, frankly, not reasonable to 
expect, if you have people that are well respected, who 
complain, and maybe they don't have good reason to, I think it 
would be totally irresponsible to not try to find out whether 
there is something to those complaints. And the reason I 
mention that is because again, I don't think there are, I agree 
with you, I don't think there are evil people here. The people 
at the Hurricane Center, by the way, who have not lost their 
reputation, who are incredible and who are very good, despite 
what, again, you know, we all say some things that we shouldn't 
say, I am sure we regret up here, but I am talking about 
Members of Congress, not you.
    But when you have professionals at the Hurricane Center, 
with good or not so good reasons, whether an individual there 
is making the job impossible to do, I think it would be 
irresponsible to not take measures, whether the right ones are 
taken or not, to try to address. So, therefore, I don't see how 
NOAA acted wrong. I don't see how Mr. Proenza acted wrong. I 
don't see how the people in the Hurricane Center acted wrong. I 
think what you have here is, frankly, people that just can't 
work together very well. It doesn't mean they are evil. It 
doesn't mean they are not qualified, because clearly, Mr. 
Proenza is qualified, and clearly, the people in the Hurricane 
Center are qualified. And clearly, NOAA has tried to address 
it.
    Would you disagree with that kind of general assessment?
    Mr. Robinson. No, I think that is a reasonable statement. 
But I don't have all the inside knowledge.
    Mr. Diaz-Balart. Correct.
    Mr. Robinson. And neither do you.
    Mr. Diaz-Balart. Correct.
    Mr. Robinson. I mean, you have said that, and I think that, 
given that, all we can do is look at it from the outside and 
evaluate it. I have given my perspective, and you all will have 
to work from your perspective.
    Mr. Diaz-Balart. And Mr. Chairman, we obviously appreciate 
the perspective. Thank you, sir. Thank you, gentlemen.
    Chairman Lampson. Thank you, Mr. Diaz-Balart. Gentlemen, 
thank you very, very much for your time, your insight, your 
answers. May you all have a good day. I hope you make your 
flight, and it is a nice one, and we will call you again.
    At this point, well, shall we take--stand up, and take a 
deep breath as he comes in. Admiral Lautenbacher will be--Vice 
Admiral Lautenbacher is the next witness.
    [Recess.]

                               Panel III

    Chairman Lampson. After a very brief recess, we welcome the 
next panel, and that includes Vice Admiral Conrad Lautenbacher, 
who is the Under Secretary of Commerce for Oceans and 
Atmosphere, and the Administrator of the National Oceanic and 
Atmospheric Administration.
    And also, Dr. James Turner, Deputy Director of the National 
Institute of Standards and Technology. Dr. Turner led the 
assessment team, at the request of Admiral Lautenbacher, and 
will testify on the assessment and the findings of the 
assessment team's report.
    Again, as our witnesses should know, spoken testimony is 
limited to five minutes, after which, we will ask, as Members 
of the Committee, five minutes, and it is also the common 
practice of the Subcommittee to take testimony under oath. Do 
you have any objections to being sworn in?
    You also have the right to be represented by counsel. Is 
anyone represented by counsel today?
    So, if you will, please stand and raise your right hand.
    [Witnesses sworn]
    Chairman Lampson. Thank you, gentlemen. If you will have 
your seats, and Dr. Lautenbacher, would you please begin?

  STATEMENT OF VICE ADMIRAL CONRAD C. LAUTENBACHER, JR. (U.S. 
    NAVY, RET.), UNDER SECRETARY OF COMMERCE FOR OCEANS AND 
  ATMOSPHERE; ADMINISTRATOR, NATIONAL OCEANIC AND ATMOSPHERIC 
                     ADMINISTRATION (NOAA)

    Admiral Lautenbacher. Thank you, Mr. Chairman, Ranking 
Member Inglis, and distinguished Members of the Committee, and 
staff. I am here at your request today to address issues 
concerning the Tropical Prediction Center's National Hurricane 
Center, and the decision to place its Director, William 
Proenza, on leave.
    Before I begin, however, I want to make clear to the 
Committee and all residents of coastal states in no uncertain 
terms that NOAA, the National Weather Service, and the TPC are 
fully prepared for this hurricane season. Our forecasting 
ability continues to improve, and the American people can 
expect nothing less than the full capabilities of the National 
Hurricane Center.
    The scientists and forecasters at the TPC answer to one of 
the highest callings in public service, the protection of life 
and property. They have dedicated their careers to preparing 
their fellow citizens for the dangers brought on by tropical 
weather. When a storm is bearing down, they continue to calmly 
provide accurate and timely forecasts.
    It is for these reasons that we want to provide them with 
all the support they need to do their jobs.
    In recent weeks, some concerns about operations at the TPC 
have come to my attention. When Mary Glackin, a career NOAA 
employee with 22 years of experience in the National Weather 
Service and 30 in NOAA, became Acting Director of the Service 
on June 11, 2007, she was aware of a need to improve managerial 
rigor throughout National Weather Service operations. She 
promptly communicated to all senior staff the need for 
adherence to organizational policies, procedures, and the chain 
of command.
    In response to information the TPC Director, William 
Proenza, may have disregarded direct instructions from his 
supervisor, Ms. Glackin specifically counseled Mr. Proenza 
about these matters on June 14, 2007. On June 19, Ms. Glackin, 
responding to a request of a TPC employee, participated in a 
conference call with 11 employees at the Hurricane Center, 
including seven of the nine hurricane specialists.
    Despite expressing fear of retaliation for expressing their 
views, the participants on the call said that they felt muzzled 
by Mr. Proenza, that he lacked the knowledge of the hurricane 
program necessary to make informed decisions about the future 
of the program and hurricane forecasts, and that his actions 
were generating turmoil, fear, and a loss of cohesiveness at 
the Center.
    When I was briefed about this call, I felt it was essential 
to look into what appeared to be significant employee 
complaints, questioning whether they could do their job under 
Mr. Proenza's leadership. In fact, I felt it would be 
irresponsible for a senior manager not to get to the bottom of 
the issue. Concerned about the ramifications of this discontent 
during the middle of the hurricane season, I decided we needed 
an immediate, fair, and impartial assessment of these 
allegations, independent of the National Weather Service. With 
lives potentially at stake, inaction was not an option.
    Dr. Jim Turner, Deputy Director of the National Institute 
of Standards and Technology, agreed to lead a team to assess 
operations at the TPC. The team was given a broad mandate to 
address management, organizational structure, and operations. 
On Friday, July 6, Dr. Turner provided preliminary findings. 
Specifically, the Team advised that, based on their firsthand 
observations, ``the continued presence of Director Proenza at 
the TPC will interfere with the ability of the assessment team 
to complete its work.'' Moreover, it was the ``unanimous 
opinion of the assessment team that Mr. Proenza's actions 
during the assessment have not only failed to calm his staff, 
but have actually resulted in a level of anxiety and disruption 
that threatens the TPC's ability to fulfill its mission to 
protect the American people.''
    The Team cited incidents where Mr. Proenza questioned a 
senior forecaster at his workstation about his interview, 
approached other staff to ask for their support before they 
spoke with the Team, and conducted media interviews on the 
operations floor while hurricane specialists were attempting to 
perform their regular duties.
    After hearing from the Team, I advised Mr. Proenza on July 
9 that he was being placed on leave, based on the Team's 
determination that his presence threatened the Center's 
``ability to fulfill its mission to protect the American 
people.'' On Friday, July 13, the assessment team presented its 
final report. It found that ``the short-term ability of the TPC 
to provide accurate and timely information was put at risk due 
to the TPC director's disruptive conduct and the lack of trust 
between many staff and the director.'' More pointedly, the Team 
determined that ``the TPC's ability to achieve its mission was 
seriously threatened because of the environment which had been 
created by the director's statements and actions.''
    Citing actions by Mr. Proenza that intimidated and 
alienated staff, damaged teamwork, and produced fears of 
retaliation, the Team concluded that ``the negative work 
environment, exacerbated by the director, has had--and is 
likely to continue to have--a major deleterious impact on the 
center's ability to fulfill its mission, if he is allowed to 
return to his position.''
    The team recommended: ``The current TPC Director should be 
reassigned and not be allowed to return to his position at the 
Center. This should be done due to his failure to demonstrate 
leadership within the TPC rather than due to his public 
statements.'' The assessment team also included a number of 
other recommendations for improving operations at the TPC, the 
National Weather Service, and NOAA. I have asked my Deputy 
Under Secretary to provide a written review and response to 
these recommendations within two weeks time.
    Let me say at this point that William Proenza has a long 
and distinguished career with the National Weather Services. 
Any decisions I may make with regard to these recommendations 
will be made on the merits of the Team's assessment of 
operations at the National Hurricane Center, and not on any 
other issues or public comments Mr. Proenza may have made.
    A copy of the Team's report, along with other relevant 
documents, has been included with the written testimony I have 
submitted for the record.
    And finally, I would like to note that the official 
forecasts of the Tropical Prediction Center do not come out of 
a computer. They do not come out of a single satellite. 
Hurricane forecasting, at its core, still comes down to a team 
of specialists coming together to analyze all available data, 
and using their best expertise and wisdom to make a forecast. 
The American people need to know that when a storm is bearing 
down, those forecasters are focused on only one thing, that 
they feel free to offer their views, and that they are 
supported at the very highest levels.
    Thank you.
    [The prepared statement of Vice Admiral Lautenbacher 
follows:]
     Prepared Statement of Vice Admiral Conrad C. Lautenbacher, Jr.
    I am here in response to your request for testimony on issues 
concerning the Tropical Prediction Center's National Hurricane Center. 
The Committee has asked me to provide an account of events relating to 
the hiring of and recent decision to place on leave the Director of the 
Tropical Prediction Center (``TPC''), Mr. William Proenza.
    Before I begin, however, I want to make clear to the Committee and 
all the residents of coastal states in no uncertain terms that NOAA, 
the National Weather Service and the TPC are fully prepared for this 
hurricane season. Our forecasting ability continues to improve and the 
American people can expect nothing less than the full capabilities of 
the National Hurricane Center.
    The scientists and forecasters at the TPC answer to one of the 
highest callings in public service--the protection of life and 
property. They have dedicated their careers to preparing their fellow 
citizens for the dangers brought on by tropical weather. When a storm 
is bearing down, they continue to calmly provide accurate and timely 
forecasts.
    It is for these reasons that we want to provide them with all the 
support they need to do their jobs.
    In summer 2006, the then-Director of the TPC, Max Mayfield, 
informed me of his decision to retire, and D.L. Johnson, the then-
Director of the National Weather Service, initiated a search for a 
replacement. In November, General Johnson, with the concurrence of the 
Deputy Under Secretary, General (Ret.) Jack Kelly, recommended to me 
that William Proenza be appointed as Director of the TPC.
    Mr. Proenza began employment at the TPC on January 6, 2007. During 
January to May 2007, Mr. Proenza made a series of statements to the 
media regarding the TPC's budget and the potential loss of NASA's 
QuikSCAT research satellite. The statements about the budget were not 
factually accurate and the statements about the satellite were 
misleading and potentially detrimental in terms of public confidence in 
the Center's forecasts. I felt that some of these statements could have 
been the result of Mr. Proenza's being new to the TPC and not yet up to 
speed in terms of his new role. To address these concerns, I instructed 
senior management to work with him throughout the spring and to provide 
him with the necessary information and training to succeed as TPC 
Director, including detailed budget information relating to TPC 
operations.
    On June 11, 2007, Mary Glackin, a 30-year career NOAA employee with 
22 years of experience in the National Weather Service, became the 
Acting Director of the National Weather Service. In assuming her 
duties, Ms. Glackin was made aware of the need to improve managerial 
rigor throughout National Weather Service operations. Accordingly, at 
the outset of her tenure, Ms. Glackin communicated to senior staff the 
need for adherence to organizational policies, procedures, and the 
chain of command.
    With respect to Mr. Proenza, Ms. Glackin was advised that since 
January, ``there [had] been times when [Mr. Proenza] may have 
disregarded the direct instructions of [his] supervisor, the Director, 
National Centers for Environmental Prediction (NCEP), or [had] made 
decisions on [his] own which [he] had no authority to make.'' For 
example, Ms. Glackin had learned that Mr. Proenza instructed 
forecasters to replace the TPC heading with the ``National Hurricane 
Center'' label on the March 4 High Seas forecast. Because this action 
embedded the word ``hurricane'' in the forecast, it set off a ``pan 
pan'' alarm--a non-life threatening distress call--on every ship in the 
Pacific Ocean. To make sure there was no misunderstanding and to 
clarify management expectations, Ms. Glackin issued a memorandum on 
``Operating Procedures/Instructions,'' dated Thursday June 14, 
(attached) and met with Mr. Proenza in person in Florida the next day, 
to discuss its contents.
    Ms. Glackin's memo was not a reprimand. After identifying the ``pan 
pan'' alarm and other instances over the past five months that had 
prompted her to prepare the memo, it acknowledged that ``[s]ome of 
this. . .might have resulted from some confusion as to the various 
roles and responsibilities in the [National Weather Service].'' Ms. 
Glackin, however, wanted to reiterate to him her instructions about 
adhering to organizational policies, procedures and the chain of 
command, and that going forward she ``expect[ed] that [Mr. Proenza] and 
[his] staff will follow the directions and the policies and procedures 
developed by NCEP.''
    In particular, Ms. Glackin asked Mr. Proenza to consult on a 
regular basis with his direct supervisor on issues concerning ``budget, 
science, research, and operational or administrative issues'' that had 
``NOAA- or [National Weather Service]-wide implications or public 
safety consequences.'' Ms. Glackin expressly stated that she was 
``available to resolve any disagreements,'' once the two had discussed 
the matter fully, and expressed the intention to ``work together to 
ensure accurate predictions and to support the work of [the NCEP], [the 
National Weather Service], and NOAA.''
    On the evening of June 18, Ms. Glackin received a request from an 
employee at the TPC for a conference call. The call took place on 
Tuesday, June 19, with eleven TPC employees participating. These 
included seven of the nine TPC Hurricane Specialists; the TPC Union 
Steward agreed this meeting was requested by the TPC group and did not 
constitute a formal meeting requiring official notification to the 
union.
    During that call, Center employees raised several serious concerns 
about Mr. Proenza's actions, and whether they could do their job under 
Mr. Proenza's leadership. These concerns are reflected in a memorandum 
for the record (attached) including:

        <bullet>  They feared Mr. Proenza would take retaliatory action 
        against them if he learned they were voicing their views, some 
        stating they ``were scared'' of Mr. Proenza and others that 
        they were ``deep[ly] concern[ed] that their future was at stake 
        if this meeting got out,''

        <bullet>  They felt ``muzzled'' by Mr. Proenza, citing as an 
        example the development of priorities for improving hurricane 
        forecasting agreed to by the hurricane specialists, ``but not 
        approved by [Mr. Proenza],'' and therefore not permitted to go 
        forward to NCEP/NWS,

        <bullet>  They lacked confidence in Mr. Proenza's knowledge of 
        the hurricane program and were concerned that Mr. Proenza would 
        make decisions about its future without the required knowledge 
        or willingness to listen to staff,

        <bullet>  They believed the QuikSCAT issue had been 
        ``overblown'' and its representation in the media ``is not 
        accurate,''

        <bullet>  They questioned his ``integrity'' and were 
        ``outraged'' at his misrepresenting the actions and views of 
        his staff in the office and media, and

        <bullet>  They felt Mr. Proenza's actions were generating 
        ``turmoil,'' ``anxiety,'' ``fear,'' and a loss of 
        ``cohesiveness'' at the Center.

    Ms. Glackin and Dr. Uccellini were gravely concerned by what they 
had heard, and communicated to me their conclusion that immediate 
action was necessary. Given the fact that seven of the nine TPC 
Hurricane Center forecasters were expressing these concerns, it was 
their assessment that if the current situation persisted, the Center 
would have difficulty fulfilling its life-saving mission. Because of 
the serious nature of the situation, I consulted with my chain of 
command and we determined we had no other choice but to take action. 
Had we failed to act, we would have been derelict in our duties as 
public servants charged with protecting people's lives.
    However, in our judgment, the need for prompt action had to be 
balanced with making sure we had a clear understanding of the situation 
and were fair to all concerned. We therefore decided that the right 
approach was to convene an independent assessment of the Center's 
management and operations and its ability to meet its mission, and to 
set a fairly short deadline for completion of this assessment.
    Accordingly, on June 26, I requested that Dr. James Turner, NIST's 
Deputy Director, lead a team to undertake this charge. A copy of my 
memo to Dr. Turner is attached. On July 2, a memo was distributed to 
all employees of the Tropical Prediction Center advising them that I 
had asked for this independent operational assessment (attached). I 
further stressed that the ``candid views and opinions of the entire TPC 
team are extremely important to this assessment'' and encouraged 
``everyone's engagement, participation, and support of this endeavor 
without fear of retaliation or criticism.'' I also advised staff that 
the Team would be touring the Center and would be available to conduct 
individual and group interviews.
    On Friday, July 6, Dr. Turner and his team provided me with a 
preliminary assessment and recommendation regarding management of the 
Center (attached). Specifically, the Team advised me that, based on 
their first-hand observations, ``the continued presence of Director 
Proenza at the TPC will interfere with the ability of the assessment 
team to complete its work.'' Moreover, it was the ``unanimous opinion 
of the assessment team that Mr. Proenza's actions during the assessment 
have not only failed to calm his staff but have actually resulted in a 
level of anxiety and disruption that threatens the TPC's ability to 
fulfill its mission to protect the American people.'' In a series of 
documented incidents, Mr. Proenza had questioned a senior forecaster at 
his work station about his interview, which made the forecaster 
uncomfortable and upset; he approached other staff and asked for their 
support before they spoke with the Team; and he held media interviews 
on the operations floor about the assessment while the hurricane 
specialists were performing their duties analyzing tropical activity. 
The team thus recommended that Mr. Proenza be ``temporarily removed 
from active direction of the Center until such time as the assessment 
is complete and has been reviewed by NOAA management.''
    On Saturday, July 7, 2007, Ms. Glackin sent me a memo, agreeing 
with the recommendation of the assessment team, and recommending that 
Mr. Proenza be placed on leave (attached).
    The following Monday morning, July 9, Mr. Proenza was advised that 
he was being placed on leave, and that the reason for doing so was 
based on the preliminary determination of the independent assessment 
team that his presence was interfering with the Team's completing its 
work, and resulting in a ``level of anxiety and disruption that 
threatens the [Center's] ability to fulfill its mission to protect the 
American people.'' A copy of the memo issued to Mr. Proenza is attached 
to my testimony. A memo was then distributed to Center employees 
advising them that Mr. Proenza would be on leave until further notice, 
and that Deputy Director Ed Rappaport would serve as acting Director of 
the Center during this period (attached).
    On July 13, Dr. Turner and the assessment team completed the 
report. A copy of the report is attached to my testimony. The team 
found that the TPC is technically equipped to continue to provide 
accurate and timely information regarding hurricane-related activities. 
Specifically, the TPC's readiness has been strengthened by the addition 
of four new hurricane specialists in late 2006 (a two-thirds increase 
over prior years), the addition of a new hurricane forecast model this 
year, additional buoys, and a new instrument on the hurricane 
reconnaissance planes that will provide surface wind data.
    At the same time, the Team found that ``the short-term ability of 
the TPC to provide accurate and timely information was put at risk due 
to the TPC director's disruptive conduct and the lack of trust between 
many staff and the director.'' Even more pointedly. ``the Team 
concluded that the TPC's ability to achieve its mission was seriously 
threatened because of the environment which had been created by the 
director's statements and actions.'' The team cited actions by Mr. 
Proenza that intimidated some staff, alienated others, damaged 
teamwork, and produced fears of retaliation. In short, the Team found 
that ``[t]he negative work environment, exacerbated by the director, 
has had--and is likely to continue to have--a major deleterious impact 
on the Center's ability to fulfill its mission, if he is allowed to 
return to his position.'' Drawing on these findings, the Team 
recommended immediate action with respect to Mr. Proenza, due to his 
failure of leadership:

         The current TPC Director should be reassigned and not be 
        allowed to return to his position at the Center. This should be 
        done due to his failure to demonstrate leadership within the 
        TPC rather than due to his public statements about [the] 
        QuikSCAT satellite or NOAA leadership. A replacement should be 
        recruited as soon as possible through a nationwide, full and 
        open competition.

    I want to note that the report also includes a number of other 
recommendations for improvement of the TPC, NCEP, NWS and NOAA. These 
include better management approaches (e.g., establishing ``clear, 
written statements of authority for decision-making throughout the 
management chain at TPC''), enhanced employee training and leadership 
development programs (e.g., ``[i]nstitut[ing] formal succession 
planning and leadership programs for developing staff from within''), 
additional support for identifying and addressing technical needs, 
tighter linkages with the research and user communities (e.g., 
establishing a ``user group to provide regular input'' to the Center), 
clearer visioning, improved organizational structure in certain areas, 
stronger integration of the TPC into its parent organization, and 
constantly improving public education and outreach. I have directed the 
Deputy Under Secretary, Jack Kelly, to lead a review of the report and 
provide a response to the Team's recommendations within two weeks' time 
(attached). Following the same procedures we have used in responding to 
GAO reports, General Kelly will comment on the report's findings and 
recommendations and detail the steps to be taken to address the 
identified concerns.
    Let me say at this point that William Proenza has a long and 
distinguished career with the National Weather Service. Any decisions I 
may make with regard to these recommendations will be made on the 
merits of the Team's assessment of operations at the National Hurricane 
Center and not on any other issues or public comments Mr. Proenza may 
have made.
    And finally, I'd like to note that the official forecasts of the 
Tropical Prediction Center do not come out of a computer. They do not 
come from a single satellite. Hurricane forecasting, at its core, still 
comes down to a team of specialists coming together to analyze all 
available data and using their best expertise and wisdom to make a 
forecast. The American people need to know that when a storm is bearing 
down, those forecasters are focused on only one thing, that they feel 
free to offer their views and that they are supported at the very 
highest levels. Again, the scientists and forecasters at the TPC--
indeed, employees throughout the National Weather Service and NOAA, 
including myself--answer to one of the highest callings in public 
service--the protection of life and property, and we are fully prepared 
for this hurricane season.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Lampson. Thank you, Admiral. Dr. Turner, you are 
recognized for five minutes.

   STATEMENT OF DR. JAMES TURNER, DEPUTY DIRECTOR, NATIONAL 
             INSTITUTE OF STANDARDS AND TECHNOLOGY

    Dr. Turner. Thank you, sir. Chairman, Members of the 
Subcommittees, I am providing information to you today pursuant 
to the formal request I received in writing from the Chairman.
    I am happy to provide a brief summary statement about the 
work at the Tropical Prediction Center of the independent 
assessment team. Our team was composed of Matthew Heyman, 
National Institute of Standards and Technology, John Gunther, 
Department of Commerce, Kathy Kelly and Alexis Gutierrez, both 
of the National Oceanographic and Atmospheric Administration.
    We were charged to do the assessment. When we were charged 
to do the assessment, we asked for a written scope. We were 
asked to assess: One, the ability of the Tropical Prediction 
Center to continue to provide accurate and timely information; 
two, whether the management and organization structure 
facilitates TPC achieving its mission; and three, the extent to 
which lessons learned from recent hurricanes, including whether 
the 2005 Gulf Coast events have been incorporated.
    Please note that these are management issues. The 
assessment was not intended to be a technical referendum on the 
efficacy of the QuikSCAT satellite. Discussion of QuikSCAT was 
only pertinent to us, insofar as it impacted the three areas 
the Team was asked to assess. So that we would be clear on what 
our mission was, we also asked that our work be considered 
independent. We zealously guarded that independence, and that 
independence was scrupulously respected by NOAA management.
    Our process involved visiting the Center twice, touring the 
facilities, and being available to all employees, including the 
Director, who wanted to speak with us. We made ourselves 
available to the employees at times that would not interfere 
with their work schedule. In all, 31 of the 46 Center employees 
voluntarily came forward to answer the prepared questions we 
had. Each employee was also offered the opportunity to comment 
on any areas they felt pertinent to our scope, which were not 
addressed in our questions.
    Every employee we interviewed was provided with a written 
draft summary of what we thought we heard as their responses. 
The employees were free to correct the draft if errors were 
detected. Using the interviews, as well as our personal 
observations and firsthand experience at the Center, we 
developed a set of findings to address our charge. Where we 
thought pertinent, we provided recommendations.
    The report was delivered to Admiral Conrad Lautenbacher on 
July 13, 2007. At this point, sir, would you like for me to 
provide a brief summary of the findings and recommendations?
    Chairman Lampson. Yes, sir. Please.
    Dr. Turner. First, we divided the findings up according to 
the three areas we were charged to address. First, the ability 
of the TPC to continue to provide accurate and timely 
information regarding hurricane-related activities. Across the 
board, staff members of the TPC are highly dedicated to 
achieving the mission of saving lives and protecting property.
    We also looked at the technical capability, as well as the 
work environment. And from a strictly technical standpoint, the 
TPC is equipped to continue to provide accurate and timely 
information. However, the short-term ability of the TPC to 
provide accurate and timely information was put at risk due to 
the Director's disruptive conduct, and the lack of trust 
between many staff and the Director. The negative work 
environment, exacerbated by the Director, has had and is likely 
to continue to have a major deleterious impact on the Center's 
ability to fulfill its mission, if he is allowed to return to 
this position.
    By the same token, simply replacing the Director will not 
resolve the Center's workplace issues. If staff morale and 
longstanding organizational issues are not addressed, they will 
hinder the Center's ability to accomplish its mission. In the 
longer-term, the TPC faces some potential degradation of its 
capabilities, if current data about wind speed and direction, 
wind vectors over the oceans, are no longer available due to 
the loss of QuikSCAT, before similar or better data are 
available, through a yet to be designed alternative instrument.
    The second charge, whether the management and 
organizational structure facilitates their achieving their 
mission. The lack of effective supervisory oversight from NOAA, 
the National Weather Service, NCEP, and TPC management, has 
contributed significantly to longstanding problems at the 
Center, as well as the disruption over the last six months.
    And finally, to whether lessons learned were incorporated, 
we used as our source document the Service Assessment from 
Katrina. We found that the lessons learned were, in fact, 
incorporated, that there were several best practices 
identified, and that there were research challenges remaining, 
the primary one of which was the forecast of intensity.
    Among our recommendations, the current TPC Director should 
be reassigned, and not be allowed to return to his position at 
the Center. This should be done due to his failure to 
demonstrate leadership within the TPC, rather than due to his 
public statements about the QuikSCAT satellite, or NOAA 
leadership. A replacement should be recruited as soon as 
possible, through a nationwide full and open competition. 
Morale problems and division among staff must be addressed as a 
high priority, for the good of the Center, and to ensure that 
the organization can perform its mission.
    NCEP, the National Weather Service, and NOAA should 
increase their focus on the critical technical needs in 
hurricane forecasting, including improved Earth ocean surface 
vector wind data, intensity, understanding and forecasting, and 
modeling. NOAA leadership at all levels must require the 
highest level of conduct and performance from its employees and 
its managers. Supervisors must know that they will be supported 
in the management of their operations, and held accountable for 
failure to manage effectively.
    NOAA must communicate aggressively, in plain language, key 
facts, and rebut erroneous information about its hurricane to 
stakeholders, the public, and then, we have a number of things 
after that.

                               Discussion

         NOAA's Reaction to the Problems With Director Proenza

    Chairman Lampson. That is fine. We may get to some of those 
during our questioning, and I appreciate your testimony. We, at 
this time, will go into our rounds of questioning, and I will 
yield myself five minutes.
    Admiral Lautenbacher, when did you learn of the complaints 
from the Center?
    Admiral Lautenbacher. I learned about the complaints on 
June the 19th, in a phone call from Mary Glackin, who is the 
Acting Director of the Weather Service.
    Chairman Lampson. Was it the day before you came to visit 
me? Well, actually, the day before you came to visit me, Mr. 
Proenza and the Center must have been pretty much on your mind, 
for on June 26, you sent a note over to the head of NIST, 
asking that Dr. Turner be loaned to NOAA to head up a review 
team.
    Admiral Lautenbacher. When I came to see you, we were very 
concerned about the personnel issue at the Hurricane Center, 
and were working on ways to deal with it.
    Chairman Lampson. Was the communication that you sent on 
that day the first communication between NOAA and NIST 
regarding who might be detailed to such a team?
    Admiral Lautenbacher. The first communication, I think was, 
I signed on June 26, and that is the first one that I am aware 
of at this point, that we, in order to set in motion the kinds 
of procedures and process that was necessary, we needed to 
ensure that we had the right documents, the right charge, that 
the Team agreed with it, people were involved, so that was the 
beginning of the process.
    Chairman Lampson. On that same day, you produced a brief 
outline of what you wanted the Team to review. When was the 
first draft of that produced, and by whom?
    Admiral Lautenbacher. I don't recall. I can try to take 
that for the record. It was certainly one of my staff.
    Chairman Lampson. On June 26 also, you received legal 
authority to take managerial actions against Mr. Proenza. Do 
you remember receiving that authority?
    Admiral Lautenbacher. Yes, I do. The background on that is 
that the Secretary of Commerce holds the authority to reassign 
and transfer members of the level of employment at which Mr. 
Proenza is at. I can't overemphasize the extraordinary concerns 
that I felt from what Mary Glackin had relayed to me, and when 
I expressed that to the Department, they felt that we needed to 
have a way to ensure that if there were some immediate 
problems, that we would have some way to deal with them. It was 
clearly a backup mechanism to ensure that we would not 
undermine the ability of that team to function to forecast 
hurricanes.
    Chairman Lampson. And so, while you were working to put 
together the team that will get to the bottom of the situation 
at the Center, you were also securing the authority to get rid 
of or reassign Proenza. And yesterday, the staff were told by 
the head of the review team, that they were going into their 
review of the Hurricane Center with no preconceived notions. 
That doesn't seem that you shared that attitude. When did you 
first meet with the review team?
    Admiral Lautenbacher. I have always been interested in a 
fair and impartial review of what was going on at the Hurricane 
Center, and I would ask you, you can ask Dr. Turner about his 
feeling of independence or not, but that was where I was going. 
I have never been, I have never publicly stated or been 
involved in any issues other than trying to make the situation 
such that Mr. Proenza could succeed in his task as the head of 
the Hurricane Center. As I said, it was purely a backup to 
ensure that if there were some situation that came up, that we 
could move quickly, and not undermine the capability of the 
Center.
    Chairman Lampson. Did you tell them that you had sought the 
authority to transfer or reassign Mr. Proenza?
    Admiral Lautenbacher. I don't recall whether I told them 
that or not.
    Chairman Lampson. What did you tell them about him? What 
was your charge to them?
    Admiral Lautenbacher. My charge to them is in the document 
that we provided, which indicates the three tasks that we asked 
them, and my personal conversations, as far as I can recall, 
were in line with the written document that we had provided, 
and the charge that we gave to the Team.
    Chairman Lampson. I am going to yield back my time, and 
yield time now to Chairman Miller.

                            The Proenza Plan

    Chairman Miller. Good afternoon. Admiral Lautenbacher, you 
said that you first heard of any problems at the Center on June 
19.
    Admiral Lautenbacher. Yes, sir.
    Chairman Miller. Okay. There was an April 21 mail\2\ that 
spoke of a five-step Proenza plan, and it said that you had 
asked for that. What is the Proenza plan, what were the five 
steps? What was the purpose of it? What was that all about?
---------------------------------------------------------------------------
    \2\ Inserted in the record on pp. 19-22.
---------------------------------------------------------------------------
    Admiral Lautenbacher. That is a euphemism for us trying to 
help Bill to accommodate to his new position. We had asked and 
talked about, and I can't expressly remember who had what idea, 
but we felt the following, that first of all, he is in a new 
position, and for any employee, and certainly at the SES level, 
there is a requirement that you have a performance plan, so 
that their progress and their expectations of the management 
can be outlined and agreed to by the employee.
    I wanted to make sure, first of all, confirmation from the 
chain of command that that was in place, because he had just 
come into a new position from an older position, and that 
needed to be done. The next step was that it was time for a 
mid-year review. You are required to consult with your 
employees, and to have a face to face meeting, in terms of 
telling them how they have done, where they are going, and you 
know, advocating what needs to be done with them. Those were 
two.
    Three was, given some of the misleading statements that had 
been in the press, that we asked him to, I wanted the chain of 
command to provide some ethics training. And four was to, and 
these are not, there is no five step program. This was designed 
to give him the material and tools in order to make him a more 
effective Director. Fourth was the information and direct 
connection with our budget activities, so that he would have 
full and free access, and the information on how much was being 
spent on various issues, and particularly, his part of the 
world. And then, five was media training. He is responsible for 
his statements in public, and is, quite frankly, the most 
visible spokesman of NOAA, and it is very important that he do 
that job well.
    So, those were the five kinds of steps. They were designed 
to provide for him the tools to make him successful in the job.
    Chairman Miller. Why did you ask legal to look at it? The 
email says Eddie said he wanted to get legal to look it over.
    Admiral Lautenbacher. Because I asked the HR folks, I 
wanted to make sure, I am very deferential to protecting the 
rights, as a career person myself, I am very deferential to 
protecting the rights of career employees, making sure that we 
do not, management does not overstep the bounds of what is 
proper, right and proper, in order to supervise and maintain 
adequate control and management of all employees, so it was a 
check to make sure that we were not overstepping any potential 
bounds.

                             NOAA Documents

    Chairman Miller. There have been no subpoena issues by this 
committee. We have described to NOAA what kinds of documents we 
want provided. We got 700 pages of documents last night. Excuse 
me, 284. You have mentioned legal here. Of course, none of this 
is subject to a subpoena, but has NOAA provided all the 
documents that meet the description that we provided you, of 
the documents that we want? Have any been withheld on any claim 
of lawyer-client privilege or executive privilege, or 
decisional process privilege, or Privacy Act privilege, or any 
other basis?
    Admiral Lautenbacher. None of that for the documents we 
provided, and I am certainly going to state, and that your 
staff knows, we have not provided, we have not completed the 
document search. We are working as quickly as we can to provide 
all of the information you need. We want to cooperate with your 
need to review everything, and we are continuing to work on 
that as fast as we can.
    Chairman Miller. Okay. And we will continue to get 
documents from you, then.
    Admiral Lautenbacher. Yes, sir. You will continue to get 
documents from us.

                       The Management Assessment

    Chairman Miller. Fine. The way that this management 
assessment was described, or as Mr. Proenza learned of it, was 
that he got a call, as they were arriving, from you. So, that 
was the first he learned of it, that other employees at that 
Center knew about it, knew the Team was coming, but for him, 
they showed up at his door, and that seems to be, apparently 
was intentional, a plan.
    It sounds more like law enforcement serving a search 
warrant than a management assessment. Why was it done in that 
way?
    Admiral Lautenbacher. That was not the intention at all. 
The issue was to try to protect the rights of both Mr. Proenza 
and the employees. I am not aware of who knew or didn't know 
before whatever, but I know that arrangements were made 
logistically to ensure that someone knew that there would be 
some people coming, so that there would be someone to----
    Chairman Miller. But was there a decision, a conscious 
decision that Mr. Proenza would not know that there was a 
management assessment team on the way?
    Admiral Lautenbacher. There was a conscious decision to try 
to make this as, let us see, what is the right term here, we 
wanted to assess the situation as it was. We were very 
concerned, I was concerned, based on what I heard from Mary 
Glackin about reprisals, and the employees' concerns, so the 
issue was to try to, to the best that we could, and this isn't 
some big secret operation, this is just to try to do it as a 
snapshot of the way this, the way the operation functions, and 
to do it in a way that didn't alarm either Mr. Proenza or the 
employees. That was the intent.
    Chairman Miller. Have you sent in management teams in 
similar circumstances, and not told the head of the office that 
they were arriving until they were at his doorstep?
    Admiral Lautenbacher. I have not done that, have not had 
the need to do that in my term as the head of NOAA. I have done 
it a number of times in my Navy career, and it is a normal 
process to have reviews that are done as daily business is 
occurring, in order to not to disrupt the command, which is 
another issue. We didn't want them to spend a lot of time 
trying to prepare, and create a great deal of, perhaps, 
consternation, and as I said, concern about the reaction the 
employees would have if Mr. Proenza and they were trying to 
prepare for some, and again, it was an assessment, a snapshot 
assessment. It was not designed in any other way, except to 
uncover the facts.
    Chairman Miller. Okay. I have more questions, but there 
will be an additional round. Mr. Inglis for five minutes.

              Course of Action Taken With Director Proenza

    Mr. Inglis. Admiral, Chairman Lampson was concerned in his 
questions about why it was that you didn't mention it, the 
pending action involving the Team going in to see Mr. Proenza, 
at the time that you met with him, Chairman Lampson. Is that, 
in retrospect, a good decision on your part, or----
    Admiral Lautenbacher. I believe so, because at the time, we 
had not completed the full discussion and deliberation process 
to make a final decision on exactly how it would be conducted, 
try to ensure protections if we were to do it, and exactly when 
we would do it, and what the results, the plan had not been 
formulated at that point, when I saw the Chairman.
    Mr. Inglis. Now, suppose, my take on that if it is a 
personnel matter, it is really not ripe for discussion. Is that 
right? I mean, in other words, we don't exactly discuss, you 
wouldn't naturally, you wouldn't take it upon yourself to 
discuss personnel matters that aren't yet decided.
    Admiral Lautenbacher. I would not do that as a normal 
course of action. I did advise the Committee, and called, 
personally called a number of people on Monday to tell them of 
what the issue was, and how we were going to try to deal with 
it, because I am very respectful that this committee needs to 
understand what is going on at an area as sensitive as the 
Hurricane Center.
    Mr. Inglis. And you could have simply terminated Mr. 
Proenza. Is that correct?
    Admiral Lautenbacher. There is a misunderstanding here 
about the authority. I don't have any authority that is not 
granted in the normal personnel regulations, that comes from 
the laws that Congress provides, and as are distributed to us 
from the Office of Personnel Management. There is a very clear 
procedure that one must go through, and I would never, in my 
wildest imagination, think of violating any due process and 
procedures in providing all the rights that accompany that. So, 
I was not interested in anything to do with dismissal or 
removal at that point.
    Mr. Inglis. But sending in a team, was that required? Were 
you required to send in an assessment team, or could you have 
taken more direct action if you wanted to, against Mr. Proenza?
    Admiral Lautenbacher. If I had wanted to, I could have 
taken more direct action. I did not feel it was appropriate to 
take more direct action, or I could have instituted more direct 
action, and more respectfully. And remember that Mary actually 
recommended that more direct action be taken. I wanted to 
ensure that everybody's rights were protected, Mr. Proenza's, 
as well as the employees that work for him.
    Mr. Inglis. And Dr. Turner, in retrospect, would you think 
it is the right decision to go without notice? Chairman Miller 
mentioned that concern, that it was without notice to Mr. 
Proenza that you all showed up. Is that, in retrospect, the 
right thing to do, you think, or----
    Dr. Turner. I just find it very difficult to answer, 
because it is a hypothetical, and I have not thought about 
that, and I don't know. There may have been some other 
situations and circumstances that I was not aware of, and so, I 
would certainly not, you know, based on what I knew, I would 
certainly not be in a position to second guess decisions made 
by the Admiral or anyone else.
    Mr. Inglis. Yeah. Well, it seemed to me that actually, you 
would want to go in quickly and without notice. And I know that 
Chairman Miller seems to think that is untoward, or appears to 
think it is untoward. I would think that is exactly what is 
indicated in the circumstances, because otherwise, you put 
everybody on notice, they are going to go around getting their 
stories together. They are going to spend time of the agency 
developing arguments, rather than keeping on doing their work, 
and let us just come in here and check and see what is 
happening here. So, it seems to me a rather reasonable 
decision.
    Also, I am almost out of time, but it appears to me, 
Admiral, you have had a lot of experience in the Navy, and I 
would assume that the teacher analogy you may have heard, that 
I used out in the hallway with some teachers, that the great, 
that the person that is best at being the elementary school 
principal may not be the same person that performs well at the 
district office, and vice versa.
    I suppose that has been your experience, and I hope that 
somehow, we leave here having delved, unfortunately, rather 
publicly, into a personnel matter that may damage the 
reputation of Mr. Proenza in the end, but he could be restored 
as somebody that can perform well in a number of circumstances, 
and maybe just didn't fit in this. Is that how you think this 
might, this footnote in history be written?
    Admiral Lautenbacher. Obviously, I can't describe what 
actions I am going to take, because I haven't gotten the 
recommendations that I have asked for from my deputy. But my 
track record, and you can ask many people, has been always to 
try to ensure that people are in the right billets, that they 
are given the opportunities to perform at their highest level. 
I believe in the inherent dignity and rights of every 
individual, and I have always worked to try to put people in 
the right jobs, and to ensure their success, and I will 
continue to do that.
    Mr. Inglis. Thank you, Admiral.
    Chairman Miller. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Mr. Chairman. Admiral, how are 
you, sir?
    Admiral Lautenbacher. I am fine. Thank you, sir.

                           Witness Background

    Mr. Diaz-Balart. Admiral, just for my information, you 
know, we call you Admiral, but, because you were an Admiral, 
and obviously, you still have the title. How long were you in 
the Navy?
    Admiral Lautenbacher. I was in the Navy for 40 years.
    Mr. Diaz-Balart. Forty years. That is kind of a small mom 
and pop operation, right? The Navy, you didn't have to 
supervise a lot of people then, did you?
    Admiral Lautenbacher. I have had experience at all levels 
in supervising, small groups to very large groups.
    Mr. Diaz-Balart. Thank you for your service to the country, 
that you continue to do. Mr. Turner, Dr. Turner, I was also, by 
the way, it is just when I was looking at your resume, sir, it 
is pretty impressive. I just think it is good for us to hear 
this. I might embarrass you, because I know you are, but I 
just, you know, when you have got people of this caliber in 
front of you, I think it is important to say this is a man who 
has received the U.S. Government Presidential Rank Award for 
Meritorious Service, three times received the U.S. Department 
of Energy Exceptional Service Award, earned the Secretary of 
Energy Gold Award, and the National Nuclear Security 
Administration's Gold Medal.
    It is a privilege to be in your presence, sir, and to both 
of your presence.
    Dr. Turner. Thank you very much, sir.

                    Responsibilities as a Supervisor

    Mr. Diaz-Balart. You know, we have something here that is 
kind of almost, I guess, without precedent. I don't know how 
many times, I have never, I have only been in Congress for a 
few years. It is only my third term, but I don't--Dr. Turner or 
Admiral, have you all ever been in a position where half of the 
staff publicly manifests itself against a supervisor, publicly, 
and even with the press? Is that something normal? Again, as a 
rookie, I am, you know, I just, is that something that happens 
a lot in the Federal Government?
    Dr. Turner. I have had about 30 years in the Federal 
Government, and I have not run into that type of situation, 
where there has been a public outcry such as that.
    Mr. Diaz-Balart. Dr. Turner, in your years of being a 
supervisor, if however something like that would have happened, 
would you have thought it would have been responsible to not 
act and try to find out what is going on, and kind of ignore 
the situation, and not try to come up with a way to try to 
figure out what is wrong, or you know, what is going on?
    Dr. Turner. Yes, sir. I think it is part of the 
responsibility of a supervisor, and also, I think in some cases 
similar to this, the difficulty is getting employees to speak 
on the record. That often is difficult, because one cannot act 
unless they go on record, because it is not fair to the person 
being accused, and it is also not fair to the person who 
ultimately has to make a decision. And it is not fair to the 
employees expecting something to happen, but they need to go on 
record, and I think these people went on record, and I think, 
again----

                     Admiral Lautenbacher's Actions

    Mr. Diaz-Balart. That is pretty clear. Admiral, let me--if 
I sound critical, I just learned now that you could have, once 
you got the information from Acting Secretary Glackin, you 
could have, on your own, acted to, you know, move Mr. Proenza. 
And yet, what you did instead is you created this, you asked 
people to go in and look at what is going on. Would it not be, 
frankly, a fair criticism saying that, knowing of the 
importance of the Hurricane Center, that we are now in the 
middle of a hurricane season, that you frankly were not 
aggressive enough, and didn't act quick enough, because of what 
is at stake here? I mean, isn't that a fair criticism, to say 
that maybe you were not aggressive and quick enough?
    Admiral Lautenbacher. That is a fair criticism, and I have 
thought long and hard about that, too, and tried to find the 
right compromise to ensure rights were protected, and that we 
were doing the right thing for the American people. It is a 
very difficult decision.
    Mr. Diaz-Balart. And within that decision, Admiral, so you 
were aware of the importance of the Hurricane Center, and the 
fact that we are in a hurricane season, and yet, you still 
thought that you would be a little bit slower, and I guess a 
little bit more deliberative, and you actually got this group 
of individuals, I already mentioned some of the awards that Dr. 
Turner has earned. So, you obviously found a pretty qualified 
group of individuals, and you did not just act, you actually, 
what, you wanted to make sure that Mr. Proenza and the 
individuals, the highly qualified scientists and others at the 
Hurricane Center, had the ability to really, what, air it out 
without fear of retribution? Is that what you did, even though, 
knowing that you would have had to slow down in order to do 
that? Even though we are in the middle of a hurricane season?
    Admiral Lautenbacher. I did, and I felt that if there were 
any indications, first of all, I watched the weather situation 
very closely, because I was not going to do this in a period 
when we had serious tropical activity, and needed to have full 
efforts placed on the hurricane forecasting, so that was part 
of the decision as well.
    Mr. Diaz-Balart. Thank you, Admiral. So again, and I am, 
you know, I am not being critical, but I just want to make sure 
that it is very clear that you could have done it quicker. You 
could have done it without Dr. Turner and other career service, 
frankly, heroes to our nation, looking at this, but you didn't, 
even though we are in the hurricane season, and I guess what, 
and I just want to make sure I understand this, because you 
just wanted to make sure that it was done right, not 
necessarily done as quickly as possible, but done right, and 
even knowing that that, in itself, you could have been accused, 
you could be accused, I mean, I guess someone might say that I 
am, of not doing it as quick as you could have done, knowing 
the fact that it is not usual for people in the Federal 
Government, half the employees, to publicly say we want this 
individual to go?
    Admiral Lautenbacher. That is correct.
    Mr. Diaz-Balart. Thank you, Admiral. Thank you, Mr. 
Chairman.
    Chairman Miller. Thank you. Mr. Klein for five minutes.

                            More on QuikSCAT

    Mr. Klein. Thank you very much, Mr. Chairman, and thank 
you, Admiral, and thank you, Dr. Turner for your service. We 
appreciate it.
    I am not going to spend my time on the personnel issues, 
other than just to say that the reason probably that this is 
going on right now is because there are probably some 
statements made, when Mr. Proenza brought forth his comments on 
QuikSCAT from NOAA. There is probably some personnel management 
issues within, that certainly have left some smoking guns out 
there for people to make these situations.
    I have heard what you all said today. I appreciate the 
process you went through. It probably stirred some things up 
down there, and maybe that was the right thing to do, to get to 
the bottom of it. I agree this is the middle of the hurricane 
season. Those of us who live in Florida and other places around 
the country, we are as concerned, and I appreciate your closing 
statement there, about the responsibilities that NOAA and the 
Hurricane Center and the personnel take extremely seriously, 
and I appreciate that, because I don't question any of that.
    I am going to go back to QuikSCAT, and go back to the 
equipment and the tools and those kinds of things. I am fairly 
convinced that there is some relevance to QuikSCAT, based on 
what I have heard up to this point, whether it is marine 
activities, or whether it is some level of evaluation tool that 
is used by the forecasters. When I went down to the Hurricane 
Center, they specifically told me that it has some relevance. 
Whether it is 15 percent, or some contribution, I think we all 
agree that the more tools, and the more information on the 
table, the better the analysis can be.
    And the question that I asked, you know, your organization 
early on, when I started raising some issues about this, is 
what is the backup, which I now believe is, you know, being 
thoroughly evaluated. I was concerned it wasn't for as long as 
it should have been, and I hope that we have all learned that 
process since then, that we should be in a better position, and 
continue to move along, and I want to encourage that, so that 
we, if this thing does fail, whenever it fails, that we really 
have all the tools in place.
    We have had some other testimony today about this, and just 
give me your sense of, your professional sense of if it does 
fail, you know, how far off are we, in terms of you are 
recognizing yes, we have most of what we need, but how far off 
are we, and are you satisfied that between the various tracking 
tools we have, that we are going to be in a sufficient 
position?
    Admiral Lautenbacher. Yes, thank you, and I appreciate your 
comments. First of all, let me caveat. I am trained as a 
scientist, and I consider myself a scientist, but in this role, 
I am a manager, so I take the advice of my practicing 
scientists, and so, that is what you are hearing, that 
temporized through my interpretation as a scientist.
    But I view the QuikSCAT as a very important instrument, 
because it brings the surface vector wind field. I won't say it 
is the Holy Grail of forecasting, but it is a really nice thing 
to have. As a fluid dynamicist, I would like to have, that is 
an important variable.
    We had planned, obviously, for many years before QuikSCAT 
was determined to be so effective, which happened in the last 
year or two, that we got into that, to use conical microwave 
imaging and sounding to provide those variables, those fields. 
So, we are at the cutting edge, kind of, of instrumentation to 
provide this surface vector wind field. We have been using the 
QuikSCAT information, that is an experimental satellite, that 
had been built by NASA. It has been working fine, and we expect 
it to keep working. I will keep my fingers crossed, but--and 
so, I view that, for this season, we are in good shape.
    We have put on, in our partnership with Europe, we have 
EUMETSAT, a polar orbiting satellite that has something called 
ASCAT on it, which is a scatterometer, an active instrument. It 
is, on specs, not quite as good as the QuikSCAT scatterometer, 
but that now is operating, and is in place, and it will be here 
until 2020 continuously. I have directed, and I am sure you are 
aware of that, that that be taken into account and looked at, 
and put into the models, to see how much of a difference that 
would make in a model, and remember, we are talking about a 
model, not necessarily, remember, forecasts are made by 
forecasters, not by computers. It is still an art, in a sense.
    And so, that system is in place, but in addition to that, 
we continue to put in place one improvement after another. This 
year, we are putting seven new hurricane buoys in place. It 
will be a ground truth on the surface of the ocean. Never had 
that before. We have more accurate wind measurement instruments 
going on our Hurricane Hunter aircraft, which are very 
important for landfalling hurricanes, which is very important. 
In fact, remember, the scatterometer is most useful for 
hurricanes that are away from land, and for tropical storms, 
basically, not landfalling hurricanes, because of the speed 
limitation on QuikSCAT.
    So, there is a number of issues. I can keep going on, but I 
am afraid that I am going----
    Mr. Klein. That is okay, and I am aware of where I am going 
with this.
    Admiral Lautenbacher. It is not part of what this hearing 
is.

                   Next Generation Forecasting Tools

    Mr. Klein. Where I am going with this, and this is part of 
where I am interested in, and I think Members of Congress are, 
is whether we have the adequate tools in place, and you know, 
there is a history that, I am a new Member of Congress, but 
there is a history, apparently, the last number of years, of a 
lot of money that was put down the drain, in a technology that 
has not gotten us where we wanted to be, and that was sort of 
going to be the next generation of where we are going with some 
of the, you know, equipment.
    So, I want to be supportive. I know Members want to be 
supportive of giving you the tools, including research, so I am 
interested in knowing, on the research side, you know, what 
connects we need, where do we need to be helpful, but at the 
same time, there has got to be a good, frank, honest, and open 
relationship with the Congress and the American people, to make 
sure that, you know, we have the backing of the taxpayers, to 
know we are doing the right thing.
    But we have to have this, and it is very important that 
whether it is QuikSCAT or anything else, I don't want to hear a 
month ago oh well, it is very important, very important, and 
all of a sudden, with Mr. Proenza's situation in the middle of 
this, it is not important, it is not important, it is not 
important. And then, I hear some backtracking from some folks. 
That is the credibility gap that has developed out of this 
whole dynamic, which I think needs to be flushed out and gotten 
off the table, and we need to move on.
    Admiral Lautenbacher. Can I make just two comments, and I 
know Dr. Turner is interested? First of all, I know it was just 
a euphemism, but I do not believe money has been poured down a 
rat hole on the satellite programs. What we have is a problem 
where the technical difficulties involved in creating the next 
generation of instruments took more time and more money than 
anybody ever anticipated to deliver, so we have had to reduce 
some of the risk on that, so that we have the schedule, and 
they can be delivered. That has been. That is back on track. 
So, that is good.
    Now, QuikSCAT is a potential filler of this surface vector 
wind field, we have pushed money in the direction. We have a 
study going. We are trying to look at a replacement for 
QuikSCAT based on the renewed, or I would say, probably new 
interest that it is the only, or it is the best replacement for 
that field, as a matter of priority. And we are working on that 
with a study, and we will make decisions as quickly as we can 
make them responsibly, and come to you as the Oversight 
Committee, and say this is the right place to invest money.
    Mr. Klein. Thank you.
    Chairman Miller. Dr. Turner, you can respond to that. We 
are getting close to the end, but go ahead, Dr. Turner.
    Dr. Turner. Yes, sir. I think the discussion about QuikSCAT 
has two dimensions, and certainly, one dimension that has been 
discussed quite a bit here, and that is the scientific 
dimension, and certainly, dialogue and discussion about the 
science and so forth of QuikSCAT and its replacement, are 
certainly ripe fields for people to talk about.
    I think what concerned us in our assessment was the 
misrepresentation that Mr. Proenza made about the, about what 
his staff was telling him about QuikSCAT and its importance to 
them and their forecasting. We were told on several occasions 
that his staff corrected his statements, told him why they 
thought that they were being taken out of context, and he 
continued to misrepresent their views, and I think that is the 
part that made them lose confidence in his integrity.
    Mr. Klein. Mr. Chairman. Just for the record, and I know my 
time is up, for the record, I did go down to the National 
Hurricane Center, as I said before. I asked two specific 
forecasters, veteran forecasters, specifically about the 
statements that Mr. Proenza was making, and they validated them 
independently. It was just a private conversation, but I was 
interested, and just they showed me, and they said yeah, this 
is true, and this is what the value is. So, I don't know what 
has been said since then, but it was a firsthand expression to 
me, and I know that was there. Now, what has happened since 
then, and different people can have different opinions, but I 
want to put that on the record.
    Chairman Miller. Dr. Turner, you can complete your 
statement.
    Dr. Turner. It is fine.
    Chairman Miller. Okay. All right. I know that there are 
further questions that I have, but we have spent the better 
part of the day in this hearing. We have more documents to 
receive. Mr. Diaz-Balart.

              Additional Witnesses Would Have Been Useful

    Mr. Diaz-Balart. And thank you, and Mr. Chairman, you have 
been very generous, and also, I will be quick, but I do think 
it is one of the things that I wish in hindsight, well, even 
though we asked for it, it would have been helpful, in order to 
clarify some of these questions, to get others to testify. None 
of those people that Congressman Klein and I spoke to on all 
sides of these issues were frankly invited to be up here, and I 
think that is frankly a little bit of a disservice, but again, 
I am not here to point a finger. I just want to make that 
point, that I think it would have been a more helpful, since we 
are, unfortunately, I guess, going to continue to try again to 
push personnel issues as Members of Congress. If we are going 
to do that, at least it would have been nice to have all of the 
people involved, and not just some.
    Thank you, Mr. Chairman.
    Chairman Miller. Well, under our rules, the Minority is 
allowed to bring witnesses, and have. I think Dr. Turner is a 
witness of the Minority.
    Mr. Diaz-Balart. Yes, Mr. Chairman. We brought him. We, 
again----
    Chairman Miller. We will continue to----
    Mr. Diaz-Balart. He would have been good to have----
    Chairman Miller. It is almost certain that we will have 
another hearing on this topic, since we still do not have all 
of the documents. And that is, let me take back the implication 
that that was a criticism. I know we have asked, with a very 
short time, for documents. We do need the documents. We do need 
to look at this. Now, the Minority has said that for us to look 
at this is simply a personnel issue, but for you to look at was 
the Lord's own work, that you had to look at it, you had to 
make sure that the National Hurricane Center, the Hurricane 
Center was doing its work.
    Mr. Diaz-Balart. That is their job.
    Chairman Miller. Well, agreed. It is also our job in 
exercising oversight to know what goes on. And they are, I 
began this hearing, and I know that Mr. Lampson wishes to make 
a final remark as well. I began this hearing saying I did not 
know what had happened at that hearing. Mr. Inglis has used the 
phrase, the Majority's theory of the case. This isn't a case, I 
don't have a theory. I want to know what has happened.
    This exploded into national attention a couple weeks ago. I 
think we all found out about it at the same time. I think we 
all see this as important. It is important. It is important to 
our role as Members of the Committee that has oversight 
jurisdiction of NOAA, of the Hurricane Center, to find out what 
is going on. And there is a lot more that I want to know.
    There will be other witnesses. As I pointed out earlier 
this week, in a hearing of these two subcommittees, I don't 
want to hear complaints at the hearing about the procedures 
that we are using when there has been ample opportunity, 
leading up to the hearing, to talk about it. If there are 
witnesses that the Minority wishes to call, let us know about 
it. Our staffs are in constant contact. The Members know how to 
talk to each other as well.
    Members can get the cell phone numbers of other Members. My 
home telephone number in Raleigh is in the phonebook. I am 
visible on the floor, we can find each other, and to hear 
about, hear complaints of the procedures of the Committee, 
about who we have called or not called at the hearing, does 
make me wonder if the purpose of the complaints is simply to 
distract attention from the subject of the hearing.
    There are still questions that I have. The Minority has 
drawn out, in its questioning, the question about whether Mr. 
Proenza would retaliate against anyone, and that is why this 
management team needed to show up unannounced, which I am sure 
felt, to all the employees there, like law enforcement serving 
a search warrant. I do not think that is an ordinary procedure. 
The ordinary way that a management team comes in to look at how 
an office, a center is being run.

                 More on State of Hurricane Forecasting

    There has been disputed question here about how well we are 
integrating the best science into our forecasting. I have 
heard, like Mr. Klein, not in anticipation of this hearing, not 
with somebody, from someone with any axe to grind, but someone 
with expertise in atmospheric research, in meteorological 
research, who has told me that the forecasting by the Hurricane 
Center is not what it should be. It is not what we should 
expect with where science is today, and particularly, as others 
have pointed out since I raised the issue, intensification, 
intensity of hurricanes, forecasting intensity is not what it 
should be.
    I have also heard inland flooding, forecasts of inland 
flooding is far short of what it should be. Virtually all the 
lives lost in my state from hurricanes in the last few years 
have been from inland flooding. If we can be much better at 
that, as I have been told we can be, we should be, and I want 
to make sure yes, there are some parallels here to the case of 
Moose Cobb, the Inspector General at NASA.
    When an important agency of government appears to melt 
down, it is appropriate for us to look at what has happened. 
Was it the case that there was resistance at the Center to 
changes that needed to happen to improve the science, to do a 
better job of forecasting? Is that what happened?
    Mr. Diaz-Balart. Would the gentleman yield?
    Chairman Miller. Well, in a moment, I will.
    Mr. Diaz-Balart. Thank you, sir.
    Chairman Miller. In a moment.
    Mr. Diaz-Balart. Thank you.
    Chairman Miller. We welcome, we depend upon critics within 
government to tell us what is going on. Our job of oversight 
depends upon people within the government, employees speaking 
freely to us, to tell us what questions to raise. There is no 
question that Mr. Proenza was a critic, was willing to speak 
his mind, was willing to stand up to superiors in this 
department, in NOAA, in the Weather Service.
    We certainly--it is certainly appropriate to look at 
whether that is part of what happened here. Was this genuinely 
a revolt by those below him, or was this something provoked by 
those above him in the hierarchy? Those are all the questions 
that I still have, that this hearing has not answered, and we 
still have a good many more documents to be provided.
    I know Mr. Lampson wishes to be recognized, so let me 
recognize Mr. Diaz-Balart first, and then, Mr. Lampson.

                         Role of the Committee

    Mr. Diaz-Balart. Thank you. Thank you, Mr. Chairman, again. 
You are very kind to recognize me.
    You know, I don't disagree with a lot of your questions, 
and I think the issue, as to whether we are getting the best 
forecasting available is something that this committee needs to 
look at, and needs to continue to look at. Obviously, I 
question whether we should be dealing in the personnel issue, 
but if we are going to, and that is okay, because you are Chair 
of the Subcommittee, so you can do what you would like.
    It would just seem to me, Mr. Chairman, that there are some 
things that shouldn't be partisan. For example, if we are going 
to be looking at what happened in this particular case, it 
would seem to me that the Majority would want to get as many 
witnesses on all sides.
    Chairman Miller. Would the gentleman yield on that?
    Mr. Diaz-Balart. Of course, sir.
    Chairman Miller. Will you have any objection to our 
bringing employees of the National Hurricane Center here?
    Mr. Diaz-Balart. Absolutely not. I don't think----
    Chairman Miller. Or taking our committee there to, or to 
take our committee there to have a field hearing?
    Mr. Diaz-Balart. If I may, Mr. Chairman.
    Chairman Miller. It is your time.
    Mr. Diaz-Balart. Thank you. You know, I am not one to 
object to what the Majority wants to do. My statement.
    Chairman Miller. Then we will assume that there won't be an 
objection.
    Mr. Diaz-Balart. Well, my statement would be, though, 
however, twofold, that we should clearly not do anything that 
is going to jeopardize the ability of the forecasters in the 
heart of a hurricane season to do their job. I think we are 
already doing that as it is, and I think it would be highly 
irresponsible, borderline negligence for us to continue to ask, 
not NOAA, continue to ask the Hurricane Center people to, you 
know, spend their time doing things that are not just looking 
for hurricanes, number one. After the hurricane season is over, 
I think we should spend as much time, that would be a privilege 
and an honor to have you all in Miami, and I think you would be 
highly impressed.
    I just do want to mention, though, that, and again, you 
know, I am not crying over spilled milk, but we brought this 
up, but this was brought up, that we only had, I understand how 
the rules work, we had one, to have one witness. It would seem 
to me that this should not be partisan, that if the Majority 
wants to learn the facts, it shouldn't have to be a Minority 
witness. It should be the witnesses that are available, to find 
out what the facts are, and it is just, frankly, a little 
disheartening that such, and I, look, it may be a little 
personal, and please bear with me.
    The men and women in the Hurricane Center are incredible 
professionals, incredible professionals. You don't know them 
personally like I do. And when those people speak out, and 
then, this committee has a hearing to find out why they spoke 
out, and what happened, and they are not invited, it is frankly 
sad. It really is sad, and again, we had one witness, we got 
it. It would have been nice for the Majority to at least have 
the intention of, if you were trying to find out what is 
happening, you had Mr. Proenza. He is a great guy. I am glad he 
was here. How is it possible to not call, I am confused, how is 
it possible to not call some of those 20 plus people to have 
them up here?
    Chairman Miller. Would the gentleman yield?
    Mr. Diaz-Balart. Yes, sir. Of course.
    Chairman Miller. Do you know that we did call the staff, 
and that we did speak?
    Mr. Diaz-Balart. No, actually not at the Hurricane Center.
    Chairman Miller. And called them as----
    Mr. Diaz-Balart. Not at the Hurricane Center. And we----
    Chairman Lampson. Well, it is, as Mr. Diaz-Balart, as you 
have pointed out, it is the middle of the hurricane season now.
    Chairman Miller. Generally, the Chair welcomes Mr. Diaz-
Balart's suggestion that this committee have a field hearing in 
Miami, and say December or January.
    Mr. Diaz-Balart. Mr. Chairman, you are a wise man.
    Chairman Miller. The Chair welcomes bipartisan 
contributions such as that. And Mr. Lampson.
    Chairman Lampson. I think that I got my question answered 
about support for the hearing, and your support for having the 
right people come up here. That is there or here. Doesn't 
matter, but the point is we----
    Mr. Diaz-Balart. After the hurricane season, right, Mr. 
Chairman?
    Chairman Lampson. We need to have those things. I would 
like to just mention, in my part of closing, that we did ask 
for some specific staff, high ranking assistants to Admiral 
Lautenbacher, to attend today. And granted, it was not done by 
letter. There was an understanding when staff asked, I think 
that is an inappropriate request. In the future, we would like 
for that certainly to be honored. We don't, again, don't think 
that it is inappropriate to do so, in matter.
    With that, Mr. Chairman, I will yield back my time, and I 
thank the panel for being here.
    Chairman Miller. I also thank the panel for being here, and 
I appreciate what I expect to be continued cooperation with the 
Committee on this issue. I thank everyone for being here, and 
with that, the hearing is adjourned.
    [Whereupon, at 2:06 p.m., the Subcommittee was adjourned.]

                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
